<html>
<title> - SECURITY ISSUES RELATING TO IRAQ</title>
<body><pre>[Senate Hearing 112-459]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-459
 
                    SECURITY ISSUES RELATING TO IRAQ

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2011

                               __________

         Printed for the use of the Committee on Armed Services






        Available via the World Wide Web: http://www.fdsys.gov/

                               __________





                  U.S. GOVERNMENT PRINTING OFFICE
74-867                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001





                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
JACK REED, Rhode Island              JAMES M. INHOFE, Oklahoma
DANIEL K. AKAKA, Hawaii              JEFF SESSIONS, Alabama
E. BENJAMIN NELSON, Nebraska         SAXBY CHAMBLISS, Georgia
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
CLAIRE McCASKILL, Missouri           SCOTT P. BROWN, Massachusetts
MARK UDALL, Colorado                 ROB PORTMAN, Ohio
KAY R. HAGAN, North Carolina         KELLY AYOTTE, New Hampshire
MARK BEGICH, Alaska                  SUSAN M. COLLINS, Maine
JOE MANCHIN III, West Virginia       LINDSEY GRAHAM, South Carolina
JEANNE SHAHEEN, New Hampshire        JOHN CORNYN, Texas
KIRSTEN E. GILLIBRAND, New York      DAVID VITTER, Louisiana
RICHARD BLUMENTHAL, Connecticut

                   Richard D. DeBobes, Staff Director

               David M. Morriss, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

                    Security Issues Relating to Iraq

                           november 15, 2011

                                                                   Page

Panetta, Hon. Leon E., Secretary of Defense......................     7
Dempsey, GEN Martin E., USA, Chairman of the Joint Chiefs of 
  Staff..........................................................    11
McGurk, Brett H., Visiting Scholar, Columbia University School of 
  Law............................................................    48
Ollivant, Dr. Douglas A., Senior National Security Fellow, 
  National Security Studies Program, The New America Foundation..    57
Pollack, Dr. Kenneth M., Director, Saban Center for Middle East 
  Policy, The Brookings Institution..............................    65

                                 (iii)


                    SECURITY ISSUES RELATING TO IRAQ

                              ----------                              


                       TUESDAY, NOVEMBER 15, 2011

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:38 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Nelson, Udall, Hagan, Manchin, Shaheen, Gillibrand, Blumenthal, 
McCain, Inhofe, Sessions, Chambliss, Wicker, Brown, Ayotte, 
Collins, Graham, and Cornyn.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Jessica L. Kingston, 
research assistant; William G.P. Monahan, counsel; Michael J. 
Noblet, professional staff member; and William K. Sutey, 
professional staff member.
    Minority staff members present: David M. Morriss, minority 
staff director; Adam J. Barker, professional staff member; 
Christian E. Brose, professional staff member; Paul C. Hutton 
IV, professional staff member; Lucian L. Niemeyer, professional 
staff member; Michael J. Sistak, research assistant; and Diana 
G. Tabler, professional staff member.
    Staff assistants present: Hannah I. Lloyd, Brian F. Sebold, 
and Bradley S. Watson.
    Committee members' assistants present: Vance Serchuk, 
assistant to Senator Lieberman; Carolyn Chuhta, assistant to 
Senator Reed; Ann Premer, assistant to Senator Nelson; Gordon 
Peterson, assistant to Senator Webb; Casey Howard, assistant to 
Senator Udall; Roger Pena, assistant to Senator Hagan; Joanne 
McLaughlin, assistant to Senator Manchin; Patrick Day and Chad 
Kreikemeier, assistants to Senator Shaheen; Elana Broitman, 
assistant to Senator Gillibrand; Anthony Lazarski, assistant to 
Senator Inhofe; Lenwood Landrum, assistant to Senator Sessions; 
Joseph Lai, assistant to Senator Wicker; Charles Prosch, 
assistant to Senator Brown; Brad Bowman, assistant to Senator 
Ayotte; Ryan Kaldahl, assistant to Senator Collins; and Sergio 
Sarkany, assistant to Senator Graham.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Today the committee receives testimony from two panels of 
witnesses on security issues relating to Iraq, including the 
withdrawal of U.S. troops and the long-term U.S.-Iraq 
relationship.
    Our first panel consists of Secretary of Defense Leon 
Panetta and Chairman of the Joint Chiefs of Staff General 
Martin Dempsey. This panel will be followed by a panel of 
outside witnesses.
    First, a very warm welcome to you, Mr. Secretary, and to 
you, General Dempsey.
    Last month, the President announced that all U.S. military 
forces would be coming home from Iraq by the end of this 
December as required under the 2008 U.S.-Iraq Security 
Agreement which had been agreed to by President George W. Bush 
and Prime Minister Maliki. The fulfillment of our obligations 
under that 2008 agreement represents a bipartisan U.S. policy, 
set by a Republican President and carried through to completion 
by his Democratic successor. U.S. Forces Iraq under General 
Lloyd Austin is on track to meet the December legal deadline 
for the withdrawal of the remaining U.S. military forces and 
equipment. As of today, there are around 30,000 U.S. military 
personnel in Iraq, down from a peak of 160,000 during the surge 
in 2007. At the beginning of Operation New Dawn in September of 
last year, the United States had 92 bases in Iraq; after the 
closure of Balad, we are down to 11. Department of Defense 
(DOD) property in Iraq has declined from 2 million pieces of 
equipment September a year ago to around 600,000 pieces of 
equipment now.
    We arrive at this point after 8\1/2\ years of conflict and 
great sacrifice by our service men and women, their families, 
and the American people. Many of our men and women in uniform 
have served multiple tours in Iraq. They have been separated 
from their families for months and years at a time, and many 
will bear the scars of this conflict for the rest of their 
lives. Over 4,400 U.S. personnel have been killed and nearly 
32,000 wounded in Iraq, and the direct costs of Operation Iraqi 
Freedom total over $800 billion. We owe an immense debt of 
gratitude to our military men and women and their families.
    The administration had sought to reach an agreement with 
the Iraqi Government for military trainers to remain in Iraq 
after December 31. However, those negotiations reached an 
impasse on the issue of legal immunity for our troops, that is, 
protections from prosecution in Iraqi courts. Once it became 
clear that the Government of Iraq was not prepared to grant our 
service men and women the same legal protections that they had 
had under the 2008 Security Agreement and the same legal 
protections that the U.S. military has under agreements with 
other countries in the region, President Obama decided that all 
U.S. military forces would be withdrawn as provided for under 
the 2008 agreement. I believe that that was the right decision.
    I would have supported a small U.S. residual presence in 
Iraq of a few thousand troops with a limited mission of 
training Iraqi security forces and providing additional 
protection for our diplomatic personnel if, and only if, Iraq 
had agreed to legal protections for those U.S. troops. I 
believe our military commanders supported leaving a residual 
military force if, and only if, legal protections were provided 
and that they did not support keeping U.S. troops in Iraq 
without immunity from prosecution in Iraqi courts.
    Our military withdrawal, as agreed to in the 2008 Security 
Agreement, sends a clear message to the Iraqi people and the 
Arab world that the United States keeps its commitments. It 
puts the lie to propaganda that the United States is an 
occupation force in Iraq.
    It is time to complete the transition of responsibility for 
Iraq's security now to the Iraq Government. The Iraqis are in a 
position to handle their own internal security. Violence in 
Iraq has dropped 90 percent from its peak during the surge. At 
the same time, the Iraqi security forces have made significant 
progress. According to U.S. Forces-Iraq, Iraqi security forces 
exceed 650,000 people. In addition, Iraq can assume the costs 
of its own security, with oil production in Iraq reaching 
record highs. Government of Iraq oil revenues during the first 
9 months of 2011 were more than 50 percent greater than during 
the same period the year before and exceeded Iraqi budget 
projections for 2011 by more than 20 percent.
    With the withdrawal of U.S. forces from Iraq, one chapter 
in U.S.-Iraqi relations closes and another chapter opens. This 
new chapter in U.S.-Iraqi relations after December is not an 
abandonment of Iraq. The United States remains committed to the 
bilateral Strategic Framework Agreement (SFA) which was entered 
into at the same time as the 2008 Security Agreement. The SFA 
sets out numerous areas for continued U.S.-Iraqi cooperation, 
including on defense and security issues. The United States has 
stood up a robust Office of Security Cooperation (OSC) at the 
U.S. embassy and sites across Iraq to manage security 
cooperation efforts in support of the Government of Iraq. By 
January of next year, this office will be administering nearly 
370 military sales to Iraq, totaling nearly $10 billion.
    Certainly Iraq faces a number of significant security 
challenges, which the United States can assist Iraq in 
confronting. Al Qaeda in Iraq and affiliated terrorist 
organizations seek to exploit ethnic divisions among Iraq's 
sectarian groups and minorities. In this regard, recent arrests 
of Sunni political and intellectual leaders by the Maliki 
Government have exacerbated Sunni-Shia tensions, potentially 
creating an opening for al Qaeda to exploit. We would be 
interested in hearing from our witnesses this morning what 
steps the administration has taken to try to defuse that 
situation.
    In northern Iraq, the internal boundary remains under 
dispute between the Kurds and the Government of Iraq. The 
initiative put in place by U.S. Forces Iraq to reduce or avoid 
conflict, which is called the Combined Security Mechanism, is 
transitioning from a three-way mechanism involving U.S., Kurd, 
and Iraqi security forces to one operating bilaterally between 
Kurd and Iraqi security forces. I hope our witnesses will 
address how the United States intends to play an overwatch role 
along the disputed internal boundary, particularly through the 
U.S. consulate in Erbil and the OSC site in Kirkuk. We would 
also be interested in hearing whether there could be a role for 
a multilateral peacekeeping force to maintain stability along 
this boundary while the parties address the outstanding 
political and security issues.
    Our concern about the security of the Christian minorities 
is very strong. We need to work with the Government of Iraq to 
ensure it has the will and the capability to protect Iraq's 
religious minority communities from targeted violence and 
persecution.
    The status of the residents at Camp Ashraf from the Iranian 
dissident group MEK remains unresolved. As the December 2011 
deadline approaches, the administration needs to remain 
vigilant that the Government of Iraq lives up to its 
commitments to provide for the safety of Camp Ashraf residents 
until a resolution of their status can be reached. We need to 
make it clear to the Government of Iraq that there cannot be a 
repeat of the deadly confrontation begun last April by Iraqi 
security forces against Camp Ashraf residents.
    Another challenge is Iran's efforts to influence the 
political and security environment in Iraq. Iran continues to 
fund, train, and equip extremist groups, groups that have 
targeted U.S. forces in Iraq for deadly attacks. I hope our 
witnesses this morning will address the capability of the Iraqi 
security forces and the willingness of the Maliki Government to 
respond forcefully to attacks by these Iranian-backed groups 
after the withdrawal of U.S. military forces.
    The departure of U.S. military forces from Iraq in the 
coming weeks, consistent with our legal obligations, can 
contribute to advancing the normalization of relations between 
the United States and Iraq based on mutual respect and shared 
interests as sovereign nations. That can strengthen stability 
not only in Iraq but also throughout the region.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and thank you for 
convening this important hearing.
    Let me thank our distinguished witnesses for joining us 
today, for their continued service to our Nation, and for their 
tireless support of our men and women in uniform.
    The purpose of this hearing, as the chairman said, is to 
examine the implications of the President's decision of October 
21 to end negotiations with the Government of Iraq over whether 
to retain a small U.S. military presence there beyond this 
year. As a result, all U.S. military forces will withdraw from 
the country by next month.
    I continue to believe that this decision represents a 
failure of leadership, both Iraqi and American, that it was a 
sad case of political expediency, supplanting military 
necessity, both in Baghdad and in Washington, and that it will 
have serious negative consequences for the stability of Iraq 
and the national security interests of the United States. I 
sincerely hope that I am wrong, but I fear that General Jack 
Keane, who was one of the main architects of the surge, is 
correct once again when he said recently ``We won the war in 
Iraq, and we are now losing the peace.''
    Let me be clear: Like all Americans, I am eager to bring 
our troops home. I do not want them to remain in Iraq or 
anywhere else for a day longer than necessary. But I also agree 
with our military commanders in Iraq, who were nearly unanimous 
in their belief that a small presence of U.S. forces should 
remain a while longer to help the Iraqis secure the hard-won 
gains that we had made together. General Petraeus, General 
Odierno, General Austin, and other military leaders under their 
command, all of them believed that we needed to keep some 
troops in Iraq. This is what they consistently told me and 
others during our repeated visits to Iraq.
    Our commanders held this view for a very specific reason, 
which they made clear to this committee on numerous occasions. 
For all the progress the Iraqi security forces have made in 
recent years, and it has been substantial, they still have some 
critical gaps in their capabilities that will endure beyond 
this year. Those capability gaps include enabling functions for 
their counterterrorism operations, the control of Iraq's 
airspace and other external security missions, intelligence 
collections and fusion, and training and sustainment of the 
force. Indeed, in the latest report of the U.S. Special 
Inspector General for Iraq Reconstruction, the chief of staff 
of the Iraqi military is quoted as saying that Iraq will not be 
able to fully provide for its own external defense until 
sometime between 2020 and 2024. Specifically he says, ``Iraq 
will not be able to defend its own air space until 2020, at the 
earliest.'' Unfortunately, the President chose to disregard the 
nearly unanimous advice of our military commanders, not for the 
first time, as well as the clear long-term needs of Iraq's 
military.
    Advocates of withdrawal are quick to point out that the 
current security agreement, which requires all U.S. troops to 
be out of Iraq by the end of this year, was concluded by the 
Bush administration. That is true. It is also beside the point. 
The authors of that agreement always intended for it to be 
renegotiated at a later date to allow some U.S. forces to 
remain in Iraq. As former Secretary of State Condoleezza Rice, 
whose State Department negotiated the security agreement, put 
it recently, ``There was an expectation that we would negotiate 
something that looked like a residual force for our training 
with the Iraqis.'' She said ``Everybody believed it would be 
better if there was some kind of residual force.'' So you can 
believe testimony and statements we have heard or you can 
believe what the then-Secretary of State believed would be the 
case as it regards to a residual force in Iraq.
    Clearly Iraq is a sovereign country, and we cannot force 
the Iraqis to do things they do not want to do. But this also 
misses the main point. All of the leaders of Iraq's major 
political blocs wanted some U.S. troops to remain in the 
country. I met, along with Senator Graham and Senator 
Lieberman, with all of these leaders this year and that is what 
they told us. The problem had more to do with the 
administration's unwillingness or inability, or both, on more 
than one occasion to provide the Iraqis with a clear position 
on what our government wanted. The administration seemed more 
concerned with conforming to Iraq's political realities than 
shaping those realities, focused more on deferring to Iraq's 
interests than securing the critical interest we had at stake 
at this process.
    So what will be the implications of the full withdrawal of 
U.S. troops from Iraq? My concern is that all of those 
disturbing and destabilizing trends in Iraq are now at much 
greater risk of becoming even more threatening, and the events 
of the past month alone offer many reasons to think that this 
may already be happening.
    One such threat to Iraq's stability is rising sectarianism. 
At the end of last month, Prime Minister Maliki's government 
arrested more than 600 Iraqis, mostly Sunnis, who were 
characterized as Baathist coup-plotters but who may have also 
included ordinary political opponents of the government. This 
action has only exacerbated tensions with Iraq's Sunnis who 
already see the political process as unresponsive and unfairly 
exclusive. At the same time, longstanding tensions between 
Iraqi Arabs and Kurds are arising over the control of the 
country's hydrocarbons. Last week, the president of the 
Kurdistan Regional Government, Massoud Barzani, warned that the 
withdrawal of U.S. troops could lead to ``an open-ended civil 
war.''
    In short, while Iraq's nascent democracy seems to be at 
growing risk from a new centralization of authority, the 
sectarian rivalries who had almost pulled the country apart 
before the surge are now showing troubling signs of reemerging.
    A related threat comes from a resilient al Qaeda in Iraq 
and, on the other side, Shia militias that take orders from 
Iran. A November 5th article in the New York Times reports 
growing concern among senior American and Iraqi leaders that al 
Qaeda in Iraq is ``poised for a deadly resurgence.'' Similarly, 
one of the most dangerous Iraqi Shia militant groups recently 
participated in a gathering of regional terrorist groups in 
Beirut, which included Hezbollah and Hamas, suggesting that 
Iranian-backed forces in Iraq may seek to establish a state 
within a state that can serve as a base for engaging in 
destabilizing activities beyond Iraq. At the same time, not one 
day after the President's withdrawal announcement, Muqtada al-
Sadr stated that Iraqis should view U.S. embassy officials in 
Iraq as ``occupiers,'' and that they should be targets of his 
``resistance'' movement.
    This points to a final threat, the rise of Iranian 
influence in Iraq. While there are certainly limits to this 
influence, the fact remains that Iran's number one priority 
this year was to get all U.S. troops out of Iraq. They will now 
accomplish that goal, and in his public comments, Iran's 
Supreme Leader has barely been able to contain his enthusiasm. 
He has referred to the withdrawal of U.S. troops from Iraq as 
constituting the ``golden pages'' of Iraq's history. Other 
Iranian leaders have described our impending withdrawal as a 
great victory for Iran. Iraqis, on the other hand, appear to be 
making the necessary accommodations to an emboldened Iran. The 
week after the President's announcement, Kurdistan President 
Barzani went to Iran. Next week, the chief commander of the 
Iraqi army plans to visit Iran. It is hard to see the 
withdrawal of U.S. forces from Iraq as anything but a win for 
Iran.
    When Ambassador Ryan Crocker departed Baghdad in 2009, he 
warned, ``the events for which the Iraq War will be remembered 
by us and by the world have not yet happened.'' Unfortunately, 
the events of the past 2 years, culminating in the 
administration's failure to secure a presence of U.S. forces in 
Iraq, have greatly and unnecessarily increased the odds that 
the war in Iraq may be remembered not as the emerging success 
that it appeared when the administration took office, but as 
something tragically short of that. Considering all that our 
troops have sacrificed in Iraq and considering our enduring 
national security interests in Iraq's stability, we have a 
solemn responsibility to stay committed to Iraq's success. But 
as we do, we cannot avoid the fact that Iraq's progress is now 
at greater risk than at any time since the dark days before the 
surge, and that it did not have to be this way.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Secretary Panetta?

    STATEMENT OF HON. LEON E. PANETTA, SECRETARY OF DEFENSE

    Secretary Panetta. Thank you, Mr. Chairman, Senator McCain, 
distinguished members of the committee. Thank you, as always, 
for your continuing support for our men and women in uniform 
and for their families. We deeply appreciate the support that 
we get from all of you that helps those that put their lives on 
the line.
    I appreciate the opportunity to describe our strategy in 
Iraq and to do so alongside General Dempsey who has overseen so 
many critical efforts of the Iraq campaign from its outset in 
2003. I think General Dempsey has been deployed multiple times 
to that area, served in key positions both here in Washington 
and at U.S. Central Command (CENTCOM) in Tampa and has a pretty 
good feel for the situation in Iraq.
    It is helpful, as always, to recall the objective here with 
regards to Iraq. In February 2009, President Obama--and before 
President Obama, President Bush--I heard him say this directly 
to the Iraq Study Group--laid out a very clear and achievable 
goal that was shared by the American and Iraqi people, and that 
was simply an Iraq that is sovereign, stable, and self-reliant; 
in the words of President Bush, an Iraq that could govern, 
sustain, and secure itself.
    Today, thanks to innumerable sacrifices from all involved, 
Iraq is governing itself. It is a sovereign nation. It is an 
emerging source of stability in a vital part of the world, and 
as an emerging democracy, it is capable of being able to 
address its own security needs.
    For our part, the United States is ready to mark the 
beginning of a new phase in our relationship with Iraq, one 
that is normal, similar to others in the region, and based on 
mutual interests and mutual respect.
    As the President announced last month, we are fully 
implementing the 2008 U.S.-Iraq Security Agreement, and under 
the outstanding leadership of General Lloyd Austin--and I 
cannot compliment him enough--there are no limits to what I can 
say about his leadership. It has been absolutely outstanding at 
a very difficult period. We are completing the drawdown of our 
forces by the end of this year. This fulfills the pledge made 
by President Bush, as well as President Obama, which called for 
an end to combat mission last August and a removal of all U.S. 
combat forces by December 31, 2011.
    We are continuing to pursue a long-term training 
relationship with the Iraqis through the OSC which will include 
a limited number of U.S. military personnel operating under our 
embassy and receiving normal diplomatic protections. Through 
the U.S.-Iraq SFA, we also have a platform for future 
cooperation in counterterrorism, in naval and air defense, and 
in joint exercises. We will work with the Iraqis to pursue 
those efforts.
    Let me briefly walk through some of the major challenges 
that have already been pointed out that will confront Iraq and 
mention why I believe that Iraq is at a stage when it is able 
to deal with them. Certainly with our continuing long-term 
relationship, I think they can deal with these issues.
    First is the challenge of extremism. I expect that we will 
see extremists, including al Qaeda in Iraq and Iranian-backed 
militant groups that will continue to plan and continue to 
carry out periodic high-profile attacks. While these groups 
remain capable of conducting these types of attacks, they do 
not enjoy widespread support among the Iraqi population, and 
more importantly, the Iraqis have developed some of the most 
capable counterterrorism forces in the region. They have been 
active against Iranian-backed militants in recent months, and 
we will be in a position to continue to assist them in building 
these capabilities through our OSC. The fact is that despite 
our reduction in forces from well over 150,000 to now 
approximately 24,000, levels of violence in Iraq remain low.
    A second challenge for Iraq is the conflict between 
political blocs, Sunnis, Shias, Kurds, and others, as in any 
democracy. Iraq deals with a range of competing agendas. But 
the solutions to these challenges lie in the political not the 
military realm. Our diplomats, including Ambassador Jeffrey and 
his team, continue to work with and assist the Iraqis in 
bridging these remaining divides, in particular, the formation 
of the government and the appointment of defense and interior 
ministers, which still has not happened and should, and the 
cooperation along the Arab-Kurd divide in the north. Resolving 
all of these issues will take time, but Iraq's political 
leadership remains committed to doing so within the political 
process that has been established.
    A third key challenge is closing the gaps in Iraq's 
external defense. The Iraqis will need assistance in this area, 
including logistics and air defense, and that will be an 
important focus of the OSC. The recent decision by the Iraqis 
to purchase U.S. F-16s, part of a $7.5 billion Foreign Military 
Sales (FMS) program, demonstrates Iraq's commitment to build up 
its external defense capabilities and maintain a lasting 
military-to-military training relationship with the United 
States.
    Finally, one last challenge is the Iranian regime's attempt 
to influence the future of Iraq and advance its own regional 
ambitions. Tehran has sought to weaken Iraq by trying to 
undermine its political processes and, as I have mentioned, by 
facilitating violence against innocent Iraqi civilians and 
against American troops. These destabilizing actions, along 
with Tehran's growing ballistic missile capability and efforts 
to advance its nuclear program, constitute a significant threat 
to Iraq, the broader region, and U.S. interests. Yet, the 
strong, sovereign, and self-reliant Iraq we see emerging today 
has absolutely no desire to be dominated by Iran or by anyone 
else.
    With our partners in the region, the United States is 
committed to countering Iran's efforts to extend its 
destabilizing influence. We have made very clear that we are 
committed to preventing Iran from acquiring nuclear weapons, 
and while we have strengthened our regional security 
relationship in recent years, Iran's destabilizing activities 
have only further isolated that regime. So as we mark this new 
phase in our enduring partnership with Iraq, the Iranian regime 
is more likely than ever to be marginalized in the region and 
in its ability to influence the Iraqi political process.
    Our long-term security partnership with Iraq is part of a 
broader commitment by the United States to peace and security 
throughout the region. Our message to our allies, our friends, 
and our potential adversaries is very clear. We have more than 
40,000 American troops that remain in the Gulf region. We are 
not going anywhere, and we will continue to reassure our 
partners, deter aggressors, and counter those seeking to create 
instability.
    Iraq has come through this difficult period in its history 
and emerged stronger with a government that is largely 
representative of and increasingly responsive to the needs of 
its people. This outcome was never certain, especially during 
the war's darkest days. It is a testament to the strength and 
resilience of our troops that we helped the Iraqi people 
reverse a desperate situation and provided them the time and 
space to foster the institutions of a representative 
government.
    As was pointed out, more than a million Americans have 
served in Iraq. More than 32,000 have been wounded, and as we 
know, nearly 4,500 servicemembers have made the ultimate 
sacrifice for this mission. Americans will never forget the 
service and sacrifice of this next greatest generation and will 
always owe them a heavy debt. In the coming weeks, as our 
forces leave Iraq, they can be proud of what they have 
accomplished, and they and all veterans of the Iraq campaign 
have earned the Nation's most profound gratitude.
    Are there concerns about the future? Of course there are. 
Concerns about what Sadr will do, concerns about Iran, concerns 
about al Qaeda, concerns about Shia extremism, concerns about 
the Arab-Kurd tensions, along with disputes in other sectarian 
areas. There are many of us, many of us that could have 
designed perhaps a different result. There is no question that 
a lot of pressure was brought on the Iraqis, pressures by the 
Senators who visited there, pressures by the President of the 
United States, by the Vice President of the United States, by 
Secretary Clinton, by Secretary Gates, and by myself. But the 
bottom line is that this is not about us. This is not about us. 
It is about what the Iraqis want to do and the decisions that 
they want to make. So we have now an independent and sovereign 
country that can govern and secure itself and, hopefully, make 
the decisions that are in the interests of its people.
    The United States will maintain a long-term relationship 
with Iraq. We are committed to that. We will establish a normal 
relationship as we have with other nations in the region. In 
talking with our commanders--I asked this question yesterday to 
General Odierno who has been there for a good period of time--
they basically said the time has come. The time has come for 
Iraq to take control of its destiny. With our help, they 
hopefully can be a stable and secure nation in that region of 
the world.
    Thank you.
    [The prepared statement of Secretary Panetta follows:]
               Prepared Statement by Hon. Leon E. Panetta
    Thank you, Mr. Chairman, Senator McCain, distinguished members of 
the committee. Thank you for your support for our men and women in 
uniform and their families.
    I appreciate the opportunity to describe our strategy in Iraq and 
to do so alongside Chairman Dempsey, who has--across multiple 
deployments and positions here in Washington and at U.S. Central 
Command (CENTCOM) in Tampa--overseen so many critical efforts of the 
Iraq campaign from its outset in 2003.
    As we all know, this hearing comes at an important turning point in 
the history of Iraq and in the evolving nature of the U.S.-Iraq 
relationship.
    It is helpful to recall our objective in Iraq. In February 2009, 
President Obama laid out a clear and achievable goal shared by the 
American and Iraqi people: an Iraq that is ``sovereign, stable, and 
self-reliant.''
    Today, thanks to innumerable sacrifices from all involved, Iraq is 
governing itself--as a sovereign nation, as an emerging source of 
stability in a vital part of the world, and as an emerging democracy 
capable of addressing its own security needs. For our part, the United 
States is ready to mark the beginning of a new phase in our 
relationship with Iraq--one that is normal, similar to others in the 
region, and based on mutual interests and mutual respect.
    We have built a strong and enduring relationship with Iraq, which 
President Obama and President Maliki will affirm next month when they 
meet in Washington. This broad strategic partnership forms the basis 
for cooperation across a wide range of areas, including economic, 
cultural, educational, and security ties.
    On the security front, as President Obama announced last month, we 
are fully implementing the 2008 U.S.-Iraq Security Agreement. Under the 
outstanding leadership of General Austin, we are completing the 
drawdown of our forces by the end of this year. This fulfills the 
pledge made by President Bush and now by President Obama in his 
February 2009 strategy for Iraq, which called for an end to our combat 
mission last August, and a removal of all U.S. forces by December 31, 
2011.
    Going forward, we will pursue a long-term training relationship 
through the Office of Security Cooperation-Iraq (OSC-I), which will 
include a limited number of U.S. military personnel operating under our 
Embassy and receiving normal diplomatic protections. Through the U.S.-
Iraq Strategic Framework Agreement, we will also have a platform for 
future cooperation in counterterrorism, naval and air defense, and 
joint exercises.
    I believe Iraq is ready to handle security without a significant 
U.S. military footprint. Since this administration came into office, we 
have removed more than 100,000 U.S. forces from Iraq and the Iraqis 
long ago assumed primary responsibility for internal security. At the 
same time, violence levels have remained steady at their lowest levels 
since 2003. In January 2009, there were over 140,000 U.S. forces in 
Iraq conducting a combat mission. In the summer of 2009, we removed our 
troops from Iraq's cities. By the summer of 2010, we ended combat 
operations and drew down to fewer than 50,000 forces; those remaining 
forces will leave Iraq as planned by the end of the year. Again, as the 
Iraqis have assumed security control, the level of violence has 
decreased significantly and stayed at historic lows. The number of 
weekly security incidents across Iraq has decreased from 1,500 in 2007 
to fewer than 100 in recent weeks.
    To be sure, Iraq faces a host of remaining challenges, but I 
believe Iraq is equipped to deal with them.
    First, the challenge of extremism. We will likely continue to see 
attacks in Iraq during and after we complete our drawdown. I expect 
that we'll see extremists, including al Qaeda in Iraq and Iran-backed 
militant groups, continue to plan and carry out periodic high-profile 
attacks. But while these groups remain capable of conducting attacks, 
they do not enjoy widespread support among the Iraqi population. The 
Iraqis have some of the most capable counterterrorism forces in the 
region, and we will be in a position to continue to assist them in 
building these capabilities through the OSC-I. Meanwhile, in recent 
months, Iraqi forces have also been active in going after Iranian-
backed militants, recognizing them as a threat not just to U.S. forces 
but also to the Iraqi people and government. Iraqi leaders have also 
pressed Tehran to stop supporting these groups.
    A second challenge for Iraq is conflict between political blocs. As 
in any democracy, Iraq deals with a range of competing agendas, and has 
the added burden of overcoming years of ethnic and sectarian mistrust. 
But the solutions to these challenges lie in the political, not 
military realm. Our diplomats, including Ambassador Jeffrey and his 
team, continue to assist the Iraqis in bridging the remaining divides, 
in particular the formation of the government, appointment of Defense 
and Interior ministers, and cooperation along the Arab-Kurd divide in 
the North. The leadership in Baghdad and the Kurdistan Regional 
Government remain committed to the political process. Resolving all 
these issues will take time, compromise, and strong political 
leadership.
    A third key challenge lies in the area of Iraq's external defense. 
The Iraqis will need assistance to address gaps in this area, including 
logistics and air defense, and that will be an important focus of the 
OSC-I. The size and functions of the OSC-I will be similar to security 
cooperation offices we have in other partner countries in the region, 
such as Saudi Arabia, Egypt, and Turkey. CENTCOM is also developing a 
plan for joint exercises to address challenges in the naval, air, and 
combined arms areas--much like our robust security cooperation with 
other partners in the region. The recent decision by the Iraqis to 
purchase U.S. F-16s, part of a $7.5 billion Foreign Military Sales 
program, demonstrates Iraq's commitment to build up their external 
defense capabilities and maintain a lasting military-to-military 
training relationship with the United States.
    One last challenge is the continuing effort of Iran to attempt to 
influence the future of Iraq. To advance its own regional ambitions, 
the Iranian regime has sought to weaken Iraq by trying to undermine 
Iraq's political processes and, as I have mentioned, by facilitating 
violence against innocent Iraqi civilians, as well as our presence. 
These destabilizing actions, along with Iran's growing ballistic 
missile capability and efforts to advance its nuclear program, 
constitute a significant threat to Iraq, the broader region, and U.S. 
interests. Yet the strong, sovereign, self-reliant Iraq we see emerging 
today has no desire to be dominated by Iran or by anyone else. Iraqi 
nationalism is real and powerful, and the Iraqis have consistently 
shown their willingness to resist the Iranians and their surrogates 
when Tehran has over-reached.
    With our partners in the region, the United States is committed to 
countering Iran's efforts to extend its destabilizing influence in Iraq 
and across the region. We've made very clear that we are committed to 
preventing Iran from acquiring nuclear weapons. While we have only 
strengthened our regional security relationships in recent years, 
Iran's destabilizing activities have only further isolated the regime. 
So as we mark a new phase in our enduring partnership with Iraq, Iran 
is more likely than ever to be marginalized in the region and in its 
ability to influence the Iraqi political process.
    Our long-term security partnership with Iraq is part of a broader 
commitment by the United States to peace and security throughout the 
region. Our allies, friends, and potential adversaries should know that 
we will remain fully engaged in the Middle East, maintaining a robust 
military footprint and advancing cooperative security efforts with our 
partners. With more than 40,000 troops remaining in the Gulf region, 
the U.S. military will continue to reassure partners, deter aggressors 
and counter those seeking to create instability.
    Iraq has come through this difficult period in its history and 
emerged stronger, with a government that is largely representative of--
and increasingly responsive to--the needs of its people. This outcome 
was never certain, especially during the war's darkest days. It is a 
testament to the strength and resilience of our troops that we helped 
the Iraqi people reverse a desperate situation and provided them the 
time and space to foster the institutions of representative government.
    Our troops and their families have borne a very heavy burden during 
more than 8 years of war and have paid a great price. More than 1 
million Americans have served in Iraq, more than 32,000 have been 
wounded, and as we know, nearly 4,500 servicemembers have made the 
ultimate sacrifice for this mission. Americans will never forget the 
service and sacrifice of this next greatest generation and will always 
owe them a heavy debt. In the coming weeks, as our forces leave Iraq, 
they can be proud of what they have accomplished, and they and all 
veterans of the Iraq campaign have earned the Nation's most profound 
gratitude.

    Chairman Levin. Thank you very much, Secretary Panetta.
    General Dempsey.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Dempsey. Thank you, Chairman Levin, Senator McCain, 
and other members of the committee.
    In June 2003, I arrived in Baghdad to take command of our 
Army's 1st Armor Division, and I was given the responsibility 
for the city of Baghdad. Nine months later in April 2004, our 
effort to establish security, to develop Iraqi security forces, 
enable restoration of fundamental services for the Iraqi 
people, and encourage Iraqis to take control of their own 
destiny was at risk. Although about a third of my division was 
already redeployed to Germany, our tour of duty was extended in 
order to suppress an uprising of Shia militia in the southern 
provinces of Iraq. Over the course of the next few days, I 
visited nearly every unit in the division to explain to them 
why it was important that we remain in Iraq for another 4 
months. To their great and everlasting credit to a man and 
woman, they recognized the importance of our mission, they 
embraced the challenge, and they did what their nation asked 
them to do.
    As I look back, I think I will remember most the toughness, 
the resolve, and the resilience of America's sons and daughters 
and their families in those early days. Sometimes, often, 
actually always their character shines through in the toughest 
of times.
    I remember in particular one female staff sergeant 
listening intently as I explained why we were being extended. 
She actually interrupted me to say, hey, listen, General, do 
not worry. We trust you. But, she said, when we get to the 
point where Iraqis can and should do what they need to do for 
themselves, I also trust that you will bring us home.
    Today we are gathered to talk about the future of Iraq. In 
preparing for this session, I have thought a lot about the 
context of that discussion, that discussion with that young 
staff sergeant. I thought about what we set out to accomplish, 
what we have accomplished, and what we should seek to 
accomplish.
    Today we are going to talk about establishing a normal 
security relationship with Iraq. Now, let me put that in 
context.
    In 1991, I left my family to drive Iraq out of Kuwait. In 
2003, I left my family to drive Saddam Hussein out of Baghdad. 
In 2011, we are talking about establishing a normal security 
relationship with Iraq. If you are a colonel or a master 
sergeant in the armed forces of the United States or more 
senior than that, this has been a 20-year journey. We have shed 
blood and invested America's treasure in Iraq. Our futures are 
inextricably linked. It is not a question of whether we will 
continue to invest in Iraq. It is a question of how. There is 
no question we must continue to support the development of the 
Iraqi security forces, and there is no question we must 
continue to support our diplomatic effort so that we can 
continue to demonstrate our commitment to Iraq's nascent 
democracy.
    In anticipation of the question about whether I am 
concerned about the future of Iraq, the answer is yes. 
Nevertheless, America's armed forces are proud to have been 
part of this effort to provide Iraq the opportunities it now 
has and we are eager to be part of the effort to determine how 
we can continue to partner with them on issues of common 
interests for the future.
    I look forward to your questions.
    [The prepared statement of General Dempsey follows:]
            Prepared Statement by GEN Martin E. Dempsey, USA
    Chairman Levin, Senator McCain, and members of the committee, thank 
you for this opportunity to discuss the beginning of a new chapter in 
the United States' relationship with Iraq.
    In just a few weeks, the U.S. military will complete its withdrawal 
from Iraq after nearly 9 years of war. This departure does not mark the 
end of our military-to-military relationship with Iraq, but rather the 
transition toward a normal one. It will make our diplomats the face of 
the United States in Iraq. It will clearly signal the full assumption 
of security responsibilities by the forces, the leaders, and the people 
of Iraq. It creates an opportunity that is theirs to seize.
    The United States and Iraq agreed on this transition 3 years ago 
when it was clear that the surge of American and Iraqi forces had 
driven violence to all-time lows. In so doing, we helped create the 
security conditions that have allowed Iraqi institutions to continue to 
mature. At that time, we agreed that the transfer of security 
responsibilities would begin with the U.S.-Iraq Security Agreement 
taking effect on January 1, 2009 and the withdrawal of U.S. combat 
forces from Iraqi cities by June 30, 2009, and that the full withdrawal 
of our forces from the country would be completed by December 31, 2011. 
When the Security Agreement and the Strategic Framework Agreement were 
signed, President Bush noted that the dates were ``based on an 
assessment of positive conditions on the ground and a realistic 
projection of when U.S. forces [could] reduce their presence and return 
home without sacrificing the security gains made since the surge.''
    Today, the Iraqi Security Forces (ISF) are responsible for the 
security needs of their country. There are now more than 600,000 Iraqis 
serving in the army, police, and other security components. Their 
growth and professionalization have been considerable. They have the 
capacity to independently secure the population, protect critical 
infrastructure, and conduct counterinsurgency and counterterrorist 
operations. In addition, they are continuing to develop the 
foundational capabilities to defend the country against external 
aggression.
    Iraq's security forces must stand up to several very real threats. 
Foremost are those that seek to undermine national unity. Ethno-
sectarian divisions--though not manifested in murderous death squads 
run out of corrupt ministries as in the past--are still a reality in 
Iraq's politics and security dynamics. Arab-Kurd tensions inhibit full 
cooperation between the ISF and Kurdish security elements. Isolated, 
residual elements of al Qaeda in Iraq conduct intermittent attacks and 
seek to incite sectarian violence. But, the more serious threat comes 
from malign Iranian influence that undermines political progress. We 
believe and expect Iraqi leaders and forces will confront these threats 
with steady resolve.
    More work must be done for the Iraqis to better confront internal 
and external aggression. In particular, they need to develop air 
defense, intelligence, and logistics capabilities. Within the context 
of a normalized military-to-military relationship, we will continue to 
work on strengthening Iraq's defenses and security institutions. We 
have established the Office of Security Cooperation in Iraq, a 
relatively small training and advisory contingent operating under the 
authority of the U.S. Ambassador. It will resemble the robust capacity 
building efforts we have with other partners such as Egypt and Saudi 
Arabia. Our security assistance officers will advise the ISF in closing 
their capability gaps, assist in the expansion of their training 
programs, and facilitate their procurement of new equipment. In the 
future, we hope this office will help integrate the Iraqi forces into 
broader regional security cooperation activities.
    This military-to-military cooperation is just one component of our 
strategic partnership with Iraq as outlined in the 2008 Strategic 
Framework Agreement. Our embassies and consulates will continue to 
build ties in many areas, including education, economic development, 
agriculture, health care, and energy. This will help Iraq continue to 
develop its potential and ensure we take advantage of our shared 
achievements and sacrifices. It is an essential, but still dangerous 
mission. We cannot lose sight of the risks our civilian and military 
personnel will continue to face. We cannot fail to fund it at 
sustainable levels.
    This transition will also advance our broader regional security 
goals. As we withdraw our forces from Iraq, we will reposture to 
preserve military options in the region. We will retain a credible and 
capable forward presence to safeguard our interests, promote regional 
security, and signal our resolve. Our forces, together with those of 
our many partners, will be fully capable of deterring aggression, 
countering terrorism and proliferation, and responding to any crisis 
that should arise.
    This transition in Iraq would not have been possible had the brave 
men and women of our military not done all the many things we asked of 
them over the past decade. We asked our military to depose a brutal 
dictator who had started wars with his neighbors and murdered countless 
numbers of his own people. We asked them to restore control to a nation 
whose governing institutions and facilities had suffered decades of 
oppression and neglect. We asked them to build, train, mentor, and 
fight beside a new army and a new police force. We asked them to 
provide the space for a new, open, democratic, and accountable 
government to emerge. We asked them to be diplomats and city managers. 
We asked them to combat rejectionists, and then insurgents, and then 
international terrorists, and then sectarian death squads. When the 
situation appeared desperate, we asked them to double down, to surge in 
the face of seemingly insurmountable odds, and to maintain hope at a 
time when most Americans--most of the world--had abandoned all hope. We 
asked them to leave their families, sometimes for up to 15 months at a 
time, and we asked them to do it again and again and again.
    Our successes in Iraq and the conditions that allow us to withdraw 
our forces with a sense of pride and accomplishment are the result of 
the sweat, blood, determination, and unrelenting hope of the over one 
million of our men and women in uniform who have served in Iraq. They 
have done everything we have asked of them and more. They have done 
what many believed was not possible. For that, our Nation owes them a 
tremendous debt, and I thank Congress for your continued support of 
them.

    Chairman Levin. Thank you very much, General Dempsey.
    Let us try an 8-minute round for the first round.
    Let me ask you both this question about the 2008 U.S.-Iraq 
Security Agreement which was agreed to between President Bush 
and Prime Minister Maliki which requires the withdrawal of U.S. 
forces by the end of December of this year.
    There has been an effort made to negotiate continuation of 
a limited number of U.S. forces beyond December of this year, 
particularly trainers. Let me ask you first, General. Did we 
make a strong effort to negotiate a continuing presence of 
trainers providing there was an immunity agreement with Iraq so 
that our people would not be subject to Iraqi courts?
    General Dempsey. Senator, I was the Chief of Staff of the 
Army during that period of time, and I can tell you that in 
conversations among the Joint Chiefs, we were all asked to 
engage our counterparts, encourage them to accept some small 
permanent footprint. Our recommendation actually was a small 
permanent footprint and a rotational training agreement for 
field training exercise and such, built fundamentally around 
what we call the ``program of record,'' which is the FMS case. 
So I can speak for the Joint Chiefs having been encouraged by, 
first, Secretary Gates and then Secretary Panetta to engage our 
counterparts.
    Chairman Levin. Did you make the effort to support a 
continuing limited presence of U.S. forces?
    General Dempsey. I did.
    Chairman Levin. Are you willing to have those forces remain 
without an agreement relative to immunity for those troops?
    General Dempsey. No, sir, I am not, and it was the 
recommendation and advice and strong belief of the Joint Chiefs 
that we would not leave service men and women there without 
protections.
    Chairman Levin. Why is that?
    General Dempsey. Because of the many institutions in Iraq 
that are still evolving and immature. The Iraqi judicial system 
is certainly among those. We did not believe it was appropriate 
or prudent to leave service men and women without judicial 
protections in a country that still had the challenges we know 
it has and a very immature judicial system.
    Chairman Levin. Is it your understanding that that was the 
sticking point, that Iraq was not willing to provide that 
assurance?
    General Dempsey. Sir, it is hard for me to understand 
exactly what Prime Minister Maliki's fundamental bottom line 
was, though I have spoken to him within the past 6 months. What 
I will say is it was part of it. I think the other part of it 
was that he believed it to be in his political interest to 
cause us to live up to the agreement we made to withdraw from 
Iraq in the 2008 agreement. That was called the Security 
Agreement. Now, it is important to remember that underneath 
that was the Security Framework Agreement which establishes six 
lines of operation, and it was his strong preference in my 
conversations with him to base our enduring relationship on 
that and not simply on the matter of military presence.
    Chairman Levin. So from what you know, there was an 
unwillingness on the part of the Iraqi leadership to negotiate 
the continuing presence of our troops for two reasons: one, 
they would not give us the assurance of legal protection or 
immunity; and two, that politically it was not in their 
interest to make such an agreement.
    General Dempsey. That is my understanding, yes, sir.
    Chairman Levin. Given that, is it your understanding that 
our military commanders are also unwilling to have our troops 
there without that legal protection?
    General Dempsey. It was the topic of many secure video 
teleconferences and engagements person to person. I can state 
that they also believed we needed the protections, both General 
Austin and General Mattis, in order to leave our troops there.
    Chairman Levin. So the decision of the President to 
basically comply with a 2008 U.S.-Iraq Security Agreement that 
was agreed to between Presidents Bush and Maliki, that that 
decision to comply with that agreement unless we could 
negotiate a satisfactory continuation of a residual force with 
protection, with immunity--do you agree with the President's 
decision to proceed in that way?
    General Dempsey. I do, Senator.
    Chairman Levin. Secretary Panetta, some have expressed the 
concern that U.S. troop withdrawal from Iraq is going to give 
Iran a propaganda victory, with Iran claiming to have driven 
U.S. forces out of Iraq. Do you believe that Iraqi leaders and 
other Arab nations in the region will buy into Iran's 
propaganda that they drove us out of Iraq?
    Secretary Panetta. I really do not. I think that the one 
thing I have seen time and time again is that Prime Minister 
Maliki in Iraq and other countries in that region basically 
reject what Iran is trying to do, view Iran as having a 
destabilizing influence in that part of the world, do not 
support Iran and what they do. My view is that the region 
largely rejects Iran and its intentions. I think Iraq is at the 
top of that list.
    Chairman Levin. Let me ask you about protection of 
religious minorities. Since our invasion of Iraq in 2003, I 
have worked and many Members of Congress have worked with our 
military and civilian leadership both here and in Iraq to 
ensure that the small religious minority communities in Iraq 
are protected from targeted violence and persecution. Give us 
your assessments--first, Secretary, and then perhaps, General--
of the Iraqi Government's willingness and capability to protect 
the religious minority communities in Iraq, particularly the 
Christians.
    Secretary Panetta. I believe that Ambassador Jeffrey and 
the State Department continue to work very closely with the 
Iraqis to ensure that religious minorities are protected there. 
It is a problem. It is a concern. I think it is going to demand 
continuing vigilance by all of us, continuing pressure by all 
of us on the Iraqi Government that they do everything possible 
to recognize both human and religious rights. There is a lot of 
history here, and there are a lot of challenges here. But I am 
absolutely convinced, when you talk to the political leadership 
in Iraq, that they do not want to have these kinds of 
divisions, they do not want to have this kind of discrimination 
take place within their country. But it is going to require 
constant vigilance to make sure it does not happen.
    Chairman Levin. General, do you have a comment on that?
    General Dempsey. No. Just a comment, Senator, on the fact 
that in the pre-surge period, which many of us remember, it was 
very common for state-sponsored militias out of the security 
ministries to be conducting these kinds of attacks against 
those religious groups that did not agree with their particular 
faith. We have not seen anything like that since the surge, 
meaning the security ministries have become responsible agents 
of government. So not discounting the continued pressure on 
small religious communities, at least there is no evidence that 
it will be state-sponsored, and that is a significant change.
    Chairman Levin. Thank you. Thank you very much.
    Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    You brought up, regrettably, General Dempsey, 2003 and 
2004, the fact is that you did not support the surge and said 
that it would fail. Secretary Panetta was a part of the Iraq 
Study Group that recommended withdrawals from Iraq and opposed 
the surge. So we are all responsible for the judgments that we 
make, and obviously, that affects the credibility of the 
judgments that we make now on Iraq. I regret that you had to 
bring that up, General Dempsey. The fact is that there are some 
of us who were over there in those years you talked about, in 
fact, some maybe even had other members of their family over 
there, and saw that it was failing and that we needed to have 
the surge and the surge succeeded.
    The fact is that we could have been given sovereign 
immunity, as we have in other countries, to keep our troops 
there and give them the immunity that they needed. We have 
other agreements with other countries that guarantee sovereign 
immunity. The fact is that every military leader recommended 
that we have residual forces at minimum of 10,000 and usually 
around 20,000. That was the recommendations made before this 
committee by General Odierno, recommendations made by General 
Petraeus, recommendations made by even lower ranking military 
who had spent, as you mentioned, a great deal of time there and 
did not want to see that service and sacrifice all wasted away 
because of our inability and lack of desire to reach an 
agreement with the Iraqis.
    As I said in my opening statement, the Iraqis are largely 
responsible as well, but the fact is when Senator Lieberman, 
Senator Graham, and I were there, the Iraqis were ready to 
deal. What was the administration's response? They did not have 
a number and missions last May as to our residual force in 
Iraq. So as things happen in that country, things fell apart.
    Now, can you tell the committee, General Dempsey, if there 
was any military commander who recommended that we completely 
withdraw from Iraq?
    General Dempsey. No, Senator. None of us recommended that 
we completely withdraw from Iraq.
    Senator McCain. When did we come up with the numbers of 
troops that we wanted to remain in Iraq? Do you know when that 
final decision was made as to the exact numbers that we wanted?
    General Dempsey. To my understanding, the process started 
in about August 2010, and there was a series of cascading 
possibilities or options that started at about 16,000 and ended 
up with about 10,000 and then migrated to 3,000 and we ended up 
with the program of record.
    Senator McCain. Do you know when that final decision on 
numbers was reached?
    General Dempsey. The final decision on focusing on the OSC 
was based on a conversation between our President and President 
Maliki. Prior to that, I do not know.
    Senator McCain. The reason why I think you do not know is 
because there never was an exact number and missions 
articulated by our Government which would have been a concrete 
proposal for the Iraqi Government. So to say that the Iraqi 
Government did not want us when they did not know the numbers 
and missions that we wanted to have there, of course, makes it 
more understandable why we did not reach an agreement with them 
as it, as you mentioned, cascaded down from 20,000 down to the 
ridiculously small number of 3,000.
    So, Secretary Panetta, we are now going to have a residual 
presence in Iraq of some 16,000 American embassy personnel. Is 
that not correct?
    Secretary Panetta. I believe with contractors, that is 
correct.
    Senator McCain. How are we planning on ensuring the 
security of those 16,000 Americans?
    Secretary Panetta. A lot of that 16,000 are security 
people.
    Senator McCain. So we will now be using civilian 
contractors to protect and maintain the security of the State 
Department personnel, the largest embassy personnel in the 
world. Is that correct?
    Secretary Panetta. That is correct.
    Senator McCain. The comparative costs of a contract 
personnel versus a military individual is dramatically 
different. The costs of a contract personnel is dramatically 
higher than that of the costs of an ordinary servicemember. 
Correct?
    Secretary Panetta. I believe you are correct. I will give 
you an accurate answer later.
    [The information referred to follows:]

    Secretary Panetta did not respond in time for printing. When 
received, answer will be retained in committee files.

    Senator McCain. So in these times of fiscal austerity, we 
withdraw all our military troops and hire a whole bunch of 
contractors, who either rightly or wrongly do not have a very 
good reputation as opposed to the uniformed military, in order 
to secure the safety of some X thousands. You have certain 
thousands who are there for security and some thousands who are 
there--the 16,000 number is divided up that way.
    Secretary Panetta. Senator McCain, if I could just add for 
the record.
    Senator McCain. Sure.
    Secretary Panetta. Actually as Director of the CIA, I had 
talked with Prime Minister Maliki regarding this issue, and 
then when I became Secretary of Defense, I had a number of 
conversations with him as well in which I made very clear, 
along with General Austin and Ambassador Jeffrey, that it was 
extremely important that we needed to have a Status of Forces 
Agreement (SOFA), that we needed to have immunities for our 
troops, that we needed to have that protection. He believed 
that there was possibly a way to do this that did not involve 
having to go to the parliament, to their council for approval. 
It was very clear, among all the attorneys here, that we 
absolutely had to have their approval through their parliament 
if we were going to have a SOFA that provided the kind of 
immunities we needed. I cannot tell you how many times we made 
that clear. I believe the Prime Minister understood that, and 
it was at the point where he basically said I cannot deliver 
it, I cannot get it through the parliament that we were then 
left with the decisions that were made.
    Senator McCain. Again, then we should be having to withdraw 
our troops from those countries where we have a presence that 
we do not have it go through the parliament, that it is done 
through sovereign immunity. The fact is that the President was 
presented with options, either a declaration of sovereign 
immunity made by the government as the case with other 
countries, which the Iraqis may have been willing to do, and 
the other option of demanding it go through the parliament. So 
I guess now we should withdraw those troops from countries that 
we do not have a parliamentary approval from.
    So, look, the fact is if we had given the Iraqis the number 
and the mission that we wanted long ago, if we had done what 
Condoleezza Rice, the Secretary of State, has said, ``everybody 
believed it would be better if there was some kind of residual 
force. There was an expectation we would negotiate something 
that looked like a residual force.'' We met with Barzani and 
Maliki and Allawi, and they were ready to move forward. The 
fact is that they were not given the number and mission that 
the residual U.S. troops would be there for.
    As General Dempsey just mentioned, it cascaded down. It 
cascaded down over months, Mr. Secretary, from 20,000 to 15,000 
to 13,000 to 10,000 to 5,000, and each time there was a 
different number given for Iraqi consideration. That was what 
they told us.
    Now, maybe they were not telling us the truth, Mr. 
Secretary. But we have a relationship with them that goes back 
many, many years, and they have always told us the truth. The 
truth is that this administration was committed to the complete 
withdrawal of U.S. troops from Iraq and they made it happen.
    Secretary Panetta. Senator McCain, that is just simply not 
true. I guess you can believe that, and I respect your beliefs.
    Senator McCain. I respect your opinion.
    Secretary Panetta. But that is not true.
    Senator McCain. The outcome has been exactly as predicted.
    Secretary Panetta. But that is not how it happened.
    Senator McCain. It is how it happened.
    Secretary Panetta. This is about negotiating with a 
sovereign country, an independent country. This was about their 
needs. This is not about us telling them what we are going to 
do for them or what they are going to have to do for us.
    Senator McCain. This is about our needs as well, Mr. 
Secretary.
    Secretary Panetta. This is about their country making a 
decision as to what is necessary here. In addition to that, 
once they made the decision that they were not going to provide 
any immunities for any level of force that we would have 
there--and this is a lot different than other countries, 
frankly, Senator. This is a country where you could very well 
be engaging in combat operations. If you are going to engage in 
those kind of operations, you are going to engage in 
counterterrorism operations, you absolutely have to have 
immunities, and those immunities have to be granted by a SOFA. 
I was not about to have our troops go there in place without 
those immunities.
    Senator McCain. They were ready to make that agreement. 
They were ready to be able to get it through the parliament, 
and for months we did not give them the numbers and mission 
that were necessary in order for us to remain there. Again, 
your version of history and mine are very different, but the 
way it has turned out is the way, unfortunately, many of us 
predicted that it would. In the view of every military expert 
that I know, we are now at greater risk than we were if we had 
had a residual force there.
    By the way, I understand the American people's approval of 
withdrawing from Iraq. I would imagine they probably would 
approve if we would withdraw from Korea and that is because we 
have not made the case as to what is at stake here and what the 
consequences of our failure are.
    I thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman. Thanks, Mr. 
Secretary and General, for being here.
    So I add my voice as one who also felt during the time that 
the SOFA existed between the United States and Iraq, based on 
conversations that I had with leaders in both countries, that 
the expectation was that a residual force would remain at the 
expiration of the SOFA at the end of this year, 2011. The 
reason was clear. It was clear it would have to be negotiated 
as two sovereign nations. The reason was that from our point of 
view certainly, that we had invested so much blood and treasure 
in the success, extraordinary, unexpected success, we have 
achieved in Iraq, that it would not make sense to just pick up 
and leave unless we felt that the country, that the Iraqis were 
totally prepared to protect their own security and the progress 
that they have made, which incidentally, in my opinion, has not 
only been great for them and transformational within their 
history but also throughout the Middle East.
    Personally, I think that the sight of the Iraqis pulling 
that statue of Saddam Hussein down, showing people throughout 
the Arab world that those tyrants were not forever, is one of 
the preconditions, one of the factors that enabled the Arab 
Spring or Arab Awakening that is going on now to occur.
    I also believe that President Obama and Prime Minister 
Maliki must have wanted to have a residual force remain in Iraq 
after January 1st of next year or else they would not have had 
people on both sides negotiating to achieve that end. So to me, 
the failure to reach agreement or the inability to reach 
agreement, causing the total withdrawal of our troops at the 
end of this year, was not a success but a failure. I worry 
about the consequences.
    General Dempsey, as Senator McCain said, we have talked to 
our military commanders over there over the years, and 
everybody said that we should keep some troops. The numbers 
went from probably a low of 5,000 to a high of 25,000 at 
different times.
    I was really interested in your answer to Senator McCain, 
and I appreciate it because I know it is the truth, that no 
military commander, including yourself, recommended zero 
troops, American troops, there after January 1. I presume that 
is because you thought there was an unnecessarily high risk for 
us and Iraq if we had no troops remaining after January 1 of 
next year. Is that a fair assumption?
    General Dempsey. Yes, Senator. The cascading that I 
mentioned to Senator McCain was a result of negotiating the 
missions. The force structure is completely dependent upon the 
missions you ask us to do. Tell me what you want me to do. I 
can build you a force structure to do it.
    Senator Lieberman. Right.
    General Dempsey. The negotiations that occurred were on 
which missions the Iraqi Government wanted us to continue to 
execute, and that is why the numbers went from--the highest 
number I touched was 16,000--but it could very well have been 
25,000--down to about 5,000. But at the end of the day, the 
Iraqi Prime Minister deemed that he wanted to rely on the 
security agreement and base a future relationship on the SFA.
    Senator Lieberman. Understood.
    In your own thinking, since you obviously did not recommend 
zero American troops there after January 1st, what do you think 
now are the greater risks that we face as a result of the fact 
that we will have no continuing military presence in Iraq?
    General Dempsey. Some of the things that the larger 
military footprint addressed will now have to be addressed 
diplomatically, and that is some of the things that have come 
up today about the protection of the small religious 
communities and so forth, the Arab-Kurd tensions, if you will.
    But I also want to mention this OSC will help us ensure 
that the FMS program, the program of record, as we call it, 
that continues to build the institution of the Iraqi security 
forces will continue to be addressed. So this is not a divorce. 
It may feel that way because of the way the Iraqi Government 
came to the decision. But the fact is we will be embedded with 
them as trainers not only tactically but also at the 
institutional level. I think that is an important way to 
mitigate the risk you are talking about.
    Senator Lieberman. Let me, Secretary Panetta, pick up from 
that point. I have heard from friends in Iraq, Iraqis, that 
Prime Minister Maliki said at one point he needed to stop the 
negotiations. Leave aside for the moment the reasons. But he 
was prepared to begin negotiations again between two sovereign 
nations, United States and Iraq, about some American troops 
being in Iraq after January 1st. So that is what I have heard 
from there.
    But I wanted to ask you from the administration point of 
view--and I know that Prime Minister Maliki is coming here in a 
few weeks to Washington--is the administration planning to 
pursue further discussions with the Iraqi Government about 
deploying at least some U.S. forces in Iraq after the end of 
this year?
    Secretary Panetta. Senator, as I pointed out in my 
testimony, what we seek with Iraq is a normal relationship now, 
and that does involve continuing negotiations with them as to 
what their needs are. I believe there will be continuing 
negotiations. We are in negotiations now with regards to the 
size of the security office that will be there. So there are 
not zero troops that are going to be there. We will have 
hundreds that will be present by virtue of that office, 
assuming we can work out an agreement there.
    But I think that once we have completed the implementation 
of the security agreement, there will begin a series of 
negotiations about what exactly are additional areas where we 
can be of assistance, what level of trainers do they need, what 
can we do with regard to counterterrorism operations, what will 
we do on exercises, joint exercises, that work together. We 
have these kinds of relationships with other countries in the 
region, and that is what we are going to continue to pursue 
with Iraq.
    Senator Lieberman. In fact, just using a term that both of 
you have used, that would be a ``normal'' relationship. A 
normal relationship would not exclude the presence of some 
American military in Iraq. Correct?
    Secretary Panetta. That is correct.
    Senator Lieberman. Do you, Mr. Secretary, personally 
believe that it is in the interest of the United States to have 
some military presence in Iraq as part of an agreement with the 
Iraqis?
    Secretary Panetta. I believe there are areas where we can 
provide important assistance to the Iraqis, but again, I would 
stress to you, Senator Lieberman--and I know you have been 
there--that in order for this to happen, we have to be able to 
have them basically say these are our needs, this is what we 
want, these are the missions that we want to accomplish, and 
then we can assist them in saying we can provide this in order 
to accomplish those missions. It has to be a two-way street.
    Senator Lieberman. Let me ask you one final, quick 
question. We have been concerned--and I have talked to you and 
General Dempsey about this--about the fact that Iran over the 
course of the war has been training and equipping extremist 
groups that have come back into Iraq and killed a lot of 
Americans and even more Iraqis. What is your belief now about 
whether the Iranians, the IRGC particularly, are continuing to 
train Iraqi Shia extremist militias to come back into Iraq and 
cause havoc?
    Secretary Panetta. We went through a difficult period where 
we knew that the Iranians were providing military weapons to 
Shia extremist groups, and those weapons were being used to 
kill Americans. We indicated our concerns about that. That was 
part of the discussion that I had with the Prime Minister when 
I was there, was my concern about that.
    As a result of that, they took actions. Operations were 
conducted against the Shia militant groups. In addition to 
that, Maliki made very clear to the Iranians that this had to 
stop. We did go through a period where it did stop, but we 
continue to have concerns that the Iranians will try to provide 
that kind of assistance as well. We have made very clear to 
Iraq that they have to take whatever steps are necessary to 
ensure that does not happen.
    Senator Lieberman. Okay. I appreciate the answer. Thank 
you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Brown.
    Senator Brown. Thank you, Mr. Chairman.
    Mr. Secretary, I just wanted to follow up with a question 
that Senator Lieberman asked. He asked do you think it is 
important to have a military presence in Iraq, and you did not 
answer. You said we need to provide important assistance to the 
Iraqis. But do you or do you not think that we should have a 
military presence in Iraq?
    Secretary Panetta. I think that providing a military 
presence that assists them with training, that assists them 
with counterterrorism operations continuing to work against 
terrorist groups there is important, but I have to stress to 
you, Senator, that it can only happen if the Iraqis agree that 
it should happen.
    Senator Brown. No. I understand that.
    Secretary Panetta. I know, but I get the impression here 
that somehow everybody is deciding what we want for Iraq and 
that that is what should happen. But it does not work that way. 
This is an independent country.
    Senator Brown. I understand that. I want to get a chance to 
ask my questions. I am not sure what your perception is about 
what the others have said, but I have some very specific 
questions.
    To follow up with Senator McCain a little bit and his 
concerns about contractor cost versus soldier cost, it is a 
tremendously large dollar amount. It is the same in 
Afghanistan. It is the same in Iraq. We are going to have 
potentially 16,000 contractors over there. How does the SOFA or 
their ability to perform their duties over there affect the 
contractors? I know that they are going to be performing 
security and have some very serious legal challenges as well. 
How is it any different?
    General Dempsey. Yes, I can take that one, Senator, because 
when I was running the Security Transition Command, training 
and equipping the Iraqi security forces, I had a rather small 
military staff of about 1,000, and I had probably three or four 
times that in contractors. The contractors are often third-
country nationals. These are not all DOD contractors. Security 
contractors could be from a third country, and as part of the 
contract, there will be a negotiated position on protections 
and immunities. But oftentimes they are not protected and if, 
therefore, something happens, they can be imprisoned and tried 
in the host nation. That is a common practice around the world.
    We ought to take, for the record, I think though, the issue 
of cost because there is a distinction on the kind of 
contractors that are used. A truck driver driving a cargo truck 
of foodstuffs from Kuwait to Baghdad will get paid at a certain 
rate, a security contractor at a different rate. These are not 
all contractors making $250,000 a year. So I think we ought to 
peel that back a bit for you to see the real costs.
    Senator Brown. I think it is important to let the American 
public know because I know when I was in Afghanistan talking to 
the soldiers who were deeply concerned about those drivers just 
throughout the post and from post to post getting upwards of 
$100,000 and you have a soldier that can do it at $20,000-
$30,000. When we are trying to squeeze out every last dollar, I 
think it is important. I would rather be, quite frankly, 
providing the tools and resources to our military personnel 
versus contractors. So I would hope that you would look at 
that.
    [The information referred to follows:]

    The assertion that not all Department of Defense contractors in 
Iraq are making $250,000 per year is correct. The costs for contractor 
support depends greatly on the type of labor categories used to perform 
the work; types of contractors range from local national (LN) laborers, 
to third country nationals (TCN) providing installation support, to 
highly specialized U.S. citizens with security clearances. In general, 
TCN and LN labor costs are substantially lower than U.S. citizens. The 
anticipated contractor split supporting Department of State after 2011 
in Iraq is projected at: U.S. - 47 percent, TCN - 43 percent, LN - 10 
percent. The following sampling of labor categories from various State 
Department support contracts provides further validation that not all 
contractors in Iraq are highly paid:

        <bullet> Static Guard: $10,000/year.
        <bullet> Security Escort: $30,000/year.
        <bullet> Protective Detail: $110,000/year.
        <bullet> Welder: $131,000/year.
        <bullet> Air Defense Mechanic: $159,000/year.
        <bullet> Senior Mechanic: $185,000/year.

    Senator Brown. Mr. Secretary, you have committed to not 
allowing Iran to get nuclear weapons. Do you think we are 
accomplishing that?
    Secretary Panetta. I think that the United States, working 
with our allies and implementing the sanctions that have gone 
against Iran have, combined with other efforts, impeded their 
effort to move forward in that area. That is correct.
    Senator Brown. We have so many sanctions. Yet, I think the 
biggest problem we have is actually enforcing them. I cannot 
remember the last time we actually fined a company for 
performing work and doing business in Iran.
    How involved is Russia in actually helping them gain 
nuclear capabilities?
    Secretary Panetta. I really think you probably ought to ask 
our intelligence officials about the specifics of Russian 
engagement there. But there is no question that they have 
provided some help.
    Senator Brown. I just bring it up because you brought up 
that we are not allowing them to gain nuclear capability. Yet, 
we seem to really not be putting any teeth behind the sanctions 
and really I think we can do it better I guess is my point. 
Maybe we can talk offline about that.
    But I also have heard in speaking to, obviously, members of 
the committee and others that the Prime Minister has kicked out 
officials in the intelligence services and the army and 
replaced them with his own loyalists. Police sources report 
that roughly 200 people have been arrested since October 24 on 
charges of affiliation with the Baath party under Saddam and 
planning to conduct terrorism within Iraq. Are you concerned 
with these types of arrests and whether it will either require 
us to have a larger footprint or how it is going to be affected 
by a footprint being reduced?
    Secretary Panetta. I am concerned by the actions that the 
Prime Minister took with regard to arresting the Baathists. 
They are being held at this point without charges and that 
raises concerns about due process.
    At the same time, I have to say that the Sunnis--and it is 
a reflection of what has happened in Iraq--that the Sunni 
population there recognizes that even in light of that, that 
their actions ought to take place through the institutions of 
government, and they are bringing their pressure through the 
parliament and through the government to try to change that 
behavior. I think that is what democracies should do.
    Senator Brown. What level, do you think--in terms of a 
percentage basis, would you give Iraq's counterterrorism forces 
today? Either one?
    General Dempsey. I will take that, Senator.
    They number about 4,500.
    Senator Brown. How does that rank in terms of percentage 
capability of being fully ready to perform the mission?
    General Dempsey. Yes. I would describe their readiness rate 
to be about 80 percent, and the gap is in their ability--they 
are extraordinarily good--extraordinarily good--at closing onto 
a particular target when the target is identified for them 
generally, in their case, through human intelligence (HUMINT). 
What they lack is the ability to fuse intelligence, signals 
intelligence, HUMINT, and identify a network. You visited--by 
the way, nobody else in the world does it like us. So I am 
comparing us to them. But the point is when you visit our 
soldiers, sailors, airmen, and marines in operations centers in 
Iraq, they will have a wiring diagram of the network in their 
particular area. That has come after years of adaptation and 
learning that we have not yet managed to pass over to our Iraqi 
counterparts. But in this OSC, we have a cadre of trainers to 
continue to build that capability and close that gap.
    Senator Brown. How functional is their air force? Is it 
capable of defending its airspace? Does that matter at this 
point? Or where do you think we are with that?
    General Dempsey. I will tell you where they are and then I 
will take a stab at whether it matters or not. But they have F-
16s on order as part of the $7 billion FMS program. The first 
18 or so of what will eventually be 24 will be delivered in the 
2015 timeframe. So there is a gap between now and 2015 on their 
ability to protect their air sovereignty.
    Does it matter? It is not apparent to us that it matters--
that there is no air threat to Iraqi sovereign airspace right 
now. But after the first of the year, as Prime Minister Maliki 
sees what the security agreement--how that has evolved, what it 
looks like as we begin our withdrawal, I suspect there will be 
some negotiation back with us on issues related to air 
sovereignty. They also have long-range radars on order that 
come in this next calendar year to help paint themselves an air 
picture. So there is a gap at least out through 2015, probably 
beyond because you have to train the pilots. When General 
Babaker, the Chief of Defense, speaks about not being ready 
until 2020, it is that kind of capability that he is talking 
about, not the day-to-day capability on the ground.
    Senator Brown. Thank you. Thank you, both.
    Chairman Levin. Thank you, Senator Brown.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Dempsey, was it the uniform recommendation of all 
the joint chiefs and yourself to the President that without 
appropriate immunities for American forces, that you could not 
maintain American forces in Iraq?
    General Dempsey. It was, Senator.
    Senator Reed. From your perspective, the Government of Iraq 
was not prepared to give appropriate immunities to American 
forces?
    General Dempsey. Yes. That was the feedback we received 
back, that based on the legal advice of not only DOD lawyers 
but lawyers across the interagency, that the protections we 
required could only be achieved through an agreement that 
passed through the council of representatives inside of Iraq.
    When that was not forthcoming, then our advice was we could 
not leave--and by the way, just to Senator McCain's point. We 
do have soldiers all over the world deployed in joint combined 
exercise teams, but these are small groups of soldiers doing 
training missions, not what we believe would be a large 
footprint of men and women potentially at checkpoints 
conducting combat operations that could be very prominent, very 
visible, and, therefore, very vulnerable to a very immature 
judicial system.
    Senator Reed. Meaning that they could be policed up, thrown 
into a system without any adequate due process, and be subject 
to essentially the whims of whatever Iraqi justice is at the 
moment?
    General Dempsey. That was the concern, but the larger 
concern was that there would be some kind of incident that 
would put us at odds with the Iraqi security forces trying to 
arrest one of our soldiers.
    Senator Reed. We actually could have force-on-force 
conflict.
    General Dempsey. In the worst case.
    Senator Reed. The necessity for the core, their assembly, 
their general assembly--this was a result of the SOFA, I 
presume, that any amendments to the treaty had to be approved 
by their parliamentary procedures, including the parliament?
    General Dempsey. That was both their interpretation and our 
own.
    Senator Reed. So this notion of who can bestow immunity 
rests on the SOFA which the Bush administration negotiated and 
signed.
    General Dempsey. I do not know how far back it goes. This 
is longstanding legal interpretation that I am sure goes back 
well beyond the Bush administration.
    Senator Reed. You are both more familiar with the SOFA than 
I, but my understanding is that there was very explicit 
language calling for the withdrawal of all American military 
personnel but that there was no language or no explicit 
language calling for further negotiations as to the 
continuation of forces. Is that correct?
    General Dempsey. Are you referring to the 2008 Security 
Agreement?
    Senator Reed. I am.
    General Dempsey. That is my understanding.
    Senator Reed. But then there are suggestions today that 
everyone understood that this was just a placeholder, that this 
major policy decision calling for all forces to withdraw from 
Iraq, which was approved by their parliament, was simply a 
placeholder because everyone knew that going down the road, we 
would renegotiate both sides in good faith and come up with 
another combination. Do you think that is realistic?
    General Dempsey. I will not comment on its realism, but I 
will say that I expected that there would be some negotiation 
prior to the end of 2011, and by the way, there was. That 
negotiation terminated when the Iraqi Prime Minister determined 
that he did not need the missions we were willing and capable 
to perform and would not provide the protections.
    Senator Reed. It goes back essentially to the point that 
the Secretary has made, that that was a determination of a 
sovereign leader about what he felt was in the best interest of 
Iraq and that without his cooperation and, indeed, without the 
approval of his parliament, we have no standing essentially 
other than to follow what was agreed to in 2008 by the Bush 
administration. Is that correct?
    General Dempsey. To my understanding, yes, Senator.
    Senator Reed. But as you suggested, going forward we still 
have a relationship in terms of FMS, in terms of not only our 
diplomatic presence, but there is always the possibility, 
because that is not precluded by the 2008 SOFA, of amendments 
which in the future could allow for some participation of 
American military personnel with Iraqi personnel. That is true 
also.
    General Dempsey. It is, Senator. There is the opportunity 
for them as part of routine theater security cooperation. 
General Jim Mattis will travel there in January. There is a 
committee called the High Coordination Committee for each of 
the six lines of operation in the SFA, some of which are 
economic, educational, commerce, but there is a security line 
of effort. There is a High Coordinating Council that meets. 
General Mattis will go and convene one of those meetings in 
January to discuss future security cooperation.
    Senator Reed. Mr. Secretary, I presume for the record that 
we are prepared to entertain any of these serious discussions 
at any time with Prime Minister Maliki and his cabinet.
    Secretary Panetta. Absolutely.
    Senator Reed. It seems to me the key point at this juncture 
is the point at which Prime Minister Maliki and his government 
begins to reevaluate their position and their perception of the 
need for additional American military support, and without 
that, then the 2008 agreement which they negotiated, they 
agreed to, and they seem to accept stands as the law.
    General Dempsey. That is correct.
    Senator Reed. Thank you. I have no further questions.
    Chairman Levin. Thank you, Senator Reed.
    Senator Ayotte.
    Senator Ayotte. Thank you, Mr. Chairman. I want to thank 
Secretary Panetta and General Dempsey for being here today on 
this very important topic.
    I think all of us want to make sure that everything we have 
fought for and those who have sacrificed in Iraq, that what we 
have done there does not become undermined. My husband is an 
Iraq War veteran. This is very, very important, and I think all 
of us share that. We would like to bring our troops home, but 
there are serious questions remaining on whether the Iraqis 
will be able to maintain their own security. I think that is 
what we are trying to get at.
    I wanted to ask you, Secretary Panetta, in an October 21 
conference call, when the withdrawal was initially announced by 
the administration, that my staff participated in, Dennis 
McDonough, the Deputy National Security Advisor, and Tony 
Blinken, the National Security Advisor to the Vice President, 
were both asked whether if now the Iraqis changed their 
position and we receive the immunity that our troops need, 
whether we would change our position on maintaining troops in 
Iraq. The answer we got on that call was no.
    So my question to you is, is that accurate? If today the 
Iraqis changed their position and gave us the immunity that we 
were asking for, would we keep troops there?
    Secretary Panetta. Obviously both Prime Minister Maliki and 
the President are moving forward with the implementation of the 
security agreement. But as I have said here, we are prepared to 
continue to negotiate with the Iraqis. We are prepared to try 
to meet whatever needs they have, and if those needs require a 
SOFA in order to ensure that our troops are protected, then 
obviously we would be prepared to work with that as well.
    Senator Ayotte. So just to be clear, when Dennis McDonough 
and Tony Blinken said even if we had immunity now, we would 
withdraw altogether anyway, were they right or were they wrong 
in terms of that being the administration's position?
    Secretary Panetta. I think they were reflecting the 
decision at that point that was clear from the Iraqis and from 
the Prime Minister that they wanted to proceed with the 
implementation of the security agreement. I think that the 
decision was, even with the Iraqis, let us proceed, implement 
that, and then perhaps beyond that, we will negotiate a further 
presence.
    Senator Ayotte. But it would certainly be a lot easier to, 
rather than take all the troops out and bring them back, that 
if we could work this out. You would agree with me there?
    Secretary Panetta. Yes. No, look, we have been working this 
for a long time. I think it came down to the fact that it was 
very clear from the Prime Minister and even the other 
leadership--as Senator McCain said, other members of the 
leadership there were interested in trying to pursue this, but 
when it was clear that they could not get immunity passed by 
the parliament, that that brought that issue to an end.
    Senator Ayotte. The reason that I raise it is I was 
concerned, when it was reported back to me, that the answer 
from the administration was that even if immunity was granted 
tomorrow, that we would still withdraw altogether. That made me 
concerned, and that is why I raised it.
    I wanted to ask you about the recent findings of--the 
Wartime Commission on Contracting found that from waste, fraud, 
corruption, and money going into the hands of our enemies, we 
have lost between $31 billion and $60 billion of taxpayers' 
dollars that were obviously wasted, and the worst part is some 
of it went to our enemies.
    Before the Senate Armed Services Readiness and Management 
Support Subcommittee recently, we had a hearing on the Wartime 
Contracting Commission report, and Deputy Secretary Frank 
Kendall testified before that subcommittee. I actually asked 
him about what was happening in Iraq with respect to--you have 
stated today--roughly 16,000 contractors that will be left 
there, many of them performing security functions with our 
troops withdrawing by the end of the year. When I asked him 
about that, how will the State Department handle that, he told 
me that there is a lot of risk in this transition and that the 
State Department has never done anything this big. Would you 
agree with me on that, Mr. Secretary?
    Secretary Panetta. That is right.
    Senator Ayotte. Also that day before the subcommittee, we 
had the actual commissioners that did the analysis in Iraq and 
Afghanistan of the fraud, waste, and abuse and money that went 
to our enemies. Mr. Zakheim who testified before our 
subcommittee that day--I also asked him about what is happening 
in Iraq and what the implications would be for the State 
Department putting 16,000 contractors there, many of them asked 
to handle security. What he said to me really made me very 
concerned. He said: ``I do have tremendous concerns. I have 
more concerns, unfortunately, than I have answers. Clearly if 
the State Department, until now, has had trouble managing its 
contracts--and it is no question that they have had some--I do 
not know how they are going to manage all this.''
    He went on to say, now, clearly if you have a whole bunch 
of contractors there with guns who will be doing all sorts of 
things, to me, to my simple mind, this is something that 
involves security that is inherently governmental. It is a 
high-risk project so that you are going to have a bunch of 
contractors either being shot at or shooting Iraqis, and this 
is a disaster waiting to happen is how he described it to me.
    Can you assure this committee that--I guess I would ask you 
first. Essentially my concern is that we are putting a civilian 
army there of contractors at an unprecedented level when we 
have already had some significant issues with contracting. We 
are going to ask these contractors to protect our diplomatic 
personnel that are there, our civilian personnel who will still 
be serving in Iraq. Will they be secure? Will these contractors 
be able to perform the function that they are needed to 
perform? Can you assure this committee that the State 
Department will be able to perform this unprecedented task?
    Secretary Panetta. There is no question that there are 
risks involved here. What we are facing is an issue of 
continuing an important State Department role that relates to 
economic issues, that relates to development issues, that 
relates to education issues, that relates to the other pieces 
that we have been assisting the Iraqis with. The State 
Department is taking the lead in trying to build those 
relationships. So they have a presence. They have bases 
throughout Iraq or locations where State Department officials 
will be.
    In the absence of not having the military presence, then 
obviously in order for them to do their job, they have to have 
security. They have to have support. They have to have food. 
They have to have transportation. That is, obviously, brought 
about through a contracting approach.
    Are there going to be risks associated with the 
contractors? Yes, I think that is the case. Do we have any 
other alternatives? No.
    General Dempsey. Senator, could I comment on that question? 
Do we have time?
    Senator Ayotte. If it is okay with the chairman.
    Chairman Levin. In response to the question, sure.
    Senator Ayotte. Thank you.
    General Dempsey. This is not entirely new. Even from the 
very beginning when it was the Coalition Provisional Authority 
and then it became the U.S. Mission in Iraq, the State 
Department has always contracted for personal security. So it 
is not as though they have no experience in doing it. But this 
is orders of magnitude, and I think that is what people are 
reacting to.
    But in order to help mitigate that, we have had a joint 
committee, the Department of State-DOD Joint Staff, in place 
since August 2010 to talk about transitioning activities in 
Iraq, 437 activities. We have transitioned 437 of them. We 
would be happy to brief you on that. We are going to retain the 
contract management. DOD will maintain, through directing 
contracting management authority, oversight or control of the 
contracts because we have the expertise. The contracting office 
representatives will be Department of State personnel on the 
ground. So we have recognized it, and we are working to 
mitigate it.
    Senator Ayotte. Thank you, General Dempsey. Thank you, 
Secretary Panetta.
    I would just add this, though, back in August 2010, we were 
all talking about having some military support there, and when 
I hear from the Wartime Commission on Contracting commissioner 
that this is a disaster, I have real concerns about this in 
terms of protecting our personnel and also a waste of 
taxpayers' dollars.
    Chairman Levin. Thank you, Senator Ayotte.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Thank you, Secretary Panetta and General Dempsey, for your 
service and for being here today.
    I am going to try to bring things a little closer to home 
for the moment. The 935th aviation detachment from the Nebraska 
Army National Guard is scheduled to deploy in Iraq in May, but 
given our pending departure from Iraq in December this year, I 
understand that this deployment might be able to be moved, 
shifted to a new location, or canceled altogether. I am sure 
maybe the decision has not been made, but if it has, it would 
be interesting to know what it is.
    Concerning the end of the military missions in Iraq, how is 
DOD handling scheduled Guard deployments? I understand from the 
Guard that soldiers already sourced for deployment will have 
already started to make arrangements with their families, 
employers, and communities to deploy, everything from hiring 
temporary employees to cover the deployment of the soldier to 
moving families. So how will this work now to use units that 
are sourced for mobilization even when the requirements in Iraq 
seem to be changing right before our eyes?
    General Dempsey. Yes, Senator, I will answer that and with 
my experience as the Chief of Staff of the Army because this 
was something we watch very carefully to make sure that before 
we hit a mobilization date, we understand where these 
organizations can be used so that we reduce the risk of having 
to demobilize them.
    So the specific unit you are talking about, if it is inside 
of a year, it has already been mobilized. Therefore, it is 
training. Therefore, we will find a place to use it. What we 
have done in the past is we find a place to use that portion of 
it that wants to stay. Now, the first step is to see if there 
are volunteers to go back home, and we find that often a 
percentage of the unit will be happy to do that. The rest of 
the unit will typically be remissioned someplace. First choice 
would be in the area of responsibility, but there are other 
opportunities to do that as well. That is the procedure. You 
try to make a decision before you mobilize them, but if you 
have mobilized them and now the mission changes, we either 
remission them or allow those that choose to to go home.
    Senator Nelson. So it is probably unlikely that they would 
be mobilized to go to Iraq.
    General Dempsey. What kind of unit are they, sir? Aviation?
    Senator Nelson. Aviation.
    General Dempsey. Aviation is in high demand. It is among 
our most high-demand organizations. So it is likely that they 
would be used, unlikely that it would be in Iraq.
    Senator Nelson. I would like to talk to you both today 
about providing certainty for military members and their 
families. I know that there have been a lot of discussion in 
connection with cost-cutting and cutting spending in 
Washington, DC, particularly as it relates to DOD dealing with 
military pay and compensation and benefits. I think that, 
obviously, earned military retirement benefits need to be 
maintained and, as promised, delivered. What are your thoughts 
and recommendations to change military retirement for members 
who are currently serving?
    Secretary Panetta. We have, obviously, discussed this as we 
have gone through the budget exercise, and I think our view is 
that this ought to be given to a commission. The President made 
that recommendation. We would support that to have a commission 
review the retirement area. But we also made clear that with 
regards to those that have served, that they ought to be 
grandfathered. We have made a commitment to those that have 
deployed. They put their lives on the line. We think we ought 
to stand by the benefits that were promised to them.
    Senator Nelson. Keeping our promises is important. General 
Dempsey, you might have a view on that as well. I would be 
surprised if it was not the same.
    General Dempsey. It is exactly the same.
    Senator Nelson. I understand.
    General Dempsey, you might recall that some time ago, a few 
years ago, I visited Iraq and met with you, I think, when you 
were in charge of the training and acquisition mission. You 
outlined at that time how the Iraqi Government engaged with our 
military by contract for acquisition of military equipment 
because we were able to do it more efficiently and cost-
effectively than they were because they did not have the 
acquisition structure in place in order to be able to do it.
    Do you remember why we engaged them at that time in that 
bilateral agreement to acquire, through the use of their money, 
the equipment that they needed?
    General Dempsey. Even then, Senator, it was clear to me 
that at some point we would have something that we would 
describe as a normal relationship with Iraq. One of the ways we 
solidify that relationship not just in Iraq, but around the 
world, is through our FMS program. So in those early days, we 
were able to convince the Ministry of Defense to invest. At 
that time, I think it was about $600,000, and today they have 
invested about $7.5 billion. It is a point of managing the 
relationship but also helping them grow their own capability to 
be responsible stewards of their own resources.
    Senator Nelson. We have had a lot of discussion about the 
pros and cons of hiring outside contractors, and discussion 
will be ongoing. The proof will be how it works out as to 
whether or not it is as advisable as it seems to be upfront.
    Now, in connection with that, in the cost differentials 
that may be there, is it possible to enter into an agreement 
with the Iraqi Government for cost-sharing on continuing to 
provide security, training of their troops, and every other 
mission that we might accept to help them secure, stabilize, 
and self-govern?
    General Dempsey. Yes, sure it is, Senator. When we do 
multilateral and bilateral exercises around the world, there is 
always a negotiation on the cost, and who will bear it.
    But I also have to mention, in terms of the contractor-
supplied security, in any nation in which we are present 
diplomatically, the first responsibility for security is the 
host nation and then it is the close-in security that we are 
talking about that tends to reside with the contracted support.
    Senator Nelson. I think it is debatable perhaps about the 
costs given the fact that the contractors will be paid by 
contract. The military requires more than just the soldier 
providing the security, all the backup, the back room, the 
supply, the support that the military gets. That is a factor 
that is not necessarily included in the contractor's agreement. 
Is that accurate, Mr. Secretary?
    Secretary Panetta. That is correct.
    Senator Nelson. So it may not be as out of whack. I am not 
an advocate for contracting, but it may not be as 
disproportionate as it sounds up front with high numbers for 
contractors when you add in the cost of the back support for 
the military providing the security.
    Secretary Panetta. I believe that is correct.
    Senator Nelson. General Dempsey, do you have any thoughts 
on that differential and what it may consist of?
    General Dempsey. I do, and the answer is we can actually 
peel that back and provide it to this committee or others.
    Senator Nelson. I think that would be advisable.
    General Dempsey. Yes. We call it ``fully encumbered 
costs,'' and when you fully encumber it, it is not as dramatic 
as it might seem otherwise.
    Senator Nelson. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    [The information referred to follows:]

    The fully encumbered cost of a soldier is $138,519/year. This 
number does not include contingency costs to deploy/sustain/redeploy 
forces to Iraq. Including all incremental costs that are not in the 
base budget (Reserve Component pay, transportation, sustainment, force 
protection, equipment reset), leads to an additional cost which has 
historically been between $500,000 and $800,000 per deployed soldier.
    By comparison, the costs for contractor support depends greatly on 
the type of labor categories used to perform the work; types of 
contractors range from local national (LN) laborers, to third country 
nationals (TCN) providing installation support, to highly specialized 
U.S. citizens with security clearances. In general, TCN and LN labor 
costs are substantially lower than U.S. citizens. The anticipated 
contractor split supporting Department of State after 2011in Iraq is 
projected at: United States - 47 percent, TCN - 43 percent, LN - 10 
percent. The following sampling of labor categories from various State 
Department support contracts provides further validation that not all 
contractors in Iraq are highly paid:

        <bullet> Static Guard: $10,000/year.
        <bullet> Security Escort: $30,000/year.
        <bullet> Protective Detail: $110,000/year.
        <bullet> Welder: $131,000/year.
        <bullet> Air Defense Mechanic: $159,000/year.
        <bullet> Senior Mechanic: $185,000/year.

    Chairman Levin. Thank you, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Panetta, General Dempsey, before I turn to my 
question on Iraq, I want to share with you an experience that I 
had yesterday. I visited a wounded marine from Maine at 
Bethesda. He was severely wounded by an improvised explosive 
device (IED) in Afghanistan. He lost part of one leg. The other 
leg has a lot of shrapnel in it. Both of his arms were wounded, 
and he has a traumatic brain injury as well. He has recently 
been moved into a little apartment that has newly been built. 
They are wonderful accommodations for our troops and their 
family members, and his spirits are amazingly good and upbeat.
    But I asked him if he had any concerns, and I want to share 
with you his concern. He said that while he praised the care 
that he was getting, that there was a severe shortage of 
physical therapists and other trained clinical personnel to 
help him in what is going to be a very long recovery. He is 
expected to be there for another 9 months. So he is looking at 
a long haul.
    This really troubled me because here we had this young man 
who is probably 19 or 20 years old. He was wounded just 6 weeks 
after arriving in Afghanistan. He faces a very long recovery 
period. His spirits are high. His morale is good, but he is 
worried that he is not going to get the care that he needs 
because there has been a freeze, he said, put on the number of 
physical therapists that can be hired. He described a session 
to me where the physical therapist helps him for a while, then 
has to turn to other patients to help them, and he feels that 
is impeding his recovery.
    So I mention this to you. I promised him that I would bring 
it to the highest levels. I am delighted that you are here 
today so that I could keep that promise. I ask you to look into 
that because none of us wants to be scrimping in any way on the 
care that we owe these wounded warriors who have given so much 
to our country.
    Secretary Panetta. Senator Collins, I appreciate your 
bringing that to my attention. I have been out to Bethesda a 
number of times, but I have not heard that there was a problem 
with physical therapists because, frankly, most of the 
soldiers, most of the troops that I visited with, all need 
tremendous physical therapy. It is the only way they are going 
to make it. They have great spirits, as you saw. They have 
great spirits, great hope for the future. But we have to have 
the physical therapists there to try to assist. So you can give 
him my assurance that I will look into this and make sure that 
that is not the case.
    Senator Collins. Thank you so much. I am sure he will be 
delighted that we had this exchange, and I will get back to 
him.
    Turning now to Iraq, we have been training the Iraq 
security forces for nearly 8 years now, and yet concern still 
exists about gaps in the numbers, the training, the 
capabilities, particularly as far as their ability to 
successfully defend the borders against the infiltration of 
weapons and militants from Iran.
    Now, some people contend that until we withdraw most of our 
forces, the Iraqis are never going to step up to the plate 
fully to defend their country. I personally think that is a 
legitimate argument. But others say that if we withdraw our 
troops, that we will lose the security gains that have been so 
hard-fought.
    So, General, given the outstanding concerns about Iraq's 
ability to defend itself against direct threats and against the 
infiltration of weapons from Iran, are you concerned that we 
are jeopardizing the security gains and that we will see a 
deterioration of security and a step-up in violence as we 
withdraw our troops?
    General Dempsey. That was always a concern of mine. But I 
will say that over the last 3 years in my contacts with those 
who are--and I am dated. I have not lived in Iraq for about 4 
years, but in my trips back and forth there and in 
conversations with those who are partnered with them, that is 
to say, our forces, they all have considerable confidence that 
the Iraqi security forces that we have built at great cost and 
effort over the last, as you said, 8 years will be able to 
maintain security inside of that country. What they lack is the 
institutions and that is where our effort ought to be at this 
point.
    Senator Collins. What about the Kurdish region in Iraq? 
There are concerns that Kirkuk stands out as an unresolved area 
where there is still a lot of tension with the central 
government in Baghdad. I understand that only a small DOD 
contingent will remain there, and it is my understanding that 
the State Department is going back and forth on whether or not 
it should have a full consulate presence in Kirkuk or maintain 
a less formal diplomatic presence post. If there is no U.S. 
military presence to act as a buffer between the Kurdish forces 
and the Iraqi security forces, are you worried that this region 
of Iraq will become a destabilizing flashpoint?
    General Dempsey. I worry about a lot of things, Senator, 
and I will include this among the list of things I worry about. 
We put in place several years ago joint checkpoints where there 
was a member of the Kurdish Peshmerga. There was a member of 
the Iraqi security forces and a U.S. service man or woman and a 
coordinating center. Part of our OSC footprint will include our 
participation in the coordination center. We will not be on the 
checkpoints anymore. That is true. So we will have to rely upon 
the continuing negotiations between the Kurdish political 
leaders and the Government of Iraq. But this is not, again, a 
place where we are completely removing ourselves, but your 
point is accurate. We will not be on the checkpoints. We have 
been there as a buffer. The risk goes up, but our presence in 
the coordination center provides a stabilizing influence to get 
them to find negotiated answers not violent answers.
    Senator Collins. Thank you.
    Finally, Secretary Panetta, we have military relationships 
with countries all over the world, and we have SOFAs with those 
countries. Are there other countries where we have a military 
presence that goes beyond protecting our embassies where we do 
not have the legal protections that a SOFA provides, or will 
Iraq be the only one?
    Secretary Panetta. There are obviously different--in 
different areas, there are going to be different approaches 
here. There are some areas where we have SOFAs. There are some 
areas where we basically put them under diplomatic protection 
of one kind or another if they work out of the embassy. So it 
does vary depending on the area that we are talking about in 
terms of protections.
    I guess what I want to assure you is that in each area we 
do try to seek protections for the troops that are there 
because of the concern that they be treated correctly if any 
kind of incident takes place.
    Senator Collins. That is absolutely critical.
    What I am concerned about is while diplomatic immunity is 
pretty easily extended to troops that are guarding an embassy, 
for example, it sounds like our mission of our remaining troops 
in Iraq would be broader than that. So I am worried about 
whether the legal protections will be there for them.
    Secretary Panetta. That is a concern that we all have. If 
there is to be in the future a larger presence there, we have 
to ensure that they are given the proper legal protections. 
Depending on the size, that would determine whether or not a 
SOFA would be required.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    Secretary Panetta and General Dempsey, thank you for your 
service. We all certainly do appreciate what you all are doing.
    In light of Senator Collins' question concerning the 
wounded warrior that she met yesterday, about 2 weeks ago, my 
office hosted a wounded warriors' luncheon for a number of 
soldiers from North Carolina, and they brought with them their 
family member that was helping them recuperate. We have done 
this before, and it was certainly a welcomed luncheon for me to 
get to attend and also I think all of these soldiers that were 
here at the Capitol appreciated the outreach from the office 
and they also got a Capitol tour.
    But what was really intriguing too was one young man had 
lost his leg to an IED about 2 months before. He had been 
recuperating for about 2 months. He said he was most anxious to 
get back to the battle and that his job was to detect IEDs. I, 
too, just really highlight the morale, what these young men and 
women go through each and every day. So we do need to have as 
many physical therapists as possible to be sure that they do 
get the treatment that they have certainly paid for and 
deserve.
    I want to talk about our Special Operations Forces (SOF). 
Our SOFs have engaged with their Iraqi counterparts in 
counterterrorism and training and advising activities. What 
will things look like in Iraq from a SOF standpoint going 
forward, and what type of engagement would our SOF have in 
Iraq?
    General Dempsey. Yes, Senator. The size of the Iraqi 
special operating forces is about 4,500. They are organized 
into a counterterrorism section commanded by an Iraqi 
lieutenant general by the name of Kanani. We are partnered with 
him at the headquarters level and will remain so. We are in 
discussions with Iraq about training trainers that would stay 
inside the wire of the places where this counterterror force is 
located, not go with them on missions, but rather continue to 
train them to go on missions.
    As I mentioned earlier, the gap is actually in their 
ability to identify the network and target it. We call it the 
``find, fix, finish, exploit, and assess cycle.'' They are very 
capable of fixing and finishing, not so capable as yet in 
finding, exploiting, and assessing, so that you continue to 
keep pressure on a network.
    But I will tell you they are extraordinarily competent 
individual soldiers. What we have to do is keep raising the bar 
with them on their ability to do the things at echelons above 
tactics.
    Senator Hagan. With the drawdown taking place in less than 
2 months, what is your outlook for the ability to continue this 
training process to enable them to be able to do this on their 
own?
    General Dempsey. They will be limited. They do not have the 
airlift to deliver them to the target that we might have been 
able to provide. They do not have the ISR platform to keep 
persistent surveillance over top of the target. So they will be 
limited to ground movement and they will be limited to HUMINT, 
but part of the OSC provides the trainers to keep developing 
those other capabilities. But we are some time off in reaching 
that point.
    Senator Hagan. As we continue this drawdown of our U.S. 
military personnel from Iraq, I really remain concerned about 
their force protection, the individuals that are remaining in 
Iraq. So what are these remaining challenges for our military 
personnel in Iraq in terms of managing their vulnerabilities, 
managing their exposures during the drawdown?
    General Dempsey. Senator, you are talking about getting 
from 24,000 down--the existing force now and having it 
retrograde back through Kuwait?
    Senator Hagan. The ones that are going to remain over 
there.
    General Dempsey. The ones that will remain will be----
    Senator Hagan. Their protection.
    General Dempsey. Yes, Senator. First and foremost, we have 
10 OSC in Iraq bases, and their activities will largely be 
conducted on these bases because their activities are 
fundamentally oriented on delivering the FMS program. So F-16s 
get delivered. There is a team there to help new equipment 
training and helping Iraq understand how to use them to 
establish air sovereignty. Or there are 141 M-1 tanks right now 
generally located at a tank gunnery range in Besmaya, east of 
Baghdad. The teams supporting that training stays on Besmaya. 
So this is not about us moving around the country very much at 
all. This is about our exposure being limited to those 10 
enduring, if you will, OSC base camps and doing the business of 
training and educating and equipping on those 10 bases.
    The host nation is always responsible for the outer 
perimeter. We will have contracted security on the inner 
perimeter, and these young men and women will, of course, 
always have responsibility for their own self-defense.
    Senator Hagan. So we will have contracted security on the 
inner perimeter.
    General Dempsey. That is right.
    Senator Hagan. Iraqi counterterrorism forces in partnership 
with the U.S. special operations personnel have significantly 
degraded al Qaeda in Iraq's ability to conduct these 
spectacular attacks by repeatedly removing the group's mid- and 
senior-level leadership, which I compliment you on. These 
operations were enabled by U.S. capabilities including our 
unmanned intelligence platforms.
    What do you assess are the capabilities of Iraqi 
counterterrorism forces to continue these similar operations, 
some of what you were just describing, General Dempsey, against 
al Qaeda in Iraq, once again, in the absence of our forces, and 
how will our counterterrorism activities change following the 
drawdown of the U.S. military? You have just identified some, 
but it seems with the lack of all the other personnel, that 
this is going to be a very hard task.
    Secretary Panetta. If I could, Senator, in my past 
capacity, we were helping to provide a lot of intelligence and 
assistance, and I think some of those efforts will continue to 
provide intelligence, try to provide assistance in these areas.
    Having said that, the one thing that I have been impressed 
by is the fact that their counterterrorism operations have been 
very effective, and despite the fact that we have drawn down 
150,000 to 24,000 now, they have been very good at going after 
al Qaeda and being able to go after the threats that they have 
been able to perceive.
    There is a need--and I think General Dempsey has pointed 
this out--with regards to some of the capabilities, 
helicoptering in, being able to have the ISR above. Those are 
the areas where we are going to have to provide assistance to 
them so that they can develop that capability. But they are 
still very good at going after those targets.
    Senator Hagan. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Hagan.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Thank you both for testifying. This is a very important 
issue for the country, and I think we have had a good 
discussion.
    Number one, I completely concur with the idea that American 
troops should not be left behind in Iraq without legal 
protections. It is not fair to them. To say that the Iraqi 
legal system is mature is being gracious. If an American 
soldier were accused of rape anywhere in Iraq, I do not think 
they would get a fair trial. So at the end of the day, Iraq has 
a long way to go on the legal side and I think a long way to go 
on other sides.
    My concern is that I have never bought into the idea that 
the impasse was getting the parliament to approve an immunity 
agreement. I will just give you one vignette. I went over with 
Senator McCain and Senator Lieberman in May to talk to the 
Prime Minister about a follow-on force, and I was discussing 
with him that no American politician, Republican or Democrat, 
would accept a follow-on force without legal protections. As we 
were talking about it, he says, ``well, how many people are you 
talking about? What is your number?'' I turned to Ambassador 
Jeffrey and General Austin and said you have not given them 
numbers. He says, ``no, we are still working on that.'' That 
was in May.
    So let us get into this, General Dempsey. 16,000, 10,000, 
5,000, cascading. Is it your testimony that we were proposing 
16,000 to the Iraqis and they said no? Then we came back with 
10,000 and they said no. Then we came back 5,000 and they said 
no. Then it got to be 0.
    General Dempsey. No, that is not what I testified to.
    Senator Graham. What caused the cascading effect? General 
Austin told me--and I will just tell you now because it is so 
important--he thought we needed 19,000, and I said, ``Lloyd, 
that is probably going to be more than the market can bear.'' I 
said that because I am concerned about American politics too.
    Then the numbers were around 15,000 to 16,000. Then we 
started about 10,000. It came to 10,000, and nobody got below 
10,000. So I know what General Austin had on his mind.
    At the end of the day, General Dempsey, you are right. It 
is about the missions you want that determines the numbers. We 
have gone through it pretty well. Iraq does not have the 
intelligence capacity we do. We need to make sure they have 
better intelligence. They do not have an air force. We need 
embedders. We need trainers. We need counterterrorism. We need 
to referee the Kurd-Arab dispute. I think 10,000 or 12,000 is 
what you need. At the end of the day, we are down to 0.
    I guess my question is, is Iran comfortable with a 
democracy on their border in Iraq, Secretary Panetta?
    Secretary Panetta. I think they are very nervous about 
having a democracy on their border.
    Senator Graham. Let me tell you what the speaker of the 
Iraqi parliament, a Sunni, Mr. Najaf, said. Iraq now suffers 
from points of weakness. If neighboring countries see that Iraq 
is weak and incapable of protecting its border and internal 
security, then definitely there will be interference. This 
interference does not exist now. He was talking about how Iran 
would step up their efforts to destabilize Iraq if we all left.
    Do you agree that is a more likely scenario? They are doing 
it now. They are only going to do it more if we do not have 
anybody there.
    Secretary Panetta. I think there will be a continuing 
threat. I think that the reality is that the Iraqis do not want 
to have Iran exert that kind of influence in their country.
    Senator Graham. Now, if the Sunni speaker of the parliament 
is worried about that, is there any doubt the Kurds want us 
there? If it were up to the Kurds, there would be 50,000 
American troops in Kurdistan. Do you agree with that?
    Secretary Panetta. Yes.
    Senator Graham. So we know the Sunnis are worried about 
this, and we know the Kurds would have 50,000 if we would agree 
to put them there. I would not agree to that, but they are very 
welcoming of U.S. troops. So I am getting a little bit 
concerned that all the blame on the Iraqi political system is 
maybe not quite fair.
    Secretary Panetta, you were a politician in another life. 
Would it be a political problem for President Obama to announce 
this year that we are going to keep 15,000 people in Iraq past 
2012? Did that ever get considered in this administration? Did 
anybody ever talk about the numbers changing because the 
Democratic base would be upset if the President broke his 
campaign promise?
    Secretary Panetta. Not in any discussions that I 
participated in.
    Senator Graham. Do you think it ever happened anywhere? Do 
you think anybody in the White House ever wondered about the 
political effect of having troops in Iraq on the 2012 election? 
You talk openly about the Iraqis having political problems. You 
do not think there are any politics going on on our side?
    Let me ask you about Afghanistan, General Dempsey. Did any 
commander recommend that all of the surge forces be pulled out 
by September 2012?
    General Dempsey. I honestly do not know, Senator.
    Senator Graham. Let me tell you. The testimony is clear. No 
option was presented to the President in July to recover all 
surge forces by September 2012, and you put General Allen in a 
terrible spot--the administration has. I think it is no 
accident that the troops are coming home 2 months before this 
election in Afghanistan, and if you believe that to be true, as 
I do, I do not think it is an accident that we got to 0.
    Now, at the end of the day, we are at 0. Do you think the 
people in Camp Ashraf are going to get killed? What is going to 
happen to them?
    General Dempsey. Senator, the State Department is leading 
an effort to ensure that we work with the Iraqi----
    Senator Graham. Can you tell the people back here that the 
likelihood of their friends and family being killed is going up 
greatly if there are no American forces up there policing that 
problem?
    General Dempsey. I will not say anything to those people 
because I am not involved in the outcome.
    Senator Graham. Fair enough.
    I asked Admiral Mullen, your predecessor, what is the risk 
of an Arab-Kurdish conflict over the oil reserves around Kirkuk 
in terms of a conflict if we are not present. He said it was 
high. Do you agree with that?
    General Dempsey. I might have said moderate because of my 
own personal contacts with both the Kurds and the Iraqis.
    Senator Graham. So you believe that there is a moderate 
risk, not a high risk, if there are no U.S. forces policing the 
Kurd-Arab borderline disputes and the Kirkuk issue.
    General Dempsey. I do. I would like to take some time to 
articulate why I believe that, but if you would like me to take 
that for the record, I would be happy to do so.
    Senator Graham. I would.
    [The information referred to follows:]

    The lack of a continued presence by U.S. forces in the vicinity of 
Arab-Kurd disputed areas presents a moderate risk to Iraqi security.
    In the past, U.S. forces fostered cooperation and coordination 
between the Iraqi Security Forces (ISF) and Kurdish regional forces 
(the peshmerga) through the Combined Security Mechanism (CSM), an 
agreement that allows these forces to operate jointly in selected 
areas. Our forces participated in the joint patrols and manned combined 
checkpoints. They served as honest-brokers and helped mitigate the risk 
of local-level violence between the ISF the peshmerga. Unless another 
neutral and credible third party fills this role, there will be some 
risk of an outbreak of violence between these groups.
    That said, what our presence and our participation in the CSM did 
not and could not do is help resolve the underlying Arab-Kurd political 
tensions. This is the real issue, and a national-level solution is 
ultimately required. Such a solution would involve, at a minimum, 
agreements on the disputed internal boundaries, the governing status of 
Kirkuk, the sharing of hydrocarbon revenues, and the structure of 
national, regional, and local security forces. Resolving these issues 
will be challenging and will take great effort and compromise from both 
sides. However, given my experiences dealing with both Arab and Kurdish 
leadership, I believe that the risk of a full political failure and the 
outbreak of an Arab-Kurd civil war to be moderate, not high.

    Senator Graham. Now, do you believe it is smart for the 
United States not to have counterterrorism forces? Is it in our 
national security interest not to have any counterterrorism 
forces in Iraq?
    General Dempsey. It is in our national security interest to 
continue pressure on al Qaeda wherever we find them either by 
ourselves or through partners.
    Senator Graham. But do you think the counterterrorism 
problem in Iraq is over?
    General Dempsey. I do not.
    Senator Graham. Secretary Panetta, you have been great 
about this. You said there are a thousand al Qaeda in Iraq, and 
I know in your old job that you are very worried that they are 
going to reconstitute. So will you do the best you can to 
convince the Iraqis--and I tell you what. I am willing to get 
on a plane and go back myself--that they would benefit from 
counterterrorism partnership with the United States?
    Secretary Panetta. I have made that clear time and time 
again.
    Senator Graham. They just tell you they are not concerned 
about that.
    Secretary Panetta. What they tell me is that they are 
concerned about that. They obviously have their forces that are 
dealing with that.
    Senator Graham. Is it your testimony the Iraqis would not 
have 3,000 U.S. forces? They do not want any U.S. forces at 
all. They are not willing to expend the political capital to 
get this agreement done because they just do not see a need for 
U.S. forces. Is that the Iraqi position that they have come to 
the point in their political military life that they just do 
not need us at all?
    Secretary Panetta. I think the problem was that it was very 
difficult to try to find out exactly--when you say the Iraqi 
position, what exactly the Iraqi position was at that point.
    Senator Graham. What is the Kurdish position in Iraq about 
U.S. forces?
    Secretary Panetta. I do not think there is any question 
they would like to----
    Senator Graham. So what is the Sunni speaker of the 
parliament's position about U.S. forces?
    Secretary Panetta. I think the same.
    Senator Graham. When I was with Prime Minister Maliki in 
May, the next day he announced that he would accept a follow-on 
force if other parties would agree. So how did this fall apart?
    Secretary Panetta. I heard the same statements and read the 
same statements. But the problem is in the negotiations that 
involved the Ambassador, that involved General Austin, in those 
discussions they never came to the point where they said we 
want this many troops here.
    Senator Graham. I can tell you--and I have taken my time. I 
can tell you in May they had no number given to them by us. 
They were in the dark as late as May about what we were willing 
to commit to Iraq. So this is a curious outcome when you have 
Sunnis and Kurds on the record and the Prime Minister of Iraq 
saying he would accept a follow-on force if the others agreed. 
I do not know who does the negotiation for the United States, 
but if I had three people saying those things, I thought I 
could get it over the finish line. But we are where we are.
    Thank you for your service.
    Chairman Levin. I am just going to have a second round for 
those of us who are here, just maybe a couple questions each so 
we can get to our second panel.
    Mr. Secretary, did Iraq ever request U.S. trainers or other 
troops remain in Iraq after December 31, and if so, what number 
did they request and were they willing to grant legal 
protection, immunity to our troops?
    Secretary Panetta. There was no such request.
    Chairman Levin. Senator McCain.
    Senator McCain. Just briefly, Mr. Chairman.
    I do not see how you could have expected the Iraqis to 
agree when we could not give them a number, and that was not 
just the case in May. We came back. We kept asking the 
President's National Security Advisor and others what is our 
proposal, and we never had one until it got down to, I guess, 
5,000 or 3,000. History will show, Secretary Panetta, that they 
were ready to negotiate in May and we would not give them a 
hard number both as far as numbers are concerned and missions 
are concerned. So it is hard to understand how anyone would 
believe that they were reluctant to negotiate when we would not 
give them a number to negotiate from. But history will provide 
that, and I am sure we will have further spirited exchanges on 
this issue in the future.
    But I also wanted to thank you for the letter that you 
wrote to me and Senator Graham. I think it crystallizes the 
challenges that our Nation would face if we had sequestration. 
I do not think there is any two greater deficit hawks than 
Senator Graham and me. But your letter, I hope, is read by 
every Member of Congress and every citizen of this country 
because we cannot put our Nation's national security at risk. 
You gave us a very definitive answer, and I want to thank you 
for that.
    Secretary Panetta. I appreciate it.
    Senator McCain. I want to thank you and General Dempsey for 
your continued leadership and putting up with these occasional 
insults that you have to endure here in the Senate. [Laughter.]
    Could I just say finally on the Camp Ashraf issue? I know 
that the Secretary of State is addressing this issue, but it is 
American troops that are protecting them now. I hope that you 
can give us some idea as to what the disposition is going to be 
because I think it is very clear that the lives of these people 
are at risk.
    I thank you.
    Secretary Panetta. I appreciate that.
    Senator McCain. Thank you, Mr. Chairman.
    [The information referred to follows:]

    The State Department has the lead on this issue for the U.S. 
Government. I understand they are working actively with the Government 
of Iraq, the international community, and the residents of Camp Ashraf 
on an acceptable solution that avoids further bloodshed. I would refer 
you to the State Department for additional information.

    Chairman Levin. Just on that point, if we turn it into a 
question, it may be, General, this needs to be addressed to you 
to. There is obviously a greater risk to folks there unless the 
Iraqis keep a commitment and what is going to be done to make 
sure, to the best of our ability, that they keep that 
commitment, and what about the question of removing them from 
the list--not them but the organization from the terrorist 
list? We are all concerned about that.
    General Dempsey. We share your concern. Lloyd Austin shares 
the concern, and I know Ambassador Jeffrey shares the concern. 
There is no--we are not sparing any diplomatic effort to 
encourage the Iraqis to do what we think is right in this 
regard to ensure the protections of those folks in Camp Ashraf.
    But right now, actually the Iraqi security forces guard 
Camp Ashraf with our advisory and assistance group with them. 
So the concern about that capacity, when we do leave, that 
capacity is a real one. But I actually think we have to put the 
pressure on the Iraqi Government diplomatically to have the 
outcome we think is correct.
    Chairman Levin. Just assure them, if you would, that there 
is a really strong feeling around here that if they violate a 
commitment to protect those people, assuming that they are 
still there and that they have not been removed from the 
terrorist list so they can find other locations, that if they 
violate that commitment to us, that is going to have a severely 
negative impact on the relationship. I think I can speak here 
for Congress, although I am reluctant to ever say that. I think 
there is a lot of concern in Congress about it, and this will, 
I believe in my opinion, severely negatively impact their 
relationship with the U.S. Congress. Let me leave it at that.
    Secretary Panetta. Senator, I want to assure you that 
Ambassador Jeffrey has made that point loud and clear to the 
Iraqis.
    Chairman Levin. Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    I would add my voice, and I think you can speak for 
Congress, Members of both parties in both Houses, in expressing 
our concern about the safety of the people in Camp Ashraf.
    This is one of a series of what I would call ``what ifs'' 
which have different answers now that we are dealing with a 
sovereign Iraq. I suppose this is true whether we have troops 
in Iraq or not or outside or in the neighborhood. We are going 
to be relying on diplomacy, cajoling them. What if there is a 
victimization, attacks on the people at Camp Ashraf. What if 
al-Sadr, who says he wants the U.S. embassy out of Baghdad, 
begins to strike at the embassy beyond the capacity of the 
security forces? What if a conflict breaks out between the 
Kurds and the Sunni Arabs at the fault line there in the north? 
I think I would just leave that question because it is an 
answer that is going to be spelled out in our negotiations with 
them.
    I do not know if I am quoting somebody whose testimony on 
the second panel I read, but I thought it was a great quote. 
Maybe I got it from somebody else about diplomacy. Frederick 
the Great apparently said that ``diplomacy without military 
force behind it is like music without instruments.'' There is 
something to be said about that.
    My question is to ask you, Mr. Secretary, if you would just 
spend a moment to develop in a little more detail the statement 
that you made earlier that we will have 40,000 American troops 
in the region. Does that include the 24,000 now in Iraq? Have 
we made a decision to increase the number? Based on the failure 
to have more troops in Iraq after January of next year, have we 
made a decision to increase the number of troops in the region 
outside of Iraq for some of those ``what ifs'' that I just 
talked about?
    Secretary Panetta. No, Senator, that did not include Iraq. 
What we have now is in Kuwait we have almost 29,000; Saudi 
Arabia, we have 258; Bahrain, over 6,000, close to 7,000; UAE, 
about 3,000; Qatar, 7,000. If you go through the region and add 
up all those numbers, that is the 40,000.
    Senator Lieberman. So has there been a decision made to 
increase that number at all because we were unable to reach an 
agreement about a continuing presence of American troops in 
Iraq, in other words, keeping them in the region?
    General Dempsey. Yes. I would not describe it as a cause-
and-effect relationship based on what happened in Iraq, but 
rather our continuing concern with a more assertive Iran.
    Senator Lieberman. Right.
    General Dempsey. We are looking at our CENTCOM footprint. 
Senator, that prior to 2001, we routinely rotated brigades in 
and out of Kuwait for training, but also as part of deterrence. 
I think we have not negotiated this with Kuwait yet, but it 
would be my view that we should have some kind of rotational 
presence, ground, air, and naval.
    Senator Lieberman. Some of those would be combat troops?
    General Dempsey. Absolutely.
    Senator Lieberman. Thank you.
    Chairman Levin. Now, Senator Shaheen has not had a first 
round, but if you would limit it to a couple of questions this 
second round.
    Senator Shaheen. Thank you, Mr. Chairman.
    Secretary Panetta, General Dempsey, it is very nice to have 
you both here.
    You mentioned, General Dempsey, the more assertive Iran and 
clearly Iran's attempting to assert influence throughout Iraq. 
Can you discuss how we are working with some of our partners in 
the region to try and thwart that influence? Specifically, if 
you could start with Turkey, because we have cooperated in the 
past with Turkey on the Kurds in northern Iraq, and we are 
seeing that violence between Turkey and the Kurd rebels has 
escalated since the summer. We saw a major Turkish operation 
into Iraq, and yesterday there were reports that U.S. drones 
have deployed into Turkey from Iraq for surveillance flights. 
So can you just give us an update on that situation?
    General Dempsey. I can. Thank you, Senator.
    Each combatant commander has a theater security cooperation 
plan that supports both building the capability of our 
partners, allows us to make ourselves better, and deters 
potential adversaries. So in Turkey, for example, we have 
recently, as you have described, taken the ISR platform that 
was currently flying out of Balad in Iraq and it is now flying 
out of Incirlik in Turkey to support the Turks in their fight 
against terrorism. The Turks recently agreed to put a Tippy 2 
radar as part of the European phase adaptive approach, 
integrated air defense, against the possibility of a rogue 
missile strike from Iran if they develop that capability.
    Then if you walk down the Gulf, the Gulf Cooperative 
Council, we have bilateral agreements with each of them, some 
of which are multilateral, for example, air defense, some of 
which are exclusively bilateral.
    Then the other thing we do is exercises as well as this FMS 
program, which becomes a significant cornerstone of our 
relationship with these countries.
    Senator Shaheen. Relative to the U.S.-Turkey cooperation on 
the Kurds, how is Iraq responding to that?
    General Dempsey. Iraq has consistently denounced the 
presence of the PKK on Iraq soil, and so too, by the way, has 
the Kurdistan regional government. So there has not been any 
friction as long as there has been transparency about intent.
    Senator Shaheen. So we are cooperating with them as we are 
doing these kinds of actions.
    General Dempsey. We are, Senator.
    Senator Shaheen. You talked about some of the other 
neighbors in the region. Obviously, again, back to Iran and 
their effort to influence Iraq and the region, does Iraq view 
its potential to be a proxy for Iranian influence and for some 
of the other influences in the region to play out in Iraq? Do 
they see that as a possibility and are they concerned about it?
    Secretary Panetta. I think they are aware that that is a 
possibility, and I think more importantly they clearly resist 
that effort. They have made very clear that Iran should have no 
influence as to the government in Iraq.
    Senator Shaheen. Again, to stay on Iran, I know that the 
hearing is about Iraq, but given the recent reports this week 
from the IAEA about Iran's pursuit of nuclear weapons 
capability, obviously that threatens not only us, the region, 
but Iraq, I would assume, is very concerned about that 
prospect. So are we working with Iraq to try and isolate Iran 
in response to this report, or have we been doing other actions 
around Iran's potential to get nuclear weapons?
    Secretary Panetta. We have worked very closely with Iraq in 
trying to make it very clear to Iran that they ought not to 
provide any kind of military weaponry particularly to the 
extremists in Iraq, and they have cooperated fully in that 
effort. In addition, I think they share the concern about any 
kind of nuclear development in Iran.
    Senator Shaheen. Are they also working with other nations 
in the Middle East to share that concern? So do you see, in 
terms of their relationship with other Middle Eastern 
countries, Saudi Arabia, Qatar, some of the other countries you 
mentioned--do you see that as a cooperative effort that 
everybody is concerned about?
    Secretary Panetta. I do not know the extent of the 
cooperative effort there, but I think they have made their 
position clear. From my own experience, the other countries in 
the region basically share that same viewpoint.
    Senator Shaheen. You talked, I believe, in your opening 
statements about our continuing strategic relationship with 
Iraq. As we look into the future, the next 10, 15, 20 years, 
what is the shared interest that we expect to continue to have 
with Iraq? Obviously, in the short-term we have spent a lot of 
resources and certainly human lives to help defend Iraq and 
support their ability to have a free democratic country. But 
long-term, I think, we are in a different situation than post-
World War II, for example, where Europe and Japan had the 
threat of communism to help us have a mutual strategic 
interest. But what do we see that interest being in Iraq?
    Secretary Panetta. Senator, I think the President has made 
this clear and the Prime Minister has made it clear that we are 
going to continue a long-term relationship with Iraq. 
Obviously, it is going to be multi-tiered. My hope is that we 
can develop that normal relationship that we have with other 
countries in the region so that we can assist on training, can 
assist on counterterrorism operations, can assist with regards 
to intelligence in other areas. I think if we can develop that 
kind of relationship with Iraq, that we can actually strengthen 
their ability to deal with the threats that we are concerned 
about.
    General Dempsey. If I could add, Senator, because I lived 
there for 3 years and studied it quite extensively. I think 
when you talk about the future of our relationship with Iraq, 
Iraq sits on three prominent fault lines, Arab-Kurd, Arab-
Persian, Sunni-Shia. So I think Iraq has the potential to be a 
stabilizing influence. It also has the potential to be a 
destabilizing influence. It has been for 20 years. We would 
expect and aspire to help them to be a stabilizing influence 
and have enormous economic potential. So I do think we should 
take a long view of this thing.
    Senator Shaheen. Thank you.
    Chairman Levin. Thank you, Senator Shaheen.
    Senator Sessions? He has not had a first round either.
    Senator Sessions. I have not had a first round, but Senator 
Graham had a time constraint. Could I yield to him and do my 
first round later?
    Chairman Levin. Of course. The second round was a couple 
questions.
    Senator Graham. Yes, I will try to make it very quick.
    One, we have people in military custody in Iraq. Is that 
correct, Secretary Panetta?
    Secretary Panetta. That is correct.
    Senator Graham. There is a suspect called Daqduq, a 
Hezbollah suspect, who has been accused of plotting the murder 
of five or six American soldiers. Do we know what is going to 
happen with him at the end of this year?
    Secretary Panetta. We have made our concerns known to the 
Iraqis about the importance of detaining that individual, but 
others as well that we are concerned about.
    Senator Graham. Do you agree with me if he is tried in an 
Iraqi court, justice is not going to be delivered. He should 
come to the United States and be tried by military commissions.
    Secretary Panetta. I think he would certainly find better 
justice here.
    Senator Graham. I promised to be very quick.
    General Dempsey, did any Iraqi commander ever suggest to 
you that they did not need a follow-on force or did they ever 
object to a follow-on force?
    General Dempsey. The Iraqi military leaders were 
universally supportive of us continuing to partner with them.
    Senator Graham. One last question. Do you agree with me 
that if we had 10,000 to 12,000 U.S. forces performing 
refereeing duty between the Kurds and the Arabs, embedding 
counterterrorism, intelligence gathering, and training, that 
the likelihood of Iraq becoming a successful, stable state is 
dramatically improved?
    General Dempsey. I am not equivocating. I do not know, 
Senator. I think that probably there is a higher likelihood 
that it would be stabilizing. But there is, nevertheless, the 
possibility that it would be destabilizing.
    Senator Graham. Would you recommend to the President if the 
Iraqis would accept--give us immunity to keep troops there?
    General Dempsey. If the Iraqis approach us with the promise 
of protections and we can negotiate the missions, then my 
recommendation would be to find a way to assist them.
    Senator Graham. Is that true with you, Secretary Panetta?
    Secretary Panetta. Yes.
    Senator Graham. Thank you both.
    Chairman Levin. Thank you.
    Senator Sessions.
    Senator Sessions. Thank you.
    That was a very significant question because we have a big 
decision to make, and we are heading toward a path that, from 
my perspective, creates great concern that as a result of an 
artificial deadline, we are placing at risk a goal that we have 
spent many years now working toward, expended great amounts of 
money and lives and blood to achieve. So to accelerate too fast 
in the last days for some artificial reason, not a core 
military reason, is very worrisome to me. Now, that is just my 
perspective, and I am really worried about it.
    Second, Mr. Secretary, you have been in the White House. 
You know how the world works. There has been a belief somehow 
that the State Department can fill the role of the military. We 
are going to have a big embassy there. We are going to have 
16,000 State Department--does that include the security 
personnel also--there that is going to replace the military. 
Forgive me, but I just am not confident that they are capable 
of fulfilling that role. State Department people cannot be 
asked to go down a dangerous road. General Dempsey says we are 
going down the road. They salute and they go. They put on their 
helmets. They put on their bullet-proof vests. They get in 
their military vehicles and they go do the job. They go meet 
some tribal leader, some regional official, some mayor. They do 
that. So now we are going to have a series of State Department 
compounds apparently with some private security.
    But would you not agree, Secretary Panetta, that a 
determined adversary could place the State Department personnel 
at risk if they move away from those compounds and actually get 
out and travel the countryside and attempt to build a stronger, 
healthier nation?
    Secretary Panetta. Obviously that is the purpose of having 
that security detail with them. But I would also say, Senator, 
that our hope would be that this is not just a State Department 
presence, but that ultimately we will be negotiating a further 
presence for the military as well.
    Senator Sessions. Thank you for saying that. I just would 
say sometimes in the White House elbows fly. You have been 
there, they do. So would you bring to bear your experience and 
best judgment? Would you be sure that it is well-discussed, the 
dangers of a total removal of the military and totally turning 
this over to the State Department?
    Secretary Panetta. I think everyone understands the risks 
involved here, and that is the reason we are in negotiations 
with them about trying to maintain a military presence that can 
assist them to help provide the right security.
    Senator Sessions. I remember Secretary Condoleezza Rice 
saying to me that--maybe in testimony--that she was prepared to 
call any member of the State Department that they needed in the 
theater and ask them personally to go. The Secretary of State 
personally would ask them to go. So that indicates--that just 
reveals the fact that State Department personnel are not 
required and don't have the same duty that the military does to 
go into dangerous areas. First of all, thank you, General 
Dempsey, for your service in Iraq and the war on terror. All 
the men and women who have gone into harm's way, gone wherever 
they have been asked to go even though it was dangerous. State 
Department personnel are not assigned to do that in the same 
way and I just believe we will lose something if you are not 
successful in maintaining a military presence.
    Thank you, Mr. Chairman. I know the vote has started. So 
you guys can relax from my perspective.
    Chairman Levin. We thank you very much for your testimony. 
We just appreciate all you do for our troops and their 
families.
    We will move to our second panel even though a vote has 
begun. [Pause.]
    We are going to begin with this panel, and I am going to 
try to catch the end of the first vote and vote the second 
vote. Here is what we are going to do. We are going to begin 
with the testimony of the second panel. Some of my colleagues 
are going to be voting the first vote, I hope come back, and 
then go and vote at the end of the second vote. That is what 
Senator McCain is going to try to do. What I am going to do is 
open up the second panel, listen, I hope, to all of the 
testimony and then run and vote, stay for the beginning of the 
second vote. The bottom line is this is going to be a little 
bit scattered, but I think the witnesses are probably all 
familiar with the way that works around here.
    So let us continue today's hearing on security issues 
relating to Iraq with the second panel comprised of three 
outside witnesses.
    First, Brett McGurk. He served as a senior policy advisor 
on Iraq issues for both President Bush and President Obama. On 
President Bush's National Security Council, Mr. McGurk served 
first as the director for Iraq and then as special assistant to 
the President and senior director for Iraq and Afghanistan. He 
remained on the National Security Council into the Obama 
administration serving as a special advisor. Mr. McGurk also 
served from 2007 to 2008 as the lead U.S. negotiator on the 
U.S.-Iraq Security Agreement and the bilateral SFA. He is 
currently a visiting scholar at Columbia School of Law.
    Second is Dr. Douglas Ollivant. Dr. Ollivant is a senior 
national security fellow with the New American Foundation and a 
retired lieutenant colonel in the U.S. Army. Earlier this year, 
Dr. Ollivant returned from a 1-year tour as a counterinsurgency 
advisor to the commander of Regional Command East in 
Afghanistan. He served also at the National Security Council as 
director for Iraq in both the Bush and Obama administrations. 
From 2006 to 2007, he served in Iraq as the chief of plans for 
Multinational Division Baghdad.
    Finally, we have Dr. Kenneth Pollack, senior fellow and 
director of the Saban Center for Middle East Policy at the 
Brookings Institution. He has twice served on the National 
Security Council from 1995 to 1996 as the director for Near 
East and South Asian Affairs and from 1999 to 2001 as the 
director for Persian Gulf Affairs. Dr. Pollack has also served 
as a military analyst at the Central Intelligence Agency. He 
has written extensively on Iraq and Middle Eastern affairs, 
including several books.
    We welcome our witnesses. We thank our witnesses, and we 
look forward to your testimony.
    Senator McCain will be back to give his opening statement 
as soon as he has had the opportunity to vote.
    I want to make sure I am calling in the order indicated. 
So, Mr. McGurk, I will call on you first.

   STATEMENT OF BRETT H. McGURK, VISITING SCHOLAR, COLUMBIA 
                    UNIVERSITY SCHOOL OF LAW

    Mr. McGurk. Thank you, Chairman Levin, Senator McCain, and 
distinguished members of the committee.
    It is an honor to appear before you at such a critical 
juncture in Iraq. I have been involved in Iraq policy for 
nearly 8 years, spending more than 3 years in Baghdad and 4 
years in the White House. My testimony this morning is my own 
personal opinion and not the views of the U.S. Government.
    I will review where we have been and then look forward over 
the next 12 to 18 months. This will be a transitional period of 
risk and opportunity for the United States. Given the stakes in 
Iraq and the greater Middle East region, it is critical that we 
get this right and I believe we can.
    I divide the past 8 years into three phases: descent, 
turnaround, and transition. The period of descent from 2003 to 
2007 was characterized by a policy that failed to reflect 
circumstances on the ground, with an over-reliance on political 
progress to deliver security gains and failure to grapple with 
Iraq as we found it, a nation and population wrecked by decades 
of war and dictatorship that left nearly 1 million people dead.
    The turnaround began in 2007, enabled by a new policy that 
focused on security first and began to stem what was becoming a 
self-sustaining civil war. That policy is now known as ``the 
surge.'' But in the White House, during the planning stages, we 
called it a bridge: a boost in resources to bridge gaps in 
Iraqi capacity and set conditions for U.S. forces to move into 
the background. As President Bush said at the time, if we 
increase our support at this critical moment and hope the 
Iraqis break the current cycle of violence, we can hasten the 
day our troops begin coming home.
    Contemporaneous with this new policy, we began negotiating 
a long-term security and diplomatic relationship with Iraq. 
Talks began in the summer of 2007 and resulted in a preliminary 
text called the ``Declaration of Principles'' that envisioned a 
relationship across many fields, including education, 
economics, diplomacy, and security.
    Security came last for two reasons. First, it was essential 
for our own interests that security was but one part of a 
broader relationship. Second, a security agreement alone, even 
at that time with nearly 160,000 U.S. troops deployed, was 
unlikely to survive the crucible of Iraq's political process.
    Iraq's historical memory focuses on a few singular events, 
one of which is a security agreement negotiated with the United 
Kingdom in 1948. That agreement was meant to affirm Iraqi 
sovereignty by mandating the withdrawal of British forces but 
permitted ongoing British access to Iraqi airbases and sparked 
massive riots that left hundreds dead, a toppled government, 
and an abolished agreement.
    Mindful of this experience, our negotiations over the 
course of 2008 focused on a broader set of issues, but they 
nonetheless became fraught, particularly as Iraqis, beginning 
with the battle of Basra in the spring, pressed demands for 
sovereignty and control over their own affairs. In addition, 
our own positions at the time, one of the most sensitive 
issues, including immunity for U.S. personnel and contractors, 
were at first unrealistic. Thus, when a proposed U.S. text 
leaked over the summer, our talks reached a dead end.
    The process of restarting those talks began at the third 
phase of the war, transition. This is not what we originally 
intended, but it was fortunate because it provided a clear road 
map that has lasted to this day with broad U.S. and Iraqi 
support.
    On November 26, 2008, Iraq's parliament ratified two 
agreements, the first called the Security Agreement, set the 
terms for a phased withdrawal of U.S. troops from Iraqi cities 
by June 30, 2009, and from Iraq by the end of 2011. The second, 
called the SFA, set a foundation for permanent relations in the 
areas of diplomacy, culture, commerce, and defense. These 
agreements passed only in the last possible hour before a year-
end recess in the Iraqi parliament, and on the morning of the 
final vote, I sat with Ambassador Ryan Crocker in Baghdad 
believing the vote might not succeed.
    Under the Security Agreement, the first transition 
milestone was the withdrawal of U.S. troops from Iraqi cities 
in June 2009. I was in Baghdad at that time. There was great 
unease at the embassy and within MNF-I that withdrawing from 
Baghdad would abandon hard-fought gains. I shared that unease. 
But the tactical risk of withdrawing was outweighed by the 
strategic gain of allowing Iraqi forces to control their 
streets for the first time. Security incidents, already 
approaching record lows, continued to fall after our 
withdrawal.
    The next transition milestone was August 31, 2010. Shortly 
after his inauguration, President Obama set that date for 
withdrawing U.S. forces to 50,000 from nearly 130,000 when he 
took office and shifting our mission from combat to advising 
Iraqi forces. I had left Baghdad in late 2009 and the following 
spring wrote two articles for the Council of Foreign Relations 
urging reconsideration of that milestone. Iraq had just held 
national elections. Less than 1 percent separated the two major 
lists. Government formation had yet to begin. So withdraw to 
50,000?
    When I returned to Baghdad that summer, however, I saw 
firsthand that Iraq had already crossed the bridge. Outside the 
specialized area of high-end counterterrorism, which by 2010 
did not require a large number of troops, our security role was 
increasingly indirect. The drawdown to 50,000 passed without 
incident and security trends remained stable, even during a 
period of great political uncertainty, which lasted into 
December of last year.
    The next stage of transition was the drawdown of all U.S. 
forces by the end of this year.
    Chairman Levin. Mr. McGurk, I am going to interrupt you--
forgive me--because I am going to have to run and vote now.
    We are going to recess for about 10 or 15 minutes. Can you 
all stay here for that period of time? I am sorry for the 
chaos. If anyone else comes back during this period, they can 
restart it. So it will be about 10 minutes. [Recess.]
    Senator McCain [presiding]. I would like to apologize to 
the witnesses for the machinations of the U.S. Senate which 
require us to be on the floor which, obviously, has affected 
the lunches that are coming in. We would like to go ahead with 
your testimony, but I would like to recommend to the chairman 
that we bring you back on another day. I think your opening 
statements we should proceed with and maybe ask you to return 
on another day because I think your testimony is important. I 
think your involvement in this issue is important. 
Unfortunately, the majority of my colleagues are not here to 
listen to what you have to say. I hope you understand and I 
apologize for it. I think maybe we could go ahead with the 
opening statements, and then I will ask Senator Levin if 
perhaps we could go ahead and ask you to come back again 
another time before the committee.
    Mr. McGurk, were you testifying?
    Mr. McGurk. I was, Senator. I can pick up where I left off.
    Senator McCain. Please continue.
    Mr. McGurk. Thank you.
    Senator McCain. Again, my apologies.
    Mr. McGurk. Thank you, Senator.
    In the beginning I just laid out where we had been from the 
surge until now, the surge being so critical to getting to the 
point we are now.
    The next stage of the transition was the drawdown of all 
U.S. forces by the end of this year. This past July, I returned 
to Iraq to assist Ambassador Jeffrey and General Austin who 
were in discussions with Iraqi leaders on whether and how to 
extend that deadline. Ultimately the decision was made not to 
do so. In my view, there is one primary reason for that 
decision. Iraqi and U.S. legal experts had determined that 
legal immunities for U.S. troops could only be granted by the 
Iraqi parliament. The parliament simply would not do so, a view 
confirmed by the Iraqi leaders on October 4 in a unanimous 
decision.
    This outcome reflected a volatile mix of pride, history, 
nationalism, and as in any open political system, public 
opinion. A recent poll by an independent research institution 
is consistent with what I heard across Baghdad over the summer 
and fall. Nearly 90 percent of Iraqis in Baghdad and more than 
80 percent nationwide supported the withdrawal of U.S. forces 
from Iraq. Had the issue been framed in terms of granting legal 
immunity to U.S. personnel, the numbers would surely be higher.
    Then there was the question of Iran. The Iranians have 
tremendous influence in Baghdad. Its embassy rarely rotates its 
personnel, resulting in longstanding relations with Iraqi 
leaders. Its trading relationship with Iraq is approaching $10 
billion, including $5 billion with the Kurdish region alone. 
But this influence is rarely decisive on bilateral U.S. 
matters, and it was not decisive on the issue of a residual 
U.S. force. In the end, even the most anti-Iranian leaders in 
Baghdad refused to publicly support us. When a Sunni 
nationalist and vehemently anti-Iranian bloc in parliament 
began a petition to ban all U.S. military trainers in Iraq, it 
rapidly collected 120 signatures.
    This nationalist sentiment is our best weapon against 
Iranian designs on Iraq. The poll cited above found only 14 
percent of Iraqis hold a favorable view of Iran. Even Sadr 
supporters hold an unfavorable view of Iran by a margin of 3 to 
1. To be sure, the issue of Iran's role in Iraq is exceedingly 
complex, multifaceted, and deeply troubling. But it is also 
self-limiting by history, ethnicity, and religious orthodoxy. 
Iran will continue to push, but the Iraqis will push back. In 
the end, the question of whether U.S. troops would remain in 
Iraq had little to do with Iran and everything to do with Iraq.
    This is now the hard reality of Iraq's constitutional 
system, a system assertive of its sovereignty, responsive to 
public opinion, and impervious to direct U.S. pressure. A 
similar dynamic may arise in Egypt, Libya, Tunisia, and other 
states where political systems are opening for the first time 
with new leaders accountable to their people.
    It would be a mistake, however, to see this new reality as 
militating against long-term U.S. interests and partnerships. 
Iraq may be an example. Over the course of the summer, even as 
Iraqi leaders warned against taking a security agreement to 
parliament, they took actions in concert with us and sought to 
deepen a diplomatic and defense partnership.
    After a series of rocket attacks on U.S. bases by Iranian-
backed militants in Maysan Province, the Iraqi army moved 
quietly but in force and arrested hundreds of militia fighters. 
The Iraqi Government replaced ineffective police commanders and 
directed special operations against leadership targets. Iraqi 
officials sent messages to Tehran declaring that attacks on 
U.S. facilities or troops would be considered an attack against 
the Iraqi state. By the end of the summer, security incidents 
in Maysan and then nationwide dropped to their lowest levels of 
the entire war.
    In addition, in September, Iraq completed the purchase of 
18 F-16s, transferring more than $3 billion into its FMS 
account, which is now the fourth largest in the region and 
ninth largest in the world. Iraq, in its next budget cycle, 
plans to purchase 18 more F-16s, topping $10 billion in its FMS 
program, which already includes 140 M1A1 main battle tanks, 
naval patrol boats, reconnaissance aircraft, and over 1,000 up-
armored Humvees. A number of countries have sought to sell 
weapons systems to Iraq. It is, thus, significant that they 
chose the United States as their primary supplier with long-
term training and maintenance contracts.
    Against this backdrop, the best available policy for the 
United States was to fulfill the commitment under the Security 
Agreement and elevate the SFA as the pillar of our long-term 
relationship. Having just returned from Baghdad, I am confident 
that this policy, if handled right, can open a new window of 
opportunity for relations with Iraq, including close security 
and defense relations.
    The next 12 to 18 months should mark the final stage of 
transition to normalized relations. In practice, that means 
moving swiftly to anchor U.S. engagement under the SFA. Article 
X of the SFA envisions an organized partnership through high-
level and mid-level joint committees including in the areas of 
defense, education, economics, and diplomacy. Standing up and 
empowering these committees will institutionalize regular 
patterns of interaction, which in turn can lend coherence to a 
complex relationship, help identify and address emerging 
problems, and reinforce opportunities as they arise.
    Importantly, the Iraqis do not see the SFA as a framework 
for U.S. aid or assistance, and nor should we. It is instead a 
structure for building a broad strategic partnership. It 
carries wide popular support in Iraq and has the status under 
Iraqi law of a treaty. Its implementation over the next year 
can institutionalize arrangements to mitigate risks associated 
with our military withdrawal and manage the friction that will 
naturally arise between Iraqi and U.S. officials during a 
period of transition.
    With respect to our civilian presence, we must begin a 
serious conversation with the Iraqis on what we mutually expect 
out of a strategic partnership. By necessity, for much of the 
past 2 years, we focused on government formation and whether 
and how to extend our military presence. Now we can begin a 
broader and ongoing strategic dialogue that focuses on 
identifying and then pursuing mutual interests.
    That dialogue should accelerate next month when Prime 
Minister Maliki visits Washington. This visit is an 
opportunity, first, to honor the sacrifice of thousands of 
Americans and Iraqis over the past 9 years. The withdrawal of 
U.S. forces with Iraqis in charge of their own security and 
violence at record lows was unimaginable 4 years ago. It was 
made possible only because tens of thousands of Americans 
fought in Iraqi streets at the height of a sectarian war with a 
mission to protect the Iraqi people. As we approach the formal 
end of the war, their valor must be honored and memorialized.
    Then we must look forward. President Obama and Prime 
Minister Maliki have an opportunity to set a common vision 
beyond the withdrawal of U.S. troops. The aim should be setting 
in place, over the next year, a strong and enduring foundation 
for normalized ties under the SFA. This will be an iterative 
and nonlinear process. Results will not be instant. There will 
be areas of disagreement with the Iraqis and within our own 
government. But the goal is to ensure that the withdrawal of 
U.S. troops from Iraq marks not an end but a new beginning 
under the SFA. That goal is achievable.
    In the security area alone, the SFA provides the basis for 
enduring defense ties. Through CENTCOM, U.S. forces can assist 
in maritime and air defense and conduct combined arms 
exercises. The OSC at the embassy offers an additional platform 
for training Iraqi forces through its FMS program. The OSC will 
begin small, but it can expand as Iraq's FMS program grows. 
Intelligence sharing, including with Iraqi special forces, 
should continue and intensify. Counterterror cooperation, 
especially against al Qaeda, can be strengthened and 
institutionalized.
    In the economic area, Iraq is rapidly becoming, in the 
words of the U.N. Development Program, ``the world's oil 
superpower with the ability to influence markets on a global 
scale.'' Its oil output will surpass Iran's in 2 years and 
double in 5 years. Iraqi officials are now focused on public 
services and how best to invest their country's resources, a 
sea change from 4 years ago. We can help. The SFA envisions 
permanent structures for linking Iraqi officials and business 
leaders with American companies and expertise. It further 
envisions bilateral cooperation to complete Iraq's accession to 
the WTO and other international financial institutions. Iraq's 
global integration is in our mutual interests and can be a 
mainstay of U.S. policy.
    In the education area, Iraq has the largest Fulbright 
program in the Middle East, the largest international Visitor 
Leadership Program in the world, and is developing linkages 
with colleges and universities across the United States. The 
SFA offers a platform for knitting these and other programs 
into a more permanent fabric.
    In the diplomatic area, Iraq sits in a turbulent 
neighborhood and its leaders see potential problems at every 
border. They also view themselves as the vanguard of the Arab 
Spring, yet they act with increasing hesitation as events 
unfold. One senior Iraqi leader proposed a permanent structure 
for strategic dialogue under the SFA to discuss fast-moving 
events and avoid misunderstandings with Washington. Such a 
structure would replace the dormant U.N.-sponsored neighbors 
process that met three times with varying results between 2006 
and 2008. It will not align Iraq's foreignbv policy with ours, 
but it could help bolster Iraq's confidence and help its 
leaders better pursue regional policies that both expand 
democratic rights and promote Iraq's stability.
    Serious risks remain. The largest is renewed sectarian or 
ethnic conflict. Levels of violence remain low, however, and 
the costs of any group leaving the political process have 
increased together with Iraq's increasing resources. But we 
must remain vigilant.
    Establishing regular and formalized patterns of engagement 
under the SFA can mitigate risk and spot early indicators of 
conflict. According to historical models, there are five 
primary indicators of conflict recurrence: serious government 
repression; wholesale withdrawal of forces supporting the 
government; serious declarations of secession; new and 
significant foreign support to militants; and new signs of 
coordination between militant groups. This framework can help 
U.S. diplomats and analysts make sense of what will remain a 
fast-moving kaleidoscope of events.
    Ultimately, however, experience in Iraq helps diplomats 
develop a feel for what is a problem and what is truly a 
crisis, and today there are far more of the former than the 
latter. There is no question that al Qaeda will seek to spark 
ethnic and sectarian conflict. The governing coalition will 
remain fractious and dysfunctional. Sadr will be a wild card, 
unpredictable to us, to Iran, and to his own followers. Maliki 
will seek to enhance his own powers. Speaker Nujayfi and 
President Barzani may do the same. The test is whether Iraq's 
constitutional arrangements allow inevitable conflicts to be 
managed peacefully through the parliament and accepted legal 
means.
    There have been some encouraging signs over the past year. 
Parliament is becoming an assertive and independent 
institution. Iraqis on their own managed potential flashpoints, 
such as the massacre this summer of Shia pilgrims in Anbar 
Province. Tensions among Arabs and Kurds eased with improved 
relations between prominent leaders, some of whom used to never 
speak to each other. The withdrawal of U.S. forces may change 
the calculus of some actors. But successful management of 
political disputes has turned more on established relationships 
between U.S. and Iraqi officials and between the Iraqis 
themselves than the number of U.S. troops in Iraq at any given 
time.
    At bottom, Iraq faces serious challenges over the next 
year. The U.S. military withdrawal may increase some risks in 
the short-term. But similar to our withdrawal from Iraqi 
cities, it also provides a strategic window to reset relations 
with Iraq and establish permanent diplomatic structures that 
mitigate risks over the long-term. That is now the central 
challenge and opportunity before the United States.
    Thank you.
    [The prepared statement of Mr. McGurk follows:]
               Prepared Statement by Brett H. McGurk \1\
---------------------------------------------------------------------------
    \1\ Visiting Scholar at Columbia University School of Law. Former 
Special Assistant to President Bush and Senior Director for Iraq and 
Afghanistan; Special Advisor to the National Security Council; and 
Senior Advisor to three U.S. ambassadors in Baghdad.
---------------------------------------------------------------------------
    Thank you Chairman Levin, Senator McCain, distinguished members of 
the committee. It is an honor to appear before you at such a critical 
juncture in Iraq. I have been involved in Iraq policy for nearly 8 
years, spending more than 3 years in Baghdad and four in the White 
House. My testimony this morning will review where we have been and 
then look forward over the next 12-18 months. This will be a 
transitional period of risk and opportunity for the United States. 
Given the stakes in Iraq and the greater Middle East region, it is 
critical that we get it right. I believe we can.
    I divide the past 8 years into three phases: descent, turnaround, 
and transition. The period of descent, from 2003 to 2007, was 
characterized by a policy that failed to reflect circumstances on the 
ground, with over-reliance on political progress to deliver security 
gains and failure to grapple with Iraq as we found it: a nation and 
population wrecked by decades of war and dictatorship that left nearly 
1 million people dead.
    The turnaround began in 2007, enabled by a new policy that focused 
on security first and began to stem what was becoming a self-sustaining 
civil war. That policy is now known as the surge. But in the White 
House, during its planning stages, we called it a bridge: a boost in 
resources to bridge gaps in Iraqi capacity and set conditions for U.S. 
forces to move into the background. As President Bush said at the time: 
``If we increase our support at this crucial moment, and help the 
Iraqis break the current cycle of violence, we can hasten the day our 
troops begin coming home.''
    Contemporaneous with this new policy, we began negotiating a long-
term security and diplomatic relationship with Iraq. Talks began in the 
summer of 2007 and resulted in a preliminary text--called the 
Declaration of Principles--that envisioned a relationship across many 
fields, including education, economics, diplomacy, and security.
    Security came last for two reasons. First, it was essential for our 
own interests that security was but one part of a broader relationship. 
Second, a security agreement alone--even at that time with nearly 
160,000 U.S. troops deployed was unlikely to survive the crucible of 
Iraq's political process.
    Iraq's historical memory focuses on a few singular events, one of 
which is a security agreement negotiated with the United Kingdom in 
1948. That agreement was meant to affirm Iraqi sovereignty by mandating 
the withdrawal of British ground forces. But it permitted ongoing 
British access to Iraqi airbases and sparked massive riots that left 
hundreds dead, a toppled government, and an abolished agreement.
    Mindful of this experience, our negotiations over the course of 
2008 focused on a broader set of issues, but they became fraught--
particularly as Iraqis, beginning with the battle of Basra in the 
spring, pressed demands for sovereignty and control over their own 
affairs. In addition, our own positions on the most sensitive issues--
including immunity for U.S. military personnel and contractors--were, 
at first, unrealistic. Thus, when a proposed U.S. text leaked over the 
summer, the talks reached a dead end.
    The process of restarting those talks began the third phase of the 
war--transition. This was not what we originally intended, but it was 
fortunate because it provided a clear roadmap that has lasted to this 
day with broad U.S. and Iraqi support.
    On November 26, 2008, Iraq's parliament ratified two agreements. 
The first, called the Security Agreement, set the terms for a phased 
withdrawal of U.S. troops--from Iraqi cities by June 30, 2009; and from 
Iraq by the end of 2011. The second, called the Strategic Framework 
Agreement, set a foundation for permanent relations in the areas of 
diplomacy, culture, commerce, and defense. These agreements passed only 
in the last possible hour before a year-end recess, and on the morning 
of the final vote, I sat with Ambassador Ryan Crocker in Baghdad 
believing the vote might not succeed.
    Under the Security Agreement, the first transition milestone was 
the withdrawal of U.S. troops from Iraqi cities in June 2009. There was 
great unease at the Embassy and within MNF-I that withdrawing from 
Baghdad would abandon hard fought gains. I shared that unease. But the 
tactical risk of withdrawing was outweighed by the strategic gain of 
allowing Iraqi forces to control their streets for the first time. 
Security incidents, already approaching record lows, continued to fall 
after our withdrawal.
    The next transition milestone was August 31, 2010. Shortly after 
his inauguration, President Obama set that date for withdrawing U.S. 
forces to 50,000 (from nearly 130,000 when he took office) and shifting 
our mission from combat to advising and training Iraqi forces. I had 
left Baghdad in late 2009 and the following spring wrote two articles 
for the Council ofForeign Relations urging reconsideration of the 
August 31 milestone. Iraq had just held national elections. Less than 
one percent separated the two major lists. Government formation had yet 
to begin. So why withdraw?
    When I returned to Baghdad that summer, however, I saw first-hand 
that Iraq had already crossed the bridge. Outside the specialized area 
of high-end counter-terrorism, which by 2010 did not require large 
numbers of troops, our security role was increasingly indirect. The 
drawdown to 50,000 passed without incident and security trends remained 
stable, even during a period of great political uncertainty, which 
lasted into December.
    The next stage of transition was the drawdown of all U.S. forces by 
the end of this year. This past July, I returned to Iraq to assist 
Ambassador Jeffrey and General Austin who were in discussions with 
Iraqi leaders on whether and how to extend that deadline. Ultimately, 
the decision was made not to do so. There was one primary reason for 
that decision. Iraqi and U.S. legal experts had determined that legal 
immunities for U.S. troops could only be granted by the Iraqi 
parliament. The parliament would not do so--a view confirmed by Iraqi 
leaders on October 4 in a unanimous decision.
    This outcome reflected a volatile mix of pride, history, 
nationalism, and (as in any open political system) public opinion. A 
recent poll by an Embassy funded research institution is consistent 
with what I saw and heard across Baghdad over the summer and fall. 
Nearly 90 percent of Iraqis in Baghdad and more than 80 percent 
nationwide supported the withdrawal of U.S. forces from Iraq. Had the 
issue been framed in terms of granting legal immunity for U.S. 
personnel--the numbers would surely be higher.
    Then there was the question of Iran. The Iranians have tremendous 
influence in Baghdad. Its embassy rarely rotates personnel--resulting 
in longstanding relations with Iraqi leaders. Its trading relationship 
with Iraq is approaching $10 billion, including $5 billion with the 
Kurdish region alone. But this influence is rarely decisive on 
bilateral U.S. matters, and it was not decisive on the issue of a 
residual U.S. force. In the end, even the most anti-Iranian leaders in 
Baghdad refused to publicly support us. When a Sunni nationalist--and 
vehemently anti-Iranian--bloc in parliament began a petition to ban 
U.S. military trainers, it rapidly collected 120 signatures.
    This nationalist sentiment is our best weapon against Iranian 
designs on Iraq. The poll cited above found only 14 percent of Iraqis 
hold a favorable view of Iran. Even Sadr supporters hold an unfavorable 
view of Iran by a margin of 3 to 1. To be sure, the issue of Iran's 
role in Iraq exceedingly complex, multifaceted, and troubling. But it 
is also self-limiting--by history, ethnicity, and religious orthodoxy. 
Iran will continue to push, but the Iraqis will pushback. In the end, 
the question of whether U.S. troops would remain in Iraq had little to 
do with Iran, and everything to do with Iraq.
    This is now the hard reality of Iraq's constitutional system: a 
system assertive of its sovereignty, responsive to public opinion, and 
impervious to direct U.S. pressure. A similar dynamic may arise in 
Egypt, Libya, Tunisia, and other states where political systems are 
opening for the first time with new leaders accountable to their 
people.
    It would be a mistake, however, to see this new reality as 
militating against long-term U.S. interests and partnerships. Iraq is 
an example. Over the course of the summer, even as Iraqi leaders warned 
against taking a security agreement to parliament, they took actions in 
concert with us--and sought to deepen a diplomatic and defense 
partnership.
    After a series of rocket attacks on U.S. bases by Iranian-backed 
militants in Maysan province, the Iraqi Army moved quietly but in force 
and arrested hundreds of militia fighters. The Iraqi Government 
replaced ineffective police commanders and directed special operations 
against leadership targets. Iraqi officials sent messages to Tehran, 
declaring that attacks on U.S. facilities or troops would be considered 
an attack against the Iraqi state. By the end of the summer, security 
incidents in Maysan and then nationwide dropped to their lowest levels 
of the entire war.
    In addition, Iraq in September completed the purchase of 18 F-16s, 
transferring more than $3 billion into its FMS account--which is now 
the fourth largest in the region and ninth largest in the world. Iraq 
in its next budget cycle plans to purchase 18 more F-16s, topping $10 
billion in its FMS program--which already includes 140 M1A1 Main Battle 
Tanks, 6 C-130 transport aircraft, 24 Bell 407C helicopters, in 
addition to naval patrol boats, reconnaissance aircraft, and over 1,000 
up-armored Humvees. A number of countries sought to sell weapons 
systems to Iraq. It is thus significant that they chose the United 
States as their primary supplier with long-term training and 
maintenance contracts.
    Against this backdrop, the best available policy for the United 
States was to fulfill the commitment under the Security Agreement and 
elevate the SFA as the pillar of our long-term relationship. Having 
just returned from Baghdad, I am confident that this policy--if handled 
right--can open a new window of opportunity for relations with Iraq, 
including close security and defense relations.
    The next 12-18 months should mark the final stage of transition: to 
normalized relations. In practice, that means moving swiftly to anchor 
U.S. engagement under the SFA. Article X of the SFA envisions an 
organized partnership through high-level and mid-level joint 
committees, including in the areas of defense, education, economics, 
and diplomacy. Standing up and empowering these committees will 
institutionalize regular patterns of interaction, which in turn can 
lend coherence to a complex relationship; help identify and address 
emerging problems; and reinforce opportunities as they arise.
    Importantly, the Iraqis do not see the SFA as a framework for U.S. 
aid or assistance--and nor should we. It is instead a structure for 
building a broad strategic partnership. It carries wide popular support 
in Iraq and has the status of a treaty under Iraqi law. Its 
implementation over the next year can institutionalize arrangements to 
mitigate risks associated with our military withdrawal and manage the 
friction that will naturally arise between Iraqi and U.S. officials 
during a period of transition.
    With respect to our civilian presence, we must begin a serious 
conversation with the Iraqis on what we mutually expect out of a 
strategic partnership. By necessity, for much of the past 2 years, we 
focused on government formation and whether and how to extend our 
military presence. Now, we can begin a broader--and ongoing--strategic 
dialogue that focuses on identifying and then pursuing mutual 
interests.
    That dialogue should accelerate next month when Prime Minister 
Maliki visits Washington. This visit is an opportunity, first, to honor 
the sacrifice of thousands of Americans and Iraqis over the past 9 
years. The withdrawal of U.S. forces with Iraqis in charge of their own 
security and violence at record lows was unimaginable 4 years ago. It 
was made possible only because tens of thousands of Americans fought in 
Iraqi streets at the height of a sectarian war with a mission to 
protect the Iraqi people. As we approach the formal end of the war, 
their valor must be honored and memorialized.
    Then we must look forward. President Obama and Prime Minister 
Maliki have an opportunity to set a common vision beyond the withdrawal 
of U.S. troops. The aim should be setting in place--over the next 
year--a strong and enduring foundation for normalized ties under the 
SFA. This will be an iterative and non-linear process. Results will not 
be instant. There will be areas of disagreement with the Iraqis, and 
within our own government. But the goal is to ensure that the 
withdrawal of U.S. forces from Iraq marks not an end, but a new 
beginning under the SFA. That goal is achievable.
    In the security area alone, the SFA provides the basis for enduring 
defense ties. Through U.S. Central Command, U.S. forces can assist in 
maritime and air defense and conduct combined arms exercises. The 
Office of Security Cooperation (OSC) at the Embassy offers an 
additional training platform through Iraq's FMS program. The OSC will 
begin small but it can expand as Iraq's FMS program grows. Intelligence 
sharing--including with Iraqi Special Forces--should continue and 
intensify. Counterterror cooperation, especially against al Qaeda, can 
be strengthened and institutionalized.
    In the economic area, Iraq is rapidly becoming--in the words of the 
U.N. Development Program--``the world's oil superpower with the ability 
to influence markets on a global scale.'' Its oil output will surpass 
Iran's in 2 years and double in 5 years. Iraqi officials are now 
focused on public services and how best to invest their country's 
resources a sea change from 4 years ago. We can help them. The SFA 
envisions permanent structures for linking Iraqi officials and business 
leaders with American companies and expertise. It further envisions 
bilateral cooperation to complete Iraq's accession to the WTO and other 
international financial institutions. Iraq's global integration is in 
our mutual interests and can be a mainstay of U.S. policy.
    In the education area, Iraq has the largest Fulbright program in 
the Middle East, the largest International Visitor Leadership Program 
in the world, and is developing linkages with colleges and universities 
across the United States. Half the Iraqi population is younger than 19 
years of age and 25 percent were born after the U.S. invasion. It is in 
our interest to encourage this new generation to study outside Iraq--
and in the United States. Iraq does not want handouts. It is allocating 
$1 billion for its own Iraq Education Initiative to send thousands of 
students per year to study at English speaking universities. The SFA 
offers a platform for knitting these programs into a more permanent 
fabric.
    In the diplomatic area, Iraq sits in a turbulent neighborhood and 
its leaders see potential problems at every border. They also view 
themselves as the vanguard of the Arab spring, yet they act with 
increasing hesitation as events unfold. One senior Iraqi official 
proposed a permanent structure for ``strategic dialogue'' under the 
SFA--to discuss fast-moving events and avoid misunderstandings with 
Washington. Such a structure would replace the dormant U.N. sponsored 
``neighbors process'' that met three times with varying results between 
2006 and 2008. It will not align Iraq's foreign policy with ours, but 
it could help bolster Iraq's confidence and help its leaders better 
pursue regional policies that both expand democratic rights and promote 
Iraq's stability.
    Serious risks remain. The largest is renewed sectarian or ethnic 
conflict. Levels of violence remain low, however, and the costs of any 
group leaving the political process have increased together with Iraq's 
increasing resources. But we must remain vigilant.
    Establishing regular and formalized patterns of engagement under 
the SFA can mitigate risk and spot early indicators of conflict. 
According to historical models, there are five primary indicators of 
conflict recurrence: (1) serious government repression; (2) wholesale 
withdrawal of forces supporting the government; (3) serious 
declarations of succession; (4) new and significant foreign support to 
militants; and (5) new signs of coordination between militant groups. 
This framework can help U.S. diplomats and analysts make sense of what 
will remain a fast-moving kaleidoscope of events.
    Ultimately, however, experience in Iraq helps diplomats develop a 
feel for what is a problem and what is truly a crisis, and today there 
are far more of the former than the latter. There is no question that 
al Qaeda will seek to spark ethnic and sectarian conflict. The 
governing coalition will remain fractious and dysfunctional. Sadr will 
be a wildcard, unpredictable to us, to Iran, and to his own followers. 
Maliki will seek to enhance his own powers. Speaker Nujayfi and 
President Barzani may do the same. The test is whether Iraq's 
constitutional arrangements allow inevitable conflicts to be managed 
peacefully, through the parliament and accepted legal means.
    There have been encouraging signs over the past year. Parliament is 
becoming an assertive and independent institution. Iraqis on their own 
managed potential flashpoints, such as the massacre this summer of Shia 
pilgrims in Anbar province. Tensions among Arabs and Kurds eased with 
improved relations between prominent leaders (some of whom used to 
never speak to each other). The withdrawal of U.S. forces may change 
the calculus of some actors. But successful management of political 
disputes has turned more on established relationships--between U.S. and 
Iraqi officials and between the Iraqis themselves--than on the number 
of U.S. troops in Iraq at any given time.
    At bottom, Iraq faces serious challenges over the next year. The 
U.S. military withdrawal may increase some risks in the short term. 
But--similar to our withdrawal from Iraqi cities--it also provides a 
strategic window to reset relations with Iraq and establish permanent 
diplomatic structures that mitigate risks over the long-term. That is 
now the central challenge and opportunity before us.

    Chairman Levin [presiding]. Dr. Ollivant?

STATEMENT OF DR. DOUGLAS A. OLLIVANT, SENIOR NATIONAL SECURITY 
  FELLOW, NATIONAL SECURITY STUDIES PROGRAM, THE NEW AMERICA 
                           FOUNDATION

    Dr. Ollivant. Chairman Levin and members of the committee, 
it is my pleasure to testify today on the future of Iraq 
following the withdrawal of the U.S. troops by December 31 of 
this year. This is an important foreign policy issue for the 
United States, and I am pleased to see it receive at least some 
of the attention that it deserves.
    I began working on Iraq policy over 7 years ago. I first 
went to Iraq in June 2004 as a uniformed Army officer. During 
this tour, I fought in the battles of Najaf Cemetery and Second 
Fallujah, conducted nascent counterinsurgency operations in the 
Kadhamiya district of Baghdad, and was in southern Baghdad for 
the January 2005 elections, and witnessed the first outburst of 
Iraqi nationalism through a democratic process. I also lost 
several friends.
    I returned to Baghdad in late 2006 as the chief of plans 
and chief strategist for Multinational Division Baghdad. In 
this capacity, I led the team that wrote the coalition portion 
of the Baghdad security plan, the core implementing document 
for the 2007 surge.
    After 14 months in Iraq on this second tour, I came to 
Washington to serve on the National Security staff as the 
director for Iraq, where I worked on, among other issues, the 
dissolving of the Iraq coalition in late 2008, the first 
transition moment, the securing of the SOFA for our few 
remaining coalition partner nations after the signing of our 
SOFA, and initiated the planning for the transition of police 
training from DOD to the State Department.
    I was last in Iraq in the summer of 2009 in a private 
capacity but have retained my contacts on the issue, despite 
spending a year in Afghanistan as a civilian counterinsurgency 
advisor in the interim.
    My bottom line on our position with Iraq is this: the 
complete withdrawal of U.S. forces from Iraq is the right 
policy at this time. Our forces are no longer welcome, as the 
mood in the Iraqi parliament demonstrates, and serve as a major 
distraction in Iraqi politics. Further, while Iraq does face 
numerous challenges, the presence of U.S. forces would do 
little to ameliorate them.
    I do have two concerns. First, Iranian influence in Iraq, 
though not to the extent that I find common in Washington, is a 
very real concern that we need to watch closely. Second, and 
more importantly, I am concerned that once U.S. military forces 
are withdrawn, Iraq may suffer from neglect by the Washington 
policy community. Iraq has been a deeply divisive issue in our 
domestic politics for some time, and it may be tempting to just 
put the entire subject behind us. This would be a mistake, and 
the United States should actively engage Iraq as an emerging 
partner, engage in educational and cultural exchanges, and most 
importantly, do everything in its power to assist the 
engagement of the U.S. business community in this emerging 
market.
    Our forces should withdraw from Iraq, and the President has 
made the right call in abiding by the agreement signed by his 
predecessor despite the open courting over the past year by 
some agencies of the U.S. Government to remain indefinitely.
    First, and most importantly, we should leave because we 
said we would. There are significant portions of the Arab 
street that are convinced that the United States invaded Iraq 
to gain access to its oil resources. While we can never hope to 
disarm all conspiracy theorists, the departure of all military 
forces from Iraq will signal to any open minds that this is 
simply not the case. Our departure, after removing the previous 
regime and eventually, if belatedly, bringing some semblance of 
stability to the country, signals that the United States may 
hope for friendship but is not looking for neo-colonial 
territories. If and when the United States has to intervene in 
yet another country, it will be immensely helpful to be able to 
point to the utter absence of U.S. military forces in Iraq to 
demonstrate that we do leave when asked.
    Second, U.S. troops should leave because the Iraqis want us 
to leave. Yes, the Sadrists and their Iranian-influenced 
leadership are the most vocal advocates, but Iraqi nationalists 
of all stripes find the continuing presence of U.S. forces to 
be deeply humiliating, even when their presence appeals to 
their rational interests. If we stay, our presence will 
continue to be a galvanizing, even defining, political issue in 
Iraq. Conversely, our departure may allow the Iraqis to spend 
precious political bandwidth elsewhere.
    Third, U.S. troops should leave because they are the wrong 
instrument for the political problems that the Iraqis now face. 
I am the first to admit that Iraqi politics are immature and 
that numerous political issues, Kurd versus Arab, Sunni versus 
Shia, relationships with the neighbors, executive versus 
legislative power, distribution of hydrocarbon revenue and 
authorities, all remain unresolved. Military forces are at best 
irrelevant to these issues and at their worst, complicate them 
by ham-handed attempts to intervene in them. Soldiers tend to 
make poor diplomats, and the bulk of Iraq's remaining 
challenges are diplomatic in nature. Let us get the soldiers 
out of the way and let the diplomats solve them.
    Finally, while my position on withdrawal of U.S. military 
forces is not driven by domestic politics, it is nonetheless 
good domestic politics. President Obama is now abiding by and 
overseeing the agreement signed by his Republican predecessor 
to put an orderly end to our military presence in Iraq. We 
should all welcome this lamentably rare bipartisan moment.
    This does not mean there are not continuing challenges in 
Iraq and it is still possible that Iraq could go badly wrong. 
It is simply that a U.S. military presence no longer reduces 
that possibility.
    Let me briefly review some of the challenges facing Iraq. 
The most urgent from our perspective is the continuing Iranian 
influence in that country. This is a real threat, and the 
intentions of the Iranian Revolutionary Guard Corps Qods Force 
units are most assuredly not benign. But the threat is 
overstated. Iran shares a border and a religion with Iraq, but 
here the commonalities end. Iran is a majority Persian country, 
while Iraq is majority Arab. The Iraqis have no desire to be a 
client state of their Persian neighbor, and they have not 
forgotten that they fought a long and bloody war with them not 
so long ago.
    With respect to politics, yes, they are gridlocked with 
Prime Minister Maliki taking advantage of this gridlock to 
expand executive power at the expense of the legislature. Many 
have accused Maliki of becoming the next Saddam, settling 
himself in as a Shia dictator with his Dawa Party as the new 
Ba'ath. Recent purges of Sunni officers in the security forces 
do add fuel to this fire.
    However, these accusations are also overstated. Maliki is 
consolidating executive power, as those in executive office 
tend to do, but the appropriate comparison is probably less 
Saddam and more Erdogan in Turkey. It is something to be 
concerned about perhaps but hardly a cause for panic.
    Finally, relations between the various factions in Iraq, 
Shia, Arab Sunni, and Kurds continue to experience friction 
points. This should not be surprising to us as these groups 
have differences that caused civil war to break out in 2005 to 
2008. But while a return to civil war is always possible, I 
consider it strongly unlikely. All of the factions know that a 
return to civil war will be counterproductive to their 
interests. The Sunni have learned the hard way that to attempt 
violence against the government will spur reprisals from Shia 
militias. The Kurds have carefully watched the re-
professionalization of the Iraqi army and have no desire to 
trade their new-found quasi-autonomous status and exponential 
economic development for the pain and dubious payoffs of armed 
conflict.
    In fact, what we see today is exactly what we would have 
hoped for, but would not have dared hoped for in 2006. These 
three groups have very real differences. Yet, despite a 
relatively gridlocked politics, these groups have not returned 
to widespread violence, but instead continue to work through a 
political system, however frustrating it must be. That said, we 
should continue to encourage Iraq to integrate all sectarian 
groups into positions of power in order to promote societal 
harmony.
    Iraq does continue to have a terrorism problem. The most 
prominent of these groups, al Qaeda in Iraq, is a mere shadow 
of its former self, but this does not mean it is toothless. We 
should expect AQI to continue its nihilist campaign of violence 
against Shia Iraqis, and it is quite possible that they may try 
to attack Western targets outside Iraq. However, we have a 
committed partner in the Iraqi security forces and we can 
expect them to continue to aggressively target AQI forces 
throughout Iraq.
    The various Shia extremist militias backed by Iran will be 
interesting to watch. I believe that nationalist forces in Iraq 
have largely turned a blind eye to these forces as they 
targeted the unpopular American bases. However, now that the 
American forces are departing, it will be interesting to see if 
the Iraqi masses remain as tolerant of these Iranian quislings 
in their midst. I am sure that Iran will attempt to use these 
militias to influence Iraqi politics. Again, it will be 
interesting to see how the Iraqi Government reacts to such a 
move. I suspect that once American forces depart, these Iranian 
proxies will discover that any reservoir of goodwill they might 
have had disappeared when the Americans crossed the border. We 
have seen Maliki settle scores with Shia groups who threatened 
the central government before in early 2008. I would not be 
surprised to see a reprise.
    As was pointed out at several points during the debate over 
residual troop presence, Iraq will need Western military 
trainers, most notably for their navy and their fledgling air 
force but also for U.S. ground equipment such as the M1 tanks 
and the M198 artillery pieces. Not only will they require 
technical advice on the care and use of these individual 
pieces, which will come through the OSC, but they will need to 
know how to employ them in concert.
    However, this does not require U.S. troops. There are 
numerous firms that will be happy to respond to any request for 
proposal from the Iraqi Government for properly skilled 
trainers. The market will respond quickly to Iraqi petrodollars 
and the absence of U.S. troops need not be a showstopper. This 
would just mean the Iraqis pay the bills instead of U.S. 
taxpayers.
    As an aside, it would also be helpful were the Iraqi 
defense establishment to request that firms provide not only 
trainers, but also technical solutions that could help with the 
very real vulnerabilities of explosive detection (as opposed to 
the modified divining rods they now use) and to the security of 
their borders.
    Finally, speaking of firms, the departure of military force 
from Iraq should mark the transition not so much to just the 
State Department, but also to America's real strength, the 
private sector. I would suggest that the best way to ensure 
that America's war in Iraq was not in vain is to promote 
investment by American firms throughout Iraq alongside the 
already burgeoning Chinese, Turkish, and French presence. This 
is not to minimize some real challenges to doing business in 
Iraq, but this is where America should focus its diplomatic 
effort. It is when Americans and Iraqis interact with each 
other not as adversaries, but as business partners that we can 
let the peaceful bonds of commerce work to the advantage of 
both sides.
    Iraq should not be afraid of this engagement. Iraq is 
blessed with abundant oil reserves, perhaps more than we can 
now identify, but it is a truly diversified economy that is in 
the interests of the Iraqi people. We can help the Iraqis 
generate wealth and participate in that wealth generation. As 
the Iraqis begin to participate in the great transformation 
that a market economy can bring, we can become more confident 
of the long-term health of the democratic institutions that we 
planted, however tenuously, there.
    In summary, I am not trying to pain an overly rosy picture 
of Iraq. There are real challenges and for many of its people, 
it remains an unpleasant place to live. But the problems that 
remain do not lend themselves to military solutions. I believe 
the most likely outcome of the removal of the U.S. troop 
presence will be a slow normalization of Iraqi politics as they 
realize that we are no longer present to either assist or take 
the blame. Iranian influence will be a reality. They share a 
border and thousands of years of history. But Iraq will move 
decisively to limit this influence. Iraq will work hard in the 
coming months and years to ramp up their oil production.
    I want to see a continuing American influence in Iraq. But 
I want this influence to come via our training of hundreds of 
Iraqi military and police officers in the United States, 
letting them see how a democratic army behaves within its own 
borders and what a real rule of law system looks like. I want 
this influence to come through American educational 
institutions, which should open their doors to Iraqi students, 
aided by liberal, if carefully screened, student visas. I want 
this influence to come via American business both large and 
small, which helps the Iraqi economy diversify first into 
agriculture, small manufacturing, and then into a future which 
I cannot predict. All these efforts would fit neatly within the 
boundaries of our existing SFA with Iraq referenced to in depth 
by Mr. McGurk.
    In short, now that the Saddam regime is gone and the civil 
war put to rest, the environment is ripe for America's cultural 
and economic institutions to welcome Iraq into the family of 
nations. Again, the SFA signed in 2008 between the United 
States and Iraq makes it clear that these exchanges are welcome 
and in the interest of both sides.
    We have sacrificed much blood and treasure in the past 
years in Iraq, and while we should leave the final accounting 
to history, I am sure we can all agree that at the very least 
we have overpaid for this outcome in Iraq. But we find 
ourselves at a surprisingly good outcome that we could hardly 
have predicted in the dark days 5 years ago. Again, it is 
entirely possible that Iraq could still end up very badly. The 
future is contingent. But as our military-to-military 
relationship with Iraq normalizes with the withdrawal of 
troops, I feel much better about the prospect of a democratic 
Iraq that is an ally in the fight against terrorism and that 
respects the rights of its citizens.
    Thank you.
    [The prepared statement of Dr. Ollivant follows:]
             Prepared Statement by Hon. Douglas A. Ollivant
    Chairman Levin, Ranking Member McCain, and members of the 
committee: It is my pleasure to testify today on the future of Iraq 
following the withdrawal of U.S. troops by December 31 of this year. 
This is an important foreign policy issue for the United States, and I 
am pleased to see it receive at least some of the attention it 
deserves.
    I began working on Iraq policy over 7 years ago. I first went to 
Iraq in June 2004 as a uniformed Army officer. During this tour I 
fought in the battles of Najaf Cemetery and Second Fallujah, conducted 
nascent counterinsurgency operations in the Kadhamiya district of 
Baghdad, and was in southern Baghdad for the January 2005 elections. I 
also lost several friends. I returned to Baghdad in late 2006 as the 
Chief of Plans and chief strategist for MultiNational Division-Baghdad. 
In this capacity, I led the team that wrote the coalition portion of 
the Baghdad Security Plan, the core implementing document for the 2007 
``Surge.'' After 14 months in Iraq on this second tour, I came to 
Washington to serve on the National Security Council staff as Director 
for Iraq, where I worked on--among other issues--the dissolving of the 
Iraq coalition in late 2008, the securing of Status of Forces 
Agreements (SOFA) for our few remaining partner nations after the 
signing of our 2008 SOFA, and initiated the planning for the transition 
of police training from the Department of Defense to the State 
Department. I was last in Iraq in the summer of 2009, but have retained 
my contacts on the issue, despite spending a year in Afghanistan as a 
civilian counterinsurgency advisor in the interim.
    My bottom line on our position with Iraq is this--the complete 
withdrawal of U.S. forces from Iraq is the right policy at this time. 
Our forces are no longer welcome, as the mood in the Iraqi parliament 
demonstrates, and serve as a major distraction in Iraqi politics. 
Further, while Iraq faces numerous challenges, the presence of U.S. 
forces would do little to ameliorate them. However, I do have two 
worries. First, I am concerned about Iranian influence in Iraq, though 
not to the extent that I find common in Washington. Second--and more 
importantly--I am concerned that once U.S. military forces are 
withdrawn, that Iraq may suffer from neglect by the Washington policy 
community. Iraq has been a deeply divisive issue in our domestic 
politics for some time, and it may be tempting to just put the entire 
subject behind us. This would be a mistake, and the United States 
should actively engage Iraq as an emerging partner, engage in 
educational and cultural exchanges, and--most importantly--do 
everything in its power to assist the engagement of the U.S. business 
community in this emerging market.
    Our forces should withdraw from Iraq, and the President has made 
the right call in abiding by the agreement signed by his predecessor, 
despite the open courting, over the past year, by some agencies of the 
U.S. Government to remain indefinitely. First, and most importantly, we 
should leave because we said we would. There are significant portions 
of the ``Arab street'' that are convinced that the United States 
invaded Iraq to gain access to its oil resources. While we can never 
hope to disarm all conspiracy theories, the departure of all military 
forces from Iraq will signal to any open minds that this is simply not 
the case. Our departure, after removing the previous regime and 
eventually--if belatedly--bringing some semblance of stability to the 
country, signals that the United States may hope for friendship, but is 
not looking for neo-colonial territories. If and when the United States 
has to intervene in yet another country, it will be immensely helpful 
to be able to point to the utter absence of U.S. military forces in 
Iraq to demonstrate that we do leave, when asked.
    Second, U.S. troops should leave because the Iraqis want us to 
leave. Yes, the Sadrists and their Iranian-influenced leadership are 
the most vocal advocates, but Iraqi nationalists of all stripes find 
the continuing presence of U.S. forces to be deeply humiliating, even 
when their presence appeals to their rational interests. If we stay, 
our presence will continue to be a galvanizing, even defining, 
political issue in Iraq. Conversely, our departure may allow the Iraqis 
to spend precious political bandwidth elsewhere.
    Third, U.S. troops should leave because they are the wrong 
instrument for the political problems that the Iraqis now face. I am 
the first to admit that Iraq's politics are immature and that numerous 
political issues--Kurd vs. Arab, Sunni vs. Shia, relationships with 
neighbors, executive vs. legislative power, distribution of hydrocarbon 
revenue and authorities--remain unresolved. Military forces are at best 
irrelevant to these issues and at their worst, complicate these issues 
by ham-handed attempts to intervene in them. Soldiers tend to make poor 
diplomats, and the bulk of Iraq's remaining challenges are diplomatic 
in nature. Let's get the soldiers out of the way and let the diplomats 
solve them.
    Finally, while my position on the withdrawal of U.S. military 
forces is not driven by domestic politics, it is nonetheless good 
domestic politics. President Obama is now abiding by and overseeing the 
agreement signed by his predecessor to put an orderly end to our 
military presence in Iraq. We should all welcome this lamentably rare 
bipartisan moment.
    This does not mean there are not continuing challenges in Iraq and 
it is still possible that Iraq could go badly wrong. It is simply that 
a U.S. military presence no longer reduces the possibility of things 
going wrong.
    Let me briefly review some of the challenges facing Iraq. The most 
urgent, from our perspective, is continuing Iranian influence in that 
country. This is a real threat, and the intentions of the Iranian 
Revolution Guard Corps ``Qods Force'' units are most assuredly not 
benign. But the threat is overstated. Iran shares a border and a 
religion with Iraq, but here the commonalities end. Iran is a majority 
Persian country, while Iraq is majority Arab. The Iraqis have no desire 
to be a client state of their Persian neighbor. They have not forgotten 
that they fought a long and bloody war against them not so long ago.
    Yes, the politics in Iraq are gridlocked, with Prime Minister 
Maliki taking advantage of this gridlock to expand executive power at 
the expense of the legislature. Many have accused Maliki of becoming 
the ``next Saddam,'' settling himself in as a Shiite dictator, with his 
Dawa party becoming the new Baath. Recent purges of Sunni officers in 
the security forces do add fuel to this fire.
    However, these accusations are also overstated. Maliki is 
consolidating executive power--as those in executive officers tend to 
do--but the appropriate comparison is probably less Saddam and more 
Erdogan. This is something to be concerned about, perhaps, but hardly a 
cause for panic.
    Finally, relations between the various factions in Iraq--Shiite, 
Arab Sunni, and Kurds--continue to experience friction points. This 
should not be surprising to us, as these groups have differences that 
caused civil war to break out in 2005-2008. But while a return to civil 
war is always possible, I consider it strongly unlikely. All of the 
factions know that a return to civil war will be counterproductive for 
their interests. The Sunni have learned, the hard way, that to attempt 
violence against the government will spur reprisals from Shiite 
militias. The Kurds have carefully watched the re-professionalization 
of the Iraqi Army, and have no desire to trade their newfound quasi-
autonomous status and exponential economic development for the pain and 
dubious payoffs of armed conflict.
    In fact, what we see today is exactly what we would hope for--but 
would have not dared hoped for in 2006. These three groups have very 
real differences. Yet despite a relatively gridlocked politics, these 
groups have not returned to widespread violence, but instead continue 
to work through a political system, however frustrating it must be. 
That said, we should continue to encourage Iraq to integrate all 
sectarian groups into positions of power in order to promote societal 
harmony.
    Iraq does continue to have a terrorism problem. The most prominent 
of these groups--Al Qaeda is Iraq (AQI)--is a mere shadow of its former 
self, but this does not mean it is toothless. We should expect AQI to 
continue its nihilist campaign of violence against Shiite Iraqis, and 
it is possible that they may try to attack Western targets outside 
Iraq. However, we have a committed partner in the Iraqi Security 
Forces, and we can expect them to continue to aggressively target AQI 
forces throughout Iraq.
    The various Shiite extremist militias, backed by Iran, will be 
interesting to watch. I believe that nationalist forces in Iraq have 
largely turned a blind eye to these forces as they targeted unpopular 
American bases. However, now that the American forces are departing, it 
will be interesting to see if the Iraqi masses remain as tolerant of 
these Iranian quislings in their midst. I am sure that Iran will 
attempt to use these militias to influence Iraqi politics. It will be 
interesting to see how the Iraqi Government reacts to such a threat. I 
suspect that once American forces depart, these Iranian proxies will 
discover that any reservoir of good will they might have had 
disappeared when the Americans crossed the border. We have seen Maliki 
settle scores with Shiite groups who threatened the central government 
before in early 2008. I would not be surprised to see a reprise.
    As was pointed out at several points during the debate over a 
residual troop presence, Iraq will need Western military trainers--most 
notably for their Navy and fledgling Air Force, but also for U.S. 
ground equipment, such as the M1 tanks and M198 artillery pieces. Not 
only will they require technical advice on the care and use of 
individual pieces, but how to employ them in concert. However, this 
does not require U.S. troops. There are numerous firms that will be 
happy to respond to any request for proposal from the Iraqi Government 
for properly skilled trainers. The market will respond quickly to Iraqi 
petrodollars and the absence of U.S. troops need not be a show 
stopper--it just means the Iraqis pay the bill instead of the U.S. 
taxpayer. As an aside, it would be helpful if the Iraqi defense 
establishment were to request that firms provide not only trainers, but 
also technical solutions that could help with the very real 
vulnerabilities of explosive detection (as opposed to the modified 
divining rods they now use) and the security of their borders.
    Finally, speaking of firms, the departure of military force from 
Iraq should mark the transition not so much to just the State 
Department, but also to America's real strength--the private sector. I 
would suggest that the best way to ensure that America's war in Iraq 
was not in vain is to promote investment by American firms throughout 
Iraq--alongside the already burgeoning Chinese, Turkish, and French 
presence. This is not to minimize some real challenges to doing 
business in Iraq, but this is where America should focus its diplomatic 
effort. It is when Americans and Iraqis interact with each other not as 
adversaries, but as business partners, that we can let the peaceful 
bonds of commerce work to the advantage of both sides. Iraq should not 
be afraid of this engagement. Iraq is blessed with abundant oil 
reserves, perhaps more than we can now identify, but it is a truly 
diversified economy that is in the interests of the Iraqi people. We 
can help the Iraqis generate wealth--and participate in that wealth 
generation. As the Iraqis begin to participate in the Great 
Transformation that a market economy can bring, we can become more 
confident of the long-term health of the democratic institutions that 
are planted, however tenuously, there.
    In summary, I am not trying to paint an overly rosy picture of 
Iraq. There are real challenges, and for many of its people, it remains 
an unpleasant place to live. But the problems that remain do not lend 
themselves to military solutions. I believe the most likely outcome of 
the removal of the U.S. troop presence will be a slow normalization of 
Iraqi politics, as they realize we are no longer present to either 
assist or to take blame. Iranian influence will be a reality--they 
share a border and thousands of years of history--but Iraq will move 
decisively to limit this influence. Iraq will work hard in the coming 
months and years to ramp up oil production.
    I want to see a continuing American influence in Iraq. But I want 
this influence to come via our training of hundreds of Iraqi military 
and police officers in the United States, letting them see how a 
democratic Army behaves within its own borders, and what a real rule of 
law system looks like. I want this influence to come through American 
educational institutions, which should open their doors to Iraqi 
students, aided by liberal (if carefully screened) student visas. I 
want this influence to come via American business, both large and 
small, which helps the Iraqi economy diversity into agriculture, small 
manufacturing, and then into a future which I can't project. All these 
efforts would fit neatly within the boundaries of our existing 
Strategic Framework Agreement with Iraq.
    In short, now that the Saddam regime is gone, and the civil war put 
to rest, the environment is ripe for America's cultural and economic 
institutions to welcome Iraq into the family of nations. Again, the 
Strategic Framework Agreement signed in 2008 between the United States 
and Iraq makes it clear that these exchanges are welcome and in the 
interest of both sides.
    We have sacrificed much blood and treasure in the past 8 years in 
Iraq. While we should leave the final accounting to history, I am sure 
we can all agree that at the very least we have overpaid for the 
outcome in Iraq. But we find ourselves at a surprisingly good outcome 
that we could hardly have predicted in the dark days 5 years ago. 
Again, it is entirely possible that Iraq could still end up very badly. 
The future is deeply contingent. But as our military to military 
relationship with Iraq normalizes with the withdrawal of troops, I feel 
much better about the prospect of a democratic Iraq, that is an ally in 
the fight against terrorism, and that respects the rights of its 
citizens.

    Chairman Levin. Thank you, Dr. Ollivant.
    Dr. Pollack?

STATEMENT OF DR. KENNETH M. POLLACK, DIRECTOR, SABAN CENTER FOR 
         MIDDLE EAST POLICY, THE BROOKINGS INSTITUTION

    Dr. Pollack. Thank you, Chairman Levin. It is an honor to 
be before this distinguished body. I have prepared written 
testimony, Mr. Chairman, that I would ask to be entered into 
the record in full.
    Chairman Levin. It will be made a part of the record.
    Dr. Pollack. I would prefer to give only a summary of my 
remarks for now. Thank you.
    Although I am glad to discuss the totality of U.S. policy 
toward Iraq since the 2003 invasion and even before, I would 
like to focus my remarks on U.S. policy to Iraq looking forward 
beyond the departure of all American troops at the end of this 
year. While I certainly have opinions about American policy in 
the past and even at the present time, I fear that to try to 
begin cataloguing all of the mistakes that the United States 
made both under the Bush and Obama administrations would take 
much longer than the time allocated for the hearings.
    I will say that I believe that the departure of all 
American troops scheduled for the end of this year is premature 
and a mistake, but it is also a reality. I think the most 
constructive thing that we can do is focus on the U.S. 
relationship with Iraq moving forward and how best to secure 
our interests during that timeframe.
    I would really like to make three principle points.
    First, the state of Iraq today is one that is not headed in 
the right direction and therefore could benefit from 
considerably greater American assistance in the future. Iraq 
today is wracked by economic and political problems, and these 
are, unfortunately, beginning to unravel the security gains of 
2007 to 2010. Iraq's political system is deadlocked. What is, 
in effect, a national unity government worked out in late 2010 
has simply brought all of Iraq's political differences into the 
government and, in effect, paralyzed it. There are growing 
signs of potential political fragmentation in Iraq.
    Graft, which had been contracting, has now begun to expand 
again and is even exploding by some accounts. Were it not for 
the graft, I would argue, in fact, that the Iraqi Government 
might not be doing anything at all.
    Iraq's military and civilian bureaucracy has been 
increasingly politicized by the Prime Minister and his staff 
who is replacing anyone not deemed 100 percent loyal to him 
with others who are and often with members of his own family, 
his own party, his own sect.
    Shia death squads have reemerged. They are killing both 
Sunnis and Shia and are enjoying considerable immunity from the 
rule of law. For their part, alienated Sunnis are talking again 
of banding together to resist the government, as they did 
before the Sunni Awakening, and support for Sunni terrorist 
groups is slowly increasing and many Sunnis are even asking if 
they will need to re-arm to protect themselves since the 
government simply will not.
    The second point I would like to make is that it is hard to 
postulate a very optimistic scenario for Iraq's development 
over the course of the next 5 to 10 years, but some of these 
scenarios on offer are dramatically worse than others. The most 
dangerous scenario and the place that it is worth starting with 
is, of course, the possibility of a return to civil war. 
Unfortunately, this may actually be the most likely of Iraq's 
potential scenarios. There is extensive academic work on civil 
wars, and these have found that between one-third and one-half 
of all states that experience a major intercommunal civil war 
experience a resumption of that civil war within 5 years of a 
ceasefire. Iraq was a quintessential example of such a civil 
war between 2005 and 2007, the ceasefire occurring in late 
2008.
    There is also ample evidence that Iraq may be sliding back 
into civil war in textbook fashion. The group in control of the 
government is using it to advance a narrow agenda at the 
expense of its rivals. It is not reaching out to them, making 
hard compromises and demonstrating a desire to put the common 
good above its own self-interests. The group controlling the 
government is purging personnel not members of their own group. 
The group controlling the government is using the powers of the 
government to hurt other groups, to crush their military power 
and is ignoring the violence perpetrated by groups allied to it 
against its rivals. All of this is breeding mistrust, fear, 
anger, and resentment against the group in power, and the 
rivals of the group in power are supporting their own violent 
extremists, discussing secession and whether to re-arm their 
own militias.
    These are all classic indicators of the resumption of civil 
war. They do not mean that Iraq is bound to return to civil 
war. They simply illustrate that Iraq is prone to the same 
problems that have caused other states to return to civil war 
and that we should be very nervous that Iraq will do so in the 
future. In fact, it is easy to imagine dozens of scenarios 
whereby Iraq slides back into civil war. I am struck by the 
fact that when I was last in Iraq over the summer, numerous 
Iraqis were remarking and numerous Americans as well were 
remarking that it felt like 2005 all over again to them.
    It is also worth pointing out, Mr. Chairman, that typically 
civil wars start and resume after a period of time when the 
problems reemerge but seem relatively minor, easily 
controllable, easily addressed. But then in these cases, 
typically something happens that is unexpected but that 
suddenly crystallizes all of the fears, all of the desires for 
revenge and a gradual descent suddenly turns into an 
uncontrollable plummet. Of course, this is exactly what 
happened to Iraq in 2006. Again, what we are seeing now is 
consistent with the same pattern repeating in the future.
    Now, there are a variety of other circumstances, not all of 
which I am going to touch on in detail. Certainly Iraq could 
move back toward a dictatorship. As Dr. Ollivant pointed out, 
this is something that many Iraqis are concerned about. I think 
we can set that one aside for the moment. It is not to dismiss 
it. It is simply to say that I think that it is better for us 
to focus on other issues.
    In addition, I think that there is real potential for Iraq 
to become a failed state in the future. If the government does 
not get its act together, if these calls for greater autonomy 
and even secession gain steam, if the government's centripetal 
efforts are countered more effectively by other centrifugal 
forces, we could see Iraq turn into a failed state, again 
something that is worth thinking about, something that ought to 
guide our own policy toward Iraq moving forward.
    The only set of positive scenarios out there for Iraq is 
one where it muddles through its current impasse and eventually 
begins to muddle upward. After a protracted period of 
stalemate, one could imagine one of three things happening: 
Iraq's leaders realize that they have to make a compromise or 
else face a renewed civil war; a charismatic or altruistic 
leader emerges--or actually both a charismatic and altruistic 
leader would have to emerge, who sweeps the lesser leaders 
aside, brings the Iraqi political system along with them, in 
effect, an Iraqi Mandela; or that the Iraqi people are somehow 
able to impose their will on their political leadership in a 
way that they have not so far, forcing the leadership to act 
responsibly, and forcing them to put Iraq's long-term interests 
in place of their own short-term political calculations. This 
could lead to a situation where Iraq's leaders begin to make 
compromises, small at first but building trust over time, 
allowing more meaningful compromises in the future, which would 
then allow outside powers and businesses to see progress in 
Iraq and begin to invest again and have violence more widely 
discredited.
    I consider this family of scenarios possible, but 
unfortunately the least likely at the present time. There is 
simply no evidence that this is happening or that it will 
happen. It may. We cannot rule it out, but that is not what is 
happening on the ground right now. Iraq's leaders are not 
compromising. They are, unfortunately, adhering to the terrible 
Middle Eastern dictum, ``when I am weak, how can I negotiate, 
and when I am strong, why should I?'' They are all waiting for 
the situation to turn in their favor and digging in their 
heels. There is no sign of an Iraqi Mandela out there.
    What is more, the Iraqi people have been unable to impose 
their will on the government despite their efforts to do so 
both in the 2010 national elections and then again in February 
2011 in the Day of Rage demonstrations, both of which seemed 
momentarily to perhaps have this galvanizing effect but neither 
of which ultimately resulted in such compromises.
    The third point I would like to make and where I would like 
to end my comments is that although American influence has 
declined dramatically in Iraq, both because of the withdrawal 
of American troops and the conduct of that withdrawal, the 
United States still has a certain ability to affect events 
there, and what is more, we could build additional influence in 
the future if we were willing to do so. What is most important 
is to understand that the best way that the United States can 
help this situation in the future is by strengthening Iraq's 
own domestic politics. Nevertheless, that is going to be very 
challenging. The withdrawal of American troops has removed a 
tremendous source of American influence in Iraq, and of course, 
ideally the United States would be willing to make up for that 
diminution with a massive increase in aid of other forms, 
military, diplomatic, economic, et cetera. Unfortunately, I 
live in Washington and my experience of the current budgetary 
and political climate suggests that that massive infusion of 
aid is not likely to be forthcoming.
    What is more, the White House has signaled by its behavior, 
its withdrawal from Iraq and Afghanistan, its willingness to 
take a supporting role in Libya, its inactivity on the Middle 
East peace process, its restraint toward Iran, that it plans to 
scale back its involvement in the Middle East at least over the 
coming year, and certainly that is the perception in Iraq, and 
ultimately the perception is what could further limit our 
influence in Iraq. Nevertheless, there are things that the 
United States can and, I would argue, should do.
    In particular, I would argue that modest amounts of aid 
could be very helpful to Iraq in the near-term and would not 
significantly affect our own fiscal problems. There is a remark 
ascribed to any number of former Senators. I have heard it 
ascribed to a whole variety of different people, including 
Senator Russell, but Senator Symington as well, that a billion 
here, a billion there, and pretty soon you are talking about 
real money. When we are looking at a national debt of $12 
trillion, a billion or 2 for Iraq is an utterly meaningless 
figure from the perspective of our financial situation and 
could be extremely important for Iraq.
    In addition, obviously, as Mr. McGurk, as Dr. Ollivant have 
already suggested, we need to find ways to use our diplomatic 
strength to help Iraq with its diplomatic problems by using our 
know-how to find creative solutions to Iraqi problems where we 
are unable to provide cash or other resources. As Mr. McGurk 
described at great depth--I think he is absolutely right--the 
proper vehicle for renewed American aid or a blossoming of new 
American aid toward Iraq is the SFAs. But there are great 
problems there. We have yet to fill it out. We have yet to make 
Iraqis even aware that it exists. In polls of the Iraqi people, 
we have consistently found that the vast majority of Iraqis are 
unaware of the SFA, let alone the prospect of considerably 
increased American assistance to Iraq in the future or the 
notion of a long-term American program to provide assistance to 
Iraqis in the future. We need to develop that. We cannot simply 
rest on our laurels. We cannot simply wait for the Iraqis to 
come to us and ask us what we are willing to provide. We need 
to aggressively seek out the Iraqis, make clear what is on 
offer to them, and make public so that all Iraqis understand 
what it is that their government is failing to take advantage 
of, what is on offer for them, what they could have if their 
government were willing to do so. We need to make it incumbent 
upon the Iraqi politicians themselves to seek out our 
assistance to make the SFA a reality, to turn it from a 
document on paper to a full-fledged long-term aid program to 
Iraq because the Iraqi people desire it. Once we have done so, 
if we are able to do so, that will provide us considerable new 
leverage and influence with Iraq.
    The last point I would like to make on this--and I believe 
it is particularly relevant because of the particular writ of 
this committee--is the importance of American military aid to 
Iraq moving forward. I will simply say that in light of our 
experience with Egypt over the past year, we should all 
recognize the importance of an ongoing American military 
relationship with Iraq. U.S. military assistance to Iraq and to 
other Middle Eastern countries has proven incredibly important 
not just in terms of developing military-to-military ties, but 
in improving the civil-military relations and even in heading 
off some of the worst foreign policy adventures of these 
different regimes.
    Over the past 30 years, we have found that American 
military assistance has helped move countries in the direction 
of better civil-military relations, something that Iraq 
desperately needs, and has headed off some of the worst 
military ideas of various Middle Eastern regimes. At different 
points in time, the United States has, through its provision of 
military assistance to various Middle Eastern countries, headed 
off wars in the region. There are people who lived who might 
otherwise have died. There are wars and crises that would have 
begun that did not because the United States was able to say to 
our partners in the militaries in the region we do not want you 
to do this and we will not support you if you do so. In a 
number of critical cases, those militaries were forced to 
simply forego their planned operations because they literally 
could not take action without American military support.
    In short, while I see Iraq as being in a very difficult 
place and most of its roads being dark ones, I still believe 
that there is the prospect that Iraq could slowly muddle 
upward, and I believe that American assistance to Iraq is going 
to be absolutely critical if Iraq is to find the right path and 
not descend back into one of the many problematic paths, one of 
many of the disastrous paths that are still open to it.
    Thank you very much.
    [The prepared statement of Dr. Pollack follows:]
             Prepared Statement by Hon. Kenneth M. Pollack
    Mr. Chairman and distinguished Senators, I am honored to be able to 
appear before you to discuss the situation in Iraq and the shape of 
American policy toward Iraq beyond the end of the U.S. military mission 
there in December 2011. It is a great credit to this august committee 
that at a time when the Nation appears to want to forget about our 
mission and our interests in Iraq, you refuse to forget. It is 
absolutely vital. Since 2003, the United States has invested a great 
deal in Iraq, and there is still a reasonable chance that we might see 
real benefit to the blood and treasure we have sunk into that country. 
Of far greater importance, Iraq remains deeply troubled, and retains 
the potential to cause great harm to the rest of the Persian Gulf 
region, with all of the awful consequences that would entail for our 
oil-addicted global economy. Unfortunately, it is a task that will be 
much harder in the future even than it was in the past, when it was 
very, very hard.
    It seems pointless to ask who ``lost'' Iraq. Iraq may not yet be 
lost; although the most likely scenarios for the country seem dark, 
historical events sometimes unfold in ways that defy human prediction. 
If our concern on the other hand, is `what were the worst mistakes that 
the United States made in Iraq and who was responsible for making 
them?' then we have a very daunting challenge ahead of us. Those 
mistakes are almost numberless. They stretch back in time to the months 
before the invasion itself and continue on up to the present day. The 
George W. Bush administration committed any number of catastrophic, 
senseless errors in Iraq. Even at the very end, when they had reversed 
some of the worst of their early mistakes, they were still making new 
ones and compounding other old ones. For its part, the Obama 
administration inherited a very weak hand on Iraq from the Bush 
administration, but then played it very badly as well. The recent 
negotiations over extending an American troop presence--in which the 
administration negotiated with itself more than it negotiated with the 
Iraqis--was only one such example, and it was not the only one. 
Ultimately, the United States never formulated an exit strategy for 
Iraq, we simply exited.
    So much water has passed beneath that bridge that it seems far more 
constructive--and time-efficient--to instead focus on what U.S. policy 
toward Iraq ought to be moving forward. We cannot reverse time and undo 
our many mistakes. We cannot change the past or conjure a new present. 
We can only ask what is possible for America and Iraq in the future.
    Of necessity, any discussion of the future must begin with a stock-
taking of the present. By any objective standard, Iraq remains weak and 
fractious. It is not ready to be without an external peacekeeping 
presence. Its political leadership has not demonstrated anything like 
the maturity that will be required to prevent the country from sliding 
back into civil strife, as has so often been the case historically with 
countries that have experienced the same kinds of tragedies that Iraq 
has over the past decade (or 3). Perhaps they will surprise us all and 
become the selfless, far-sighted and wise leaders that Iraq desperately 
needs. So far, their behavior during the past 2 years as the American 
drawdown from Iraq became ever more tangible, has shown little to be 
sanguine about. Indeed, Iraq's leaders generally continue to hew to the 
worst patterns, those which typically lead to civil war, tyranny or 
state collapse rather than stability, prosperity and democracy.
    Yet be that as it may, that is where we and the Iraqis are headed. 
To a very great extent, Iraq is passing beyond America's influence. The 
administration's recent decisions have made this situation an 
irreversible, if unfortunate, reality. There is no turning back the 
clock, even if Washington suddenly had a change of heart. The decisions 
that have been made are now virtually set in stone. There will not be a 
significant American military presence in Iraq in the future. That 
train has left the station and it cannot be recalled or reboarded at 
some later stop.
    So, the critical question that lies before us unanswered is how can 
the United States protect its interests in Iraq without troops in 
country, without the ability to act as peacekeeper, and without any 
expectation that the administration or Congress will commit significant 
resources to Iraq? That question is critical because Iraq remains 
critical to America's vital interests in the Persian Gulf region, and 
particularly the flow of oil from the region upon which the global 
economy depends. It is especially true in the midst of the great Arab 
Awakening that began this year and has rolled across the Middle East 
bringing hope and fear, progress and violence in equal measures to a 
region that previously seemed utterly moribund--and now seems entirely 
up for grabs. The United States cannot afford to have Iraq turn bad, 
both because of its own intrinsic importance and its ability to poison 
other key Persian Gulf states. However, our ability to steer Iraq away 
from rapids and cataracts has suddenly diminished. In the end, we may 
simply be along for the ride as Iraq's leaders squabble over course and 
speed, but it would be all to the good if we can pick up an oar or grab 
the tiller and help guide Iraq toward safer waters.
                       iraq's persistent problems
    Iraq is still far from sustainable stability, let alone prosperity 
or true pluralism. The state institutions that have evolved since 2003 
remain weak and characterized by political factionalism. Appointments 
to ministries and other state institutions, especially in the economic 
and social services spheres, are driven primarily by the notion of 
``sharing the pie'' of power and patronage, rather than by 
qualification or competence. Ministries themselves remain largely 
political fiefdoms and massive graft machines, with jobs and services 
frequently provided on the basis of ethnic, sectarian, or party 
affiliation. Not surprisingly, politicization of the ranks of the civil 
service has accelerated, in turn diminishing technocratic competence, 
especially as experienced personnel have been culled, either as a 
result of age or perceived links to the former regime. Thus, the 
institutional vacuum created by the U.S.-led invasion and collapse of 
the Iraqi state has still not been properly filled, and Baghdad 
continues to struggle to extend its power and administration throughout 
the provinces.
    Complicating these problems have been two core issues that remain 
unresolved and that threaten stability and the functioning of the Iraqi 
Government: the dispute over federalism and the absence of progress 
toward genuine national reconciliation. While Iraq is defined as a 
Federal state in the 2005 Constitution, serious disagreements remain 
over the extent to which decentralization is mandated, and ultimately 
over where sovereignty lies. This issue does not just divide Arabs from 
Kurds (and Irbil from Baghdad). There is also a lack of common vision 
among Iraq's various Arab constituencies. Some Islamist Shi'i parties, 
such as the Islamic Supreme Council of Iraq (ISCI), have promoted a 
sectarian-based system of regions modeled on the power of the Kurdistan 
Regional Government. ISCI has since backed away significantly from 
these ideas, but some officials in individual provinces, notably al-
Basra and Salah ad-Din (and to a lesser extent Maysan and al-Anbar), 
continue to seek extensive decentralization of power for themselves, 
with some of the same security and economic authority--including over 
hydrocarbon resources and revenue--that Irbil has amassed. Indeed, 
there is still considerable discussion of the three majority-Sunni 
provinces of Anbar, Salah ad-Din and Nineveh forming their own region 
on the Kurdish model, and that Basra might declare itself autonomous. 
On the other side of the equation, a dwindling majority of Iraqi 
Arabs--Sunni and Shi'i--appear to favor preserving Baghdad's 
centralized authority; they see Kurdish efforts, and tentative similar 
moves by various Sunni and Shi'i Arab groups as a serious threat to the 
territorial integrity of Iraq.
    This festering dispute has undermined both governance and 
stability. Until now, the failure to reconcile the rival visions of 
federalism has been papered over through ambiguity--as in the case of 
the Constitution, of subsequent legislation on devolution of power, and 
of the budget. This has blocked the passage of key laws altogether. 
Worse still, Irbil and Baghdad have pursued policies based on their own 
interpretation of their constitutional mandates, widening the gap 
between them and complicating the steps that will need to be taken to 
accommodate their rival visions of the state, not least because of the 
growing mutual mistrust between the two sides. For the Kurds, creating 
what amounts to a confederacy of Kurdish, Sunni, and Shi'i regions 
throughout all of Iraq is viewed as an existential priority to ensure 
that no future government in Baghdad will ever have the power to repeat 
historical abuses and past ethnic cleansing against Kurds. But each 
initiative Irbil takes to facilitate this objective--and to block the 
central government's efforts to restore its former power--raises the 
hackles of Arab politicians in Baghdad who suspect that the Kurds' 
ultimate goal is the dismemberment of Iraq. The Kurds in turn interpret 
what they see as foot-dragging on fully implementing decentralization 
provisions called for in the Constitution as evidence that the mindset 
in Baghdad has not really changed. These mutual concerns and fears have 
driven political leaders there to ever-more hardline reactions, raising 
the risk of local confrontations escalating out of control while 
holding up key national events such as elections and the census.
    The absence of progress toward genuine national reconciliation is 
similarly destabilizing. While Iraqis have embraced representative 
politics wholeheartedly, Iraq's political leadership has refused to 
clarify unambiguously who can participate in government and under what 
terms. In fact, it has often allowed the most radical groups and 
individuals to manage this process and establish the framework for 
determining who is in and who is out. Thus, de-Ba'thification 
procedures have been abused for political gain, especially among 
Islamist Shi'i politicians seeking to protect their gains since 2003. 
Both the process and the institutions that administer it lack full 
legislative underpinnings, and the refusal to draw a line under the 
procedures--or to institute a truth and reconciliation process 
comparable to post-apartheid South Africa's--create political 
disruptions (as was evident in the run up to and after the March 2010 
election). In the longer term, this will be a ticking time bomb if 
Sunni and nationalist constituencies feel that de-Ba'thification is 
being implemented as a way of denying them a legitimate share of power.
    Left unaddressed, the disputes over federalism and national 
reconciliation could unravel the progress toward stability. At the very 
least, they will retard Iraq's ability to become an effective, well-
managed state, dooming it instead to continued muddling-through and 
ineffective governance. As such, resolving the disputes should be a 
priority for Washington. Tensions between Baghdad and Irbil, and 
between the KRG and neighboring Iraqi provinces, have been high for 
some time, with occasional threats of violence. Indeed, U.S. military 
commanders still talk of it as the most vulnerable fault line in Iraq. 
But Baghdad could also face unmanaged challenges from elsewhere in the 
country, as recent regionalism initiatives in Salah ad-Din and al-Basra 
attest. Meanwhile, ambiguity over political participation rights could 
spark violent antipathy among constituencies formerly associated with 
the insurgency in the west and north-west of Iraq. Many of these groups 
remain deeply suspicious of the new regime in Baghdad, and the Islamist 
Shiite that dominate it, suspecting that they will never create the 
space for other constituencies to share political power. For them, the 
specter of periodic purges and exclusion from power under the guise of 
de-Ba'thification will limit the extent to which genuine national 
reconciliation is possible.
    Meanwhile, the inability/unwillingness of Iraq's leadership to 
address Iraq's basic political divisions is beginning to re-ignite 
Iraq's smoldering security problems. Prime Minister Maliki's dependence 
on the Sadrists and Iran (who were the keys to his retaining office) 
has meant that violent Shiite groups such as Asaib Ahl al-Haqq, Khitaib 
Hizballah and the Promise Day Brigades of Muqtada as-Sadr's own Jaysh 
al-Mahdi, have been able to operate with relative impunity. Their 
attacks on U.S. forces are creating a real force protection problem for 
the United States that will persist past the withdrawal of American 
combat troops at the end of this year because Muqtada has already 
announced that the U.S. Embassy still constitutes an occupying force 
that must be resisted just as the troops themselves were.
    Of greater importance still, rising Shiite violence, mistreatment 
of the remaining Sons of Iraq, and the growing sense that the Shiite 
``stole'' the election and are now using their control of the 
government to deprive the Sunni community of its fair share of power 
and economic benefits, appear to be pushing many Sunnis back in the 
direction of fear and violent opposition. The recent arrest of nearly 
600 Sunnis by the government on outlandish claims that they are all 
Ba'thists seeking to overthrow Iraq's current government and return it 
to a Ba'thist dictatorship, coupled with numerous smaller, but similar 
actions, has many Sunnis convinced that Shi'i Islamists intend to use 
their control of the government's security forces to kill and oppress 
Sunnis exactly as they had been doing in 2005-2006 before the U.S. 
surge put an end to ethnic cleansing. Slowly growing support for 
nationalistic Sunni terrorist groups like Jaysh Rijal al-Tariqa al-
Naqshbandia (JRTN, or The Men of the Army of the Naqshbandia Order) is 
a particularly important canary in the coal mine because they represent 
a more nationalist opposition compared to al Qaeda in Iraq, which 
remains largely discredited by its foreign influence and extreme 
religious beliefs. Worse still, many Sunni tribal leaders and mid-level 
officials talk openly about having to take up arms to defend their 
communities from the Shiite terrorists, since the government won't and 
the Americans are leaving.
                    scenarios for the future of iraq
    It is not hard to discern that Iraq today is not headed in a 
positive direction. The government remains utterly paralyzed by the 
country's divisions, and by leaders absolutely unwilling to make 
compromises of any kind to break the logjam. Efforts to fight 
corruption, nepotism, and politicization of the military and 
bureaucracy have been discarded and all of these problems are running 
rampant. Indeed, corruption currently appears to be the only engine of 
government activity. Were there no corruption, the government might not 
be doing anything at all. Violence has re-emerged as a tool of various 
groups--including the governing coalition--seeking to advance their 
political agendas. This in turn is pushing other groups in the 
direction of taking up arms again if only to defend themselves against 
other groups using violence since the government is unwilling to 
apolitically enforce the rule of law.
    Looking forward from this state of affairs, it is possible to 
imagine four broad, plausible directions in which Iraq might move. None 
would be worth celebrating, although some would be much worse than 
others. Evaluating these scenarios is important both as a sobering 
reminder of what is truly plausible as opposed to some rosy fantasies 
we might like to believe, and that might have been possible several 
years ago, but in today's context can only be seen as long-term 
aspirations at best. They also provide a sense of what the United 
States ought to be striving to achieve in Iraq, and what is most 
important to try to prevent.
A New Dictatorship
    Many Iraqis and many observers of Iraq, believe that the most 
likely future for Iraq is a new dictatorship, this time by the Shiite. 
Although Prime Minister Maliki almost certainly is not consciously 
seeking such a position, his approach to Iraq's problems is nonetheless 
taking him that way all the same. Maliki evinces considerable paranoia, 
something entirely understandable from someone who was a member of a 
small, revolutionary party relentlessly chased by Saddam's security 
services for almost 30 years. This makes him prone to see conspiracies, 
especially among Sunnis. He is often impatient with Iraq's democratic 
politics, and he just as frequently acts arbitrarily, extra-
constitutionally, even unconstitutionally to root out a suspected 
conspiracy or overcome political opposition. He is consolidating power 
within Iraq, and even within the Iraqi Government, in a tight circle of 
people around himself. He is purging large numbers of people from other 
parties, groups, sects and ethnicities and rapidly politicizing Iraq's 
relatively professional armed forces.
    From an American perspective, a stable new dictatorship might be 
perfectly acceptable, at least from the perspective of short-term 
American material interests in Iraq. The problem is that any new 
dictatorship is unlikely to be stable and is far more likely to lead to 
civil war. It is worth keeping in mind that Saddam was the only 
dictator Iraq new who could rival a Mubarak or a Hafez al-Asad in terms 
of relative stability (and that is a very relative statement). It 
required near-genocidal levels of violence to do so. Even Saddam had to 
fight frequent revolts by the Kurds and, in 1991, by elements of the 
Shi'i community. In Iraq's present circumstances, however, any bid for 
a new dictatorship, whether consciously or absent-mindedly, would be 
more likely to produce civil war than a return to centralized 
autocracy. Whether it is Maliki or another would-be strong man, any 
effort by someone (probably a Shi'ah) to make himself dictator of Iraq 
would doubtless provoke various political and ethno-sectarian rivals to 
take up arms to prevent his consolidation of power. The government and 
military would most likely fragment (a la Lebanon) and the result would 
be far more likely to be a civil war, not a stable tyranny.
    In addition, if Maliki, or another Shiite were to emerge as a new 
dictator, he would inevitably be pushed into Iran's arms. A Shiite 
dictator of Iraq would axiomatically be rejected and ostracized by the 
majority Sunni states of the Arab world. The only ally he would have 
would be Iran--and perhaps Syria, if the Asads can hold power (and 
indeed, Maliki's Government has come out publicly in support of the 
Asad regime in Syria's own civil war). Moreover, a Shi'i dictator would 
face tremendous opposition from Iraq's Sunni community, particularly 
the tribes of Anbar, Salah ad-Din and Ninevah, all of whom would be 
supported by the Sunni regimes. Again, an Iraqi Shiite dictator's only 
source of succor would be Iran.
Renewed Civil War
    Historically, this may actually be Iraq's most likely future. 
Although academic studies of intercommunal civil war show some 
variance, a considerable body of work--including the best and most 
recent studies--indicate that states that have undergone one such round 
of conflict (as Iraq did in 2005-2007) have anywhere from a 1-in-3 to a 
1-in-2 likelihood of sliding back into civil war within about 5 years 
of a ceasefire (which in Iraq came in 2008).\1\ Since the U.S. invasion 
in 2003, Iraq has followed the quintessential pattern for how states 
descend into civil war, how they emerge from it, and now how they fall 
back into it. Everything that is going on in Iraq today as American 
peacekeepers prepare to leave--the resumption of violence, the rapid 
deterioration of trust, the expectation that things are going to get 
more violent and corrupt, the unwillingness of leaders to compromise, 
the determination of actors across the spectrum to take short-sighted 
actions to protect themselves at the expense of others' trust and 
security--shows that Iraq continues to hew closely to these awful 
patterns.
---------------------------------------------------------------------------
    \1\ On the proclivity of civil wars to recur, see Paul Collier, 
Lani Elliott, Havard Hegre, Anke Hoeffler, Marta Reynal-Querol, and 
Nicholas Sambanis, Breaking the Conflict Trap: Civil War and 
Development Policy, The World Bank and Oxford University Press, 
Washington, DC, 2003, available at http://homepage.mac.com/stazon/
apartheid/files/BreakingConflict.pdf, p. 83; James D. Fearon, ``Why Do 
Some Civil Wars Last So Much Longer than Others?'' Journal of Peace 
Research, vol. 41, no. 3 (May 2004); Donald L. Horowitz, The Deadly 
Ethnic Riot (Berkley: University of California Press, 2001); Stathis N. 
Kalyvas, The Logic of Violence in Civil War (Cambridge: Cambridge 
University Press, 2006); T. David Mason, ``Sustaining the Peace After 
Civil War,'' The Strategic Studies Institute, U.S. Army War College, 
Carlisle, PA, December 2007; Barbara Walter and Jack Snyder, eds., 
Civil Wars, Insecurity, and Intervention (New York: Columbia University 
Press, 1999); Barbara Walter, ``Does Conflict Beget Conflict? 
Explaining Recurring Civil War,'' Journal of Peace Research 41, no. 3 
(May 2004): 371-388.
---------------------------------------------------------------------------
    Civil war in Iraq would be disastrous for the United States for a 
variety of reasons. It could affect Iraq's own oil production, and 
spillover from an Iraqi civil war could produce civil war in any of 
Iraq's neighbors--including, most importantly, Saudi Arabia--or a 
regional war over the carcass of Iraq that might also affect oil prices 
or even oil production itself. Moreover in the short term, Iran would 
likely find itself able to dominate significant areas of Iraq by 
backing Shiite militias in the fighting--militias that would have no 
one to turn to except Iran, as was the case in 2005-2007.
A Failing State
    Another plausible outcome of Iraq's current state of affairs would 
be a weak, fragmented, or even a failed state. The central government 
has a certain amount of power, but it is not efficient and Iraq's 
provinces have a certain ability to resist. Moreover, as Maliki 
attempts to centralize power, so other groups are pushing in the 
opposite direction. Thus, while one set of scenarios would have to 
envision Maliki (or some other Shiite leader) prevailing in this 
contest and establishing a new dictatorship, so another set of 
scenarios would have to imagine him failing because the provinces/
regions/ethno-sectarian communities were successfully able to resist 
and to pull away from the central government. Indeed, Salah ad-Din 
province recently declared its autonomy, and there is widespread talk 
of Anbar and Nineveh joining it in a Sunni region akin to the Kurdistan 
Regional Government. Likewise, numerous groups and influential figures 
in oil-rich Basra are talking about doing the same. If they were to 
succeed, they would cripple the Iraqi central government. Because Iraq 
actually requires a fair degree of integration for economic reasons, 
such a centrifugal trend would likely result in an across the board 
breakdown in public services, economic affairs and security. Local 
groups (militias, but likely operating in the name of provincial 
governments) would fill the vacuums as best they could, but their 
efforts would be uneven at best, and at worst--and probably far more 
likely--would be corrupt, incompetent and prone to violence. Iraq might 
not quite look like Somalia, but it could end up bearing more than a 
passing resemblance to it, with all of the terrible implications for 
terrorism and instability in the wider region that implies.
Muddling Through, Perhaps Ultimately Upward
    The only plausible, positive (in a purely relative sense) scenarios 
that one can imagine for Iraq given its current state of affairs are 
ones that envision long, painful processes during which Iraq does not 
fall apart or fall into dictatorship, but not much positive happens 
either for some period of time. Then, at some point in the future, 
either because Iraqi voters are somehow able to bend Iraq's politicians 
to their will in a way that they could not in 2010, or because a 
charismatic and altruistic leader emerges who galvanizes the Iraqi 
polity, things begin to move in the right direction. Leaders begin to 
make compromises, small at first, but growing as they build trust in 
one another and reap the benefits of cooperation. Outside powers and 
businesses see progress in Iraq and begin to invest again, creating an 
economic stake for everyone in continued cooperation and progress. 
Violence is discredited. Eventually, this could produce a strong, self-
confident, truly democratic Iraq that would have the strength and 
confidence to limit Iranian influence to what is customary among 
neighboring states.
    Such scenarios are not impossible, but at present they also seem 
quite unlikely. There simply is no evidence in contemporary Iraq that 
would suggest that this is happening or could happen soon. The macro 
trends in politics, security and the economy are all negative, and 
while there are certainly some positive trends at a more micro level, 
these are all almost certain to be swamped if those macro trends 
continue to move in the wrong direction. When one looks at what is 
happening in Iraq today, it is very hard to find evidence to make a 
compelling case that Iraq is likely to muddle through its current 
problems, find a way to unlock its paralyzed political process, and 
begin to replace its vicious cycle with a benevolent one.
            american priorities and iraqi domestic politics
    The most likely scenarios for Iraq are dark ones, but some are much 
blacker than others, and the United States must make every effort to 
help Iraq avoid the worst and achieve the best, even if that best is a 
far cry from what might once have been imaginable.
    As those scenarios also make clear, Iraqi domestic politics has 
become the center of gravity of the American effort toward Iraq. The 
future of Iraq, and American interests there, will be principally 
determined by the course of its domestic politics, and that in turn 
will determine whether America's vital interests there are safeguarded. 
Security in Iraq has improved significantly, but it will only hold over 
the long term if Iraqi politics sorts itself out and is able to provide 
for the people, govern the country, and resolve its internal 
antagonisms. If Iraq's domestic political framework collapses, so too 
will the country's security. Iraq's economy continues to sputter along 
and it will only improve when there is a government in Baghdad able to 
govern effectively, harness Iraq's oil wealth, and use the proceeds to 
redevelop the entire country. Moreover, if there is going to be an 
economic collapse in Iraq, it will almost certainly come from some 
failure of Iraq's domestic politics (like mismanaging the oil sector). 
In other words, while a civil war might technically be the result of a 
deterioration in the security situation or an economic meltdown, in 
actuality the many things that could give rise to such situations now 
lie largely, if not entirely, in the realm of politics.
    Because Iraq's domestic politics is the key to the future stability 
or instability of the country, and because it remains so fraught, it 
must be the principal American focus moving forward. Consequently, the 
absolute highest priority for the United States for the next several 
years must be to see Iraq's domestic politics work out right. That 
means ensuring some degree of respect for democracy, transparency, and 
the rule of law; some development of bureaucratic capacity; no coups 
d'etat; no dictators; some movement toward reconciliation among the 
various ethno-sectarian groupings, as well as within them; a reasonable 
delineation of center-periphery relations including a workable 
agreement over the nature of federalism; and an equitable management 
and distribution of Iraq's oil wealth.
    The problem is that domestic politics may well prove to be the area 
where Iraq's political leadership are least desirous of an American 
role. Iraq's political leaders have a less than stellar record of 
playing by the rules of democracy and enforcing the rule of law. 
Especially when they are in positions of authority, there has been a 
dangerous tendency to skirt, avoid, or flat-out ignore the Constitution 
in both letter and spirit. Iraq's political leadership tends to be 
dominated by former warlords, clerics, tribal shaykhs, and expatriates, 
few of whom have experience with democratic processes and even fewer of 
whom seem to understand that respect for the Constitution establishes 
precedents and norms that will constrain their rivals just as it 
constrains their own behavior--and that that may someday be very 
important to them. Most struggle to find ways to play Iraqi politics 
the old-fashioned way and only grudgingly obey the rules when they 
must.
    Since 2003, the United States has provided the ultimate insurance 
that no group will be able to completely overturn the system and 
dominate others. This is a U.S. role that many Iraqis continue to 
regard as at least a necessary evil if not a positive good. Most Iraqis 
want greater democratization, even if they don't always use the word. 
They want to see their new political system succeed and their leaders 
forced to deliver goods and services for them, rather than vice versa, 
which has too often been the case in Iraq. They want more transparency 
and more accountability and blame corruption for the dismal state of 
service delivery in the country. They want governmental institutions 
they can rely on and political parties that represent their interests 
rather than someone else's. They want all of the things that the United 
States wants.
    Iraq's leaders recognize this as well and they fear the residual 
influence of the United States will force them to deliver. It is why 
those out of power regularly call on the United States to ``play a more 
active role'' in Iraqi politics, and why those in power often chafe at 
American interference in Iraqi politics. It is why Iraqi leaders in 
power call on the United States to stand aside and allow the Iraqis to 
solve their own problems, especially when those leaders are acting in 
an extra-constitutional or even entirely unconstitutional fashion.
    Thus, it is important for both the future of Iraq and for America's 
vital interests that the United States focus its energy and resources 
on Iraq's domestic politics. Yet, domestic politics is also the arena 
in which Iraq's political leaders, particularly those in power, will be 
most determined to exclude the United States. For that reason, the 
United States must be prepared to subordinate virtually every other 
aspect of its Iraq policy by making major sacrifices in areas 
previously held sacrosanct, to maximize its ability to influence Iraq's 
domestic politics. It is why virtually every other element of the U.S.-
Iraq relationship needs to be seen as leverage to get the Iraqis to do 
the necessary in the one area of greatest importance to us (and to 
their own long-term best interests as well). For this reason, the 
political arena should be the one where America applies conditionality 
most clinically.
    As important as Iraq's domestic politics are to American interests, 
it is critical that the United States recognize its own limitations. 
The United States can shape Iraqi politics, but shape is all it can do. 
The United States cannot dictate to the Iraqis anymore. Especially 
between 2003 and 2006, Americans often drew up virtual blueprints for 
the Iraqis and then demanded that they adopt the U.S. project in toto. 
Those days are gone. In fact, much of the success that the United 
States enjoyed in 2007-2010 has been a result of new American political 
and military leaders who recognized this reality and were far more 
solicitous of Iraqi views. It is that practice that must continue and 
even expand in the face of the diminishing American role in Iraq and 
the re-emergence of Iraqi sovereignty and nationalism.
                        devising new instruments
    Frederick the Great once said that diplomacy without arms is like 
music without instruments. Perhaps nowhere is that more true today than 
for American policy in Iraq. The end of the American military presence, 
the dramatic reduction in American aid to Iraq, and the increasing 
influence of Iran in Iraq all mean that the United States has 
dramatically fewer assets to call upon to advance its Iraq policy than 
it had even a year ago. Consequently, one of the most important tasks 
for the United States as it attempts to maintain some influence in Iraq 
is to forge new instruments that will provide us with new leverage to 
replace what we have lost.
    The most important source of American influence moving forward is 
conditionality. Virtually all American assistance to Iraq should be 
conditioned on Iraqis doing the things that the United States needs 
them to do, which in every case is likely to be something that is in 
the long-term interests of the Iraqi people and the Iraqi nation, 
albeit not necessarily in the short-term interests of various Iraqi 
politicians. Conditioning assistance means linking specific aspects of 
American activities to specific, related aspects of Iraqi behavior. It 
also means tying wider aspects of American cooperation with Iraq to the 
general course of the Iraqi political system. Ultimately, the United 
States must condition the continuation of the U.S.-Iraqi relationship 
on the willingness of the Iraqi political leadership to guide their 
country in the direction of greater stability, inclusivity and 
effective governance.
    The future of Iraq will be determined principally by the course of 
its domestic politics, and that in turn will determine whether 
America's vital interests there are safeguarded. Security in Iraq has 
improved significantly, but it is already fraying and it will only hold 
over the long term if Iraqi politics sorts itself out. If Iraq's 
domestic political framework collapses, so too will its security. 
Iraq's economy continues to sputter along and it will only improve when 
there is a government in Baghdad able to govern effectively. If the 
Iraqi economy collapses, it will almost certainly stem from a failure 
of Iraq's domestic politics.
                   the strategic framework agreement
    There are still literally hundreds of things that the United States 
is doing for Iraq. The United States still provides some critical 
economic and political assistance from capacity building in Iraq's 
Federal and local government institutions, to micro-loans, to military 
equipment, to technical expertise. It is why so many Iraqi governors 
and mayors are despondent that they are losing the American Provincial 
Reconstruction Teams.
    Ultimately, the greatest source of American influence in Iraq 
moving forward is likely to be the provision of additional assistance 
in a vast range of different areas--from military operations and 
weapons sales, to capacity building, education, almost every aspect of 
economic reform, and a slew of major diplomatic matters. The foundation 
for this future cooperation is a little-known but critically important 
document known as the Strategic Framework Agreement (SFA), which the 
United States and Iraq signed in late 2008 at the same time that they 
also signed the Security Agreement (SA) governing the continued 
presence of American troops in Iraq until December 31, 2011.\2\ It is 
important not to make too much of the SFA. It is nothing but a 
framework; an empty shell for the United States and Iraq to flesh out 
as they see fit over the years. There is little more than general 
exhortations regarding the broad types of aid that could be provided, 
without any specification of time, dates, quantities, or other details.
---------------------------------------------------------------------------
    \2\ The Security Agreement (SA) is often erroneously referred to as 
a ``status of forces agreement (SOFA).'' The SA serves a similar 
purpose, but the Iraqis specifically objected to naming it a ``SOFA'' 
because of the negative connotations associations with that term in 
Middle Eastern, particularly Iranian, history.
---------------------------------------------------------------------------
    Nevertheless, whereas the SA tended to be controversial in Iraqi 
politics because it governed the presence of American troops, the SFA 
is much less so because Iraqis desire continued American aid, 
investment and assistance in many areas of public life. In fact, it was 
the Iraqi Government that proposed the SFA as a way of demonstrating 
that the bilateral relationship was no longer to be defined principally 
by security issues. The SFA also seeks U.S. diplomatic assistance in 
helping Iraq regain the international standing it had prior to Saddam 
Husayn's disastrous invasion of Kuwait in 1990.
    Even Iraqis who would like to see every American soldier gone from 
the country often favor the aid and assistance encompassed by the SFA. 
Thus, the SFA and the potential for continuing American aid to Iraq 
across the board and well into the future is a powerful source of 
leverage for the United States. At bottom, anything that the Iraqis 
want is a source leverage for the United States, especially if it is 
not something that the United States needs for its own, independent 
interests.
    The central challenge will be reconciling U.S. and Iraqi 
expectations for the SFA and finding creative ways to use it to pursue 
these critical aims in an era of sharply declining resources. The 
United States will need to be upfront with the Iraqi Government that 
the SFA does not represent a new Marshall Plan for Iraq and that it 
will only be making relatively limited additional financial 
contributions to Iraq's reconstruction. This will doubtless be a major 
disappointment for many Iraqis who imagine still more largesse flowing 
their way from the U.S. Treasury. To mitigate this disappointment and 
to make the American contribution to the SFA desirable to Iraqis, the 
United States will have to think creatively about how to provide 
valuable assistance without the need for large-scale American 
financing. Moreover, as Iraq's oil revenues increase over time, Iraq 
should be able to pay for more of its reconstruction needs. Therefore, 
the real value added from the American side will be insight and advice 
on how best to employ those resources rather than adding in more 
resources--something that neither the administration nor Congress has 
any interest in providing.
    Consequently, the United States should focus the assistance it 
provides to Iraq under the rubric of the SFA primarily on capacity 
building by providing technical advice, consulting services, and 
technology and knowledge transfers to key areas of the Iraqi economy. 
The United States must now consider both how it can be most effective 
in this role and how it can maintain the leverage to encourage Iraqis 
to build a transparent and accountable government when America is no 
longer putting up large amounts of its own money for projects.
    There are, fortunately, a number of areas of the Iraqi economy both 
inside and outside the SFA where the United States can deliver tangible 
added value at a relatively low financial cost. These include:

        <bullet> International engagement and mediation on issues such 
        as Iraq's Chapter VII UN obligations, including annual 
        reparations to Kuwait and disputes over the Iraq-Kuwait 
        maritime boundary (which have the potential to hamper Iraq's 
        primary oil export route through the Persian Gulf), dialogue 
        with Iraq's northern neighbors, especially Turkey, on regional 
        water-sharing agreements, and the protection of Iraq's oil 
        revenues from legal claims relating to actions of the former 
        regime, something that if left unaddressed could hamper long-
        term investment in the oil and gas sector;
        <bullet> Formation of a joint economic commission under the 
        SFA, which, when requested by Iraqis, could serve as a central 
        oversight body to coordinate, monitor, and provide technical 
        expertise for reconstruction and capital investment projects 
        initiated with Iraqi funds;
        <bullet> Technical advice, knowledge sharing, and technology 
        transfer to vital areas of the Iraqi economy and society such 
        as improved domestic water efficiency and management and 
        agricultural development and productivity;
        <bullet> Finding ways to continue to assist Iraq's provincial 
        governments, even after the shutting down of U.S.-led 
        Provincial Reconstruction Teams (PRTs), in obtaining the 
        release of their annual investment budget allocations from 
        national authorities; and
        <bullet> Legislative actions to create a business environment 
        that encourages Western business investments.

    The United States should make it clear that assistance of this type 
is contingent upon Iraqi authorities at both the national and 
provincial level taking specific steps to put in place transparency, 
oversight, and accountability mechanisms aimed at mitigating the 
corrupting and insulating effects of Iraq's oil economy. Fortunately, 
and not by coincidence, these actions are all fully consistent with the 
goals of the Iraqi National Development Plan to halve unemployment, 
promote rural development, increase environmental protection, reform 
administrative systems, and support decentralization. They would also 
be of substantial financial and even political benefit to Iraq's new 
government and generally should not be provided until it demonstrates 
the willingness to take the hard steps to enable a greater portion of 
Iraq's oil wealth is turned into investments that fuel service 
delivery, economic growth, and broader political legitimacy. This must 
ultimately be the overriding objective of all U.S. economic and 
governance assistance to Iraq.
                          security assistance
    The withdrawal of U.S. military forces from Iraq by the end of this 
year should not be the end of U.S. security assistance to Iraq. The 
Iraqis still need help in this area, making it another critical area of 
potential American leverage. Moreover, American security assistance to 
Iraq can also play an outsized role in helping to safeguard a number of 
key American interests in Iraq and the wider Persian Gulf region.
Protecting Iraq from Regional Threats
    On January 1, 2012, when all American troops have departed, Iraq's 
military forces will be unable to defend the country's land or maritime 
borders or control and protect Iraq's airspace. That fact poses two 
dangers to America's interests in preventing the emergence of an 
aggressive Iraq and desiring Iraq to retain a pro-American alignment. 
First, it may encourage Iraq's neighbors to take advantage of Iraq's 
weakness and second, it may encourage Iraqi leaders to try to build 
their own military forces to a level that is itself destabilizing. Both 
Iraq and its neighbors have historical reason to be concerned.
    Iraq has been at war with its neighbors, the international 
community, and itself for over 50 years. Even before Saddam Husayn's 
congenitally aggressive approach to foreign policy, Iraq had been an 
enthusiastic participant in several of the Arab-Israeli wars, 
threatened Kuwait with invasion, nearly come to blows with Turkey and 
Syria over water and the Kurds, and generally been a net liability for 
regional security.
    Of course, Iraq's neighbors have not been passive either and their 
actions continue to anger and frighten Iraqis. Turkey has regularly 
sent military forces into Iraq to hunt Turkish Kurds or punish Iraqi 
Kurds. Syria, Turkey, and Iran manipulate the flow of water to Iraq in 
ways that imperil Iraqi agriculture, energy production, and even oil 
exports. Saudi Arabia and Syria have looked the other way when Salafi 
terrorists have crossed their territory to get to Iraq. In addition to 
the decades of past strife (including the horrific Iran-Iraq war), even 
while American military forces have been present in great force in 
Iraq, the Iranian military has violated Iraqi sovereignty on a number 
of occasions, shelling Iraqi Kurdistan, seizing an oil well on Iraqi 
territory, and overflying Iraqi airspace.
    In all of these post-Saddam cases, the Iraqi response so far has 
been moderate and muted. The presence of American troops and aircraft 
in Iraq undoubtedly contributed greatly to this moderation--Iraqi 
leaders preoccupied with internal problems were confident that U.S. 
forces would not permit any large-scale or protracted foreign 
adventurism in their territory and so didn't feel a need to respond 
aggressively. In the absence of such a de facto American guarantee of 
Iraqi state sovereignty, these trespasses could well have triggered 
exaggerated responses either in the form of conflict on the ground or 
of attempts to develop conventional military forces capable of 
repelling the attacks and punishing the perpetrators.
    In concrete terms, in the absence of American forces, a fragile 
Iraqi Government might well feel the need to respond forcefully to 
similar incursions. This has been the tradition in the Middle East, 
even though it has led to several of the region's most disastrous wars. 
Many Iraqi military leaders already harbor a disturbing attachment to 
the Iraqi military of the late 1980s--the Iraqi military that smashed 
Iran's ground forces and won the Iran-Iraq war. That is the same Iraqi 
military that threatened Syria and Israel and eventually overran 
Kuwait. Without an American military presence to reassure them, Iraq's 
political leaders might feel pressure to demonstrate to the Iraqi 
people that they can defend themselves. Any attempt to develop armored 
forces, missile forces, or attack aviation that looked like an effort 
to rebuild Saddam's army would set off alarm bells throughout the 
region, possibly stoking a regional arms race.
    Consequently, maintaining American military forces nearby Iraq and 
developing a program of regular military exercises that brought 
American combat formations to Iraq frequently, would both be of 
considerable utility. Indeed, the United States should eagerly accept 
any Iraqi overture that signaled an interest in something like the 
``Intrinsic Action'' exercise program that the United States devised 
with Kuwait in the 1990s. Under that program, a U.S. battalion task 
force was continuously present in Kuwait, although no unit was 
permanently based there.
Conducting Counterterrorism Operations
    Assistance with Iraqi counterterrorism operations falls into a 
similar category. The Iraqis may want American assistance, and if so, 
that creates leverage. Likewise, it may be useful for the United States 
to continue to assist Iraq's own CT efforts both as a means of keeping 
AQI and other Salafist terrorist groups in check and as a way of 
maintaining some oversight of how the Iraqi Government employs its 
elite counterterror formations. Iraq's highly-trained CT units would be 
perfect for the Iraqi leadership to employ either as part of a coup, or 
merely to round up rivals (and brand them terrorists, of course).
    Al Qaeda in Iraq (AQI) no longer poses an existential threat to 
Iraq's political stability, but it could serve as a dangerous catalyst 
that could help push Iraq in the direction of some of the worst 
scenarios, including renewed civil war. It does not currently pose a 
significant threat to American interests outside Iraq, but it is still 
integrated into the regional al Qaeda network whose affiliates have 
attacked or have declared their intention to attack the United States 
(including al Qaeda in the Arabian Peninsula and in Yemen, and al-
Shabaab in Somalia). AQI is severely weakened, and it is attempting to 
regain its footing, but whether it is able to do so will be determined 
as much if not more so by the course of Iraqi politics than by the 
successes or failures of the Iraqi Security Forces (ISF).
American Arms Sales to Iraq
    It is critical that the United States be willing to provide Iraq 
with major arms purchases. Ideally, the United States should furnish 
every aspect of Iraqi military equipment, from mess kits to main battle 
tanks and everything in between. As long as Iraq desires them (which it 
currently does) and can afford them (which it eventually will), such 
arms sales, when provided by the United States, could be inherently 
stabilizing if managed effectively and in tandem with political reform 
in Baghdad; it could also help stabilize the region by preventing the 
emergence of an aggressive Iraq that would pose a threat to its 
neighbors. In addition, arms sales represent yet another source of 
influence with the Iraqi leadership since they are items Baghdad 
greatly desires. Consequently, these sales should be considered from a 
strategic perspective, not a commercial one and from that perspective, 
they are not just desirable but critical. Indeed, one of the most 
important lessons of the Arab Spring and Mubarak's fall has been the 
tremendous utility American arms sales can have in the Middle East.
    As with all American interactions toward Iraq in future, however, 
Washington's critical consideration when weighing arms sales to Iraq 
must be their impact on Iraq's domestic politics. Again, such sales can 
be extremely helpful in this area, as I discuss below. However, they 
can also be destabilizing if mishandled. Moreover, they too represent a 
critical element of American leverage with Iraq. In particular, 
American arms sales to Iraq should be conditioned on continuing 
improvement (or at least no significant deterioration) in Iraq's civil-
military relations. The Iraqi military should understand that 
Washington's willingness to provide the arms they so desperately want 
will be possible only to the extent that the ISF stays in its lane and 
stays out of politics. So too should the government understand that 
American arms sales--among other things--will be jeopardized by efforts 
to politicize the ISF. Finally, because the KRG is terrified that the 
central government will imagine it has a military ``solution'' to their 
dispute once the ISF is armed with American tanks and fighter-bombers, 
Washington must lay down clear red lines to both sides regarding what 
is permissible. Furthermore, the United States should extract 
guarantees from the government that it will not invade the Kurdistan 
region, except perhaps in the highly unlikely event that the Kurds use 
their own forces to attack other parts of Iraq.
    The more that the United States remains Iraq's paramount military 
partner, the less likely (or even able) the Iraqi armed forces will be 
to threaten neighboring states. The modern military history of the Arab 
states makes clear that Arab allies of the United States become 
completely dependent on the United States and lose the capacity to 
project power without American support (and therefore approval).\3\ 
Today, Jordan, Egypt, and all of the Gulf Cooperation Council (GCC) 
states coordinate all of their major, external military activities with 
the United States. They rarely try to project power beyond their 
borders because they are effectively unable to do so without American 
support; a situation deepened by their tendency to buy weapons 
platforms at the expense of logistics and other support functions. 
Moreover, on a number of occasions, Washington has been able to prevent 
its Middle Eastern allies from launching military operations because of 
these countries' dependence on the United States. Such was not the 
experience of Arab states who relied on the Soviet Union, China, or 
other countries for their military support, and today there is little 
to suggest that Russia, China, or any other country would even try to 
use their arms sales to head off a war.
---------------------------------------------------------------------------
    \3\ See, Kenneth M. Pollack, Arabs at War: Military Effectiveness, 
1948-1991 (Lincoln, NE: University of Nebraska Press, 2002).
---------------------------------------------------------------------------
    For this reason, Washington should welcome Iraq's desire to develop 
a long-term military-to-military relationship and buy American 
weaponry. Iraq's generals would like to return to the glory days of 
1988-90, but one thing that they do not want to recreate, if they can 
avoid it, is their reliance on Soviet military hardware. Iraqis have 
long recognized that Western (particularly American) weaponry is 
superior, and as such, they have coveted it. Since the fall of Saddam 
and the Iraqi military's subsequent exposure to the U.S. military, that 
desire has only grown. It should also be noted that there is not any 
perception on the part of Iraqi generals and their political 
counterparts that the United States is forcing them to buy American 
materiel as payback for America's efforts in rebuilding the country. 
Rather, the Iraqis want American equipment. By the same token, they are 
quick to point out that if the United States won't sell them what they 
want, they will go elsewhere and with their oil money, they will find 
Russian, Chinese, European, or other sellers.
    For their part, GCC rulers also want to see a close military-to-
military relationship continue between the United States and Iraq, 
coupled with large-scale arms sales. More than anyone else, the GCC 
states recognize that reliance on American arms and American training 
and assistance makes their militaries dependent on the United States 
for logistical support, intelligence, command and control, and a 
variety of other requirements. GCC officials say quite openly, albeit 
only in private, that an extensive Iraqi-American arms and security 
relationship is the best insurance they can get that Iraq will never 
threaten their countries with its conventional might again.
    Moreover, refusing Iraq one of the most important benefits that 
many other American partners and allies receive will seriously 
undermine America's ability to influence Iraq in the future. Excluding 
Iraq from the key security benefits that so many other U.S. allies 
receive is as clear a statement as America could possibly make that it 
does not regard Iraq as a partner, let alone an ally, and that Iraq is 
outside America's sphere of interest. The White House will have no 
basis to complain when Iraq's leaders make strategic calculations to 
America's disadvantage if the United States has thus explicitly 
communicated its lack of interest in Iraq's security and, in fact, its 
belief in Iraq's fundamental unimportance to American security 
interests.
    The one important caveat to this overarching point is cost. Iraq 
may someday be a very rich country thanks to its oil reserves, which 
only seem to grow by the day. Today, however, Iraq is a very poor 
country, with a gross domestic product per capita of only $3,800 
(ranking it 159th in the world) and massive budgetary needs compared to 
the revenues available. Even politically, Iraq's people seem far more 
interested in investing in their economy than in fancy new weapons. 
Consequently, the U.S. interest in preventing domestic political 
problems means keeping Iraqi military spending from bankrupting the 
country.
    It is worth pointing out that this is yet another reason for the 
United States to aggressively seek to be Iraq's primary arms supplier. 
Simply put, no other country is likely to care about Iraq's finances 
the way that the United States does. Iraq's leadership is determined to 
buy these big-ticket weapons systems, and they have repeatedly stated 
that they would buy them from Europe, Russia or China if they cannot 
get them from the United States. Certainly Russia and China would not 
care whether Iraq is spending too much on their arms, and European 
nations may only to the extent that the United States pressures them. 
Only Washington will urge Iraq to spend less, work with Iraq to spread 
out its arms purchases over longer stretches of time, and otherwise 
ensure that defense spending does not come at the cost of financial 
stability.
                            uncharted waters
    If, as seems likely, Iraq gets worse before it gets better, there 
will be an inevitable American tendency to want to forget it 
altogether. Already, the American people are turning away from it as 
quickly as they can, as if to put a bad memory behind them. But Iraq is 
not the modern equivalent of Vietnam, where we could decide that we had 
made a mistake to ever be involved and simply end our engagement with 
no real harm to our interests. Until the global economy kicks its 
dangerous addiction to oil, Iraq will matter a great deal to us and to 
our trading partners.
    It is for this reason that the future seems so fretful to Americans 
who dare to buck the tide and remember our vital national interests in 
Iraq. Iraq is about to undergo a major transition and there is little 
to suggest it is ready for it--or at least, ready to handle it well. 
But that transition will take place now whether we want it to or not. 
If we are willing to make some investment of time, of energy and even 
some resources, there is still reason to believe that we can continue 
to provide some much needed support for Iraq in finding the right path.
    For that reason, it is worth ending on the topic of resources. 
Facing record debt, painful unemployment, and the need to address 
structural problems in our economy, there is no question that the 
United States must make a major effort to get its own house in order. 
At a time when the American public--and the long-term welfare of the 
Nation--cry out for massive cuts in government spending it is hard to 
justify spending on aid to foreign lands, especially lands like Iraq, 
that have come to be associated with painful memory. However, this 
would be the worst thing that we could do. No one could suggest 
spending tens of billions, let alone hundreds of billions, of dollars 
on Iraq any more. But a few billions of dollars could have a dramatic 
impact on a country like Iraq (or Egypt, for that matter) and would 
have no impact at all on America's financial circumstances. Saving a 
few billion dollars on Iraq is meaningless when the national debt has 
reached $12 trillion. It is a way that we are often penny wise and 
pound foolish.
    Dealing with our fiscal problems is going to mean tackling the core 
financial problems facing the United States: entitlements, revenues, 
taxes and welfare. Foreign aid is a few pebbles at the foot of a 
mountain. Eliminating it will do nothing to significantly address the 
problems, except to create new problems for America overseas. Then, 
inevitably, those problems will fester and expand and at some later 
date they will come to plague. Then, it will require vast expenditures 
to beat back the problem and we will wish that we had not nickel and 
dimed the problem back when it was manageable.
    Such is the case with Iraq. There is still reason to believe that 
the country can be salvaged, and real reason to believe that American 
assistance could be crucial to its course. Now is not the time to shave 
slivers off the deficit heedless of the problems we could be creating 
for ourselves in the years ahead.

    Chairman Levin. Thank you very much, Dr. Pollack.
    This is where we are at because of these two votes that 
intervened here. We never know when those votes happen, as I 
think our witnesses know. What we are going to do to try to 
make available more information to colleagues--number one, we 
obviously all have your statements and they will be made part 
of the record. But more importantly perhaps, since that is 
already accomplished, we will keep the record open for a 
reasonable period of time so that the questions which would 
have been asked of you will be asked of you. Then, if you can 
accommodate us with the written answers, that would be helpful. 
With that, we will keep the record open, let us say, for 3 days 
for questions, and then as promptly as you can after that, if 
you could provide us answers, we would appreciate it. The 
testimony was extremely thoughtful and very, very helpful.
    We will with that--and again, with our thanks--some of you 
traveled some distance and rearranged your schedules. We are 
appreciative.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                       troop withdrawal from iraq
    1. Senator Levin. Mr. McGurk, the President announced on October 21 
that all U.S. troops would be withdrawn from Iraq as of the end of 
December 2011, as required under the 2008 Bush-Maliki Security 
Agreement. You were involved in the negotiation of that 2008 security 
agreement. You said you helped manage the negotiations on whether and 
how to extend the December 2011 deadline for the withdrawal of U.S. 
troops. In negotiating the 2008 Bush-Maliki Agreement, did the United 
States seek to retain U.S. military forces in Iraq after December 2011?
    Mr. McGurk. During the 2008 negotiation, I was involved from the 
beginning of the planning process in early 2007 through the final 
ratification of the Security and Strategic Framework Agreements (SFA) 
in November 2008, ultimately serving as a lead negotiator of both 
accords. The United States initially sought to negotiate a long-term 
agreement that would retain flexibility for future presidential 
administrations but would not specify the number of U.S. troops in Iraq 
at any given time. It was later determined at the most senior levels of 
the U.S. Government that a multi-year security agreement would not 
garner adequate Iraqi political support or survive a vote in the Iraqi 
parliament without a discussion of withdrawal timelines.

    2. Senator Levin. Mr. McGurk, at the time of the negotiations, 
didn't the Government of Iraq refuse to agree to permit U.S. military 
forces in Iraq past the December 2011 deadline?
    Mr. McGurk. The Security Agreement that was ratified by the Iraqi 
Council of Representatives on November 27, 2008, stated that all U.S. 
forces had to withdraw from Iraq by the end of 2011. There was some 
debate at the time whether an implementing arrangement under the SFA--a 
permanent accord ratified in parallel with the Security Agreement--
might allow for a limited number of U.S. military forces to remain in 
Iraq beyond the 2011 withdrawal date, primarily for the purposes of 
training and advising the Iraqi Security Forces. Iraqi and U.S. legal 
experts later determined, however, that under Iraqi law, U.S. troops 
carrying out a robust training mission could retain adequate legal 
protections only via a new accord ratified by the Iraqi parliament.

    3. Senator Levin. Dr. Ollivant, you argued in a recent article 
against negotiating a residual U.S. force presence in Iraq, saying that 
abiding by the terms of the 2008 security agreement is critical to the 
United States because ``leaving Iraq on the terms dictated by its 
sovereign government will put to bed the very real perception that the 
United States invaded the country to transform it into its `51st 
state.' '' Would you agree that the withdrawal of U.S. forces from 
Iraq, as promised by the 2008 agreement signed by President Bush, 
enhances U.S. credibility and influence among Arab nations that America 
keeps its promises and is not an occupying force?
    Dr. Ollivant. Yes. I absolutely believe that our abiding by the 
terms of the 2008 sovereign agreement absolutely enhances U.S. 
credibility and influence in the region.

    4. Senator Levin. Dr. Pollack, you wrote that even prior to the 
President's announcement on the withdrawal of all U.S. troops from 
Iraq, that the Government of Iraq was already ``deeply ambivalent, if 
not downright hostile'' to the idea of a U.S. force presence in Iraq 
past the December deadline. Would you agree that the consent of the 
Government of Iraq in a formal agreement is a prerequisite for any U.S. 
military forces to remain in Iraq after December?
    Dr. Pollack. Absolutely. Indeed, as I also stated in my testimony, 
the Bush administration left the Obama administration a weak hand in 
Iraq. Part of that weakness lay in the fact that the Bush 
administration handed back sovereignty prematurely, at a point when 
Iraq's political institutions remained weak, and may prove inadequate 
to preserve a democratic system of government without significant 
external assistance. However, having foolishly handed back sovereignty 
prematurely, the United States was required to respect it.

    5. Senator Levin. Dr. Pollack, should we leave troops in Iraq 
without immunity from prosecution in Iraqi courts?
    Dr. Pollack. The specific question is a legal issue as much as a 
political one. American military personnel certainly travel to and 
spend considerable amounts of time in countries where they are not 
immune from prosecution by local courts. However, the political 
realities of Iraq made it seem highly risky to leave American troops in 
Iraq without such immunities. All that said, I believe that the United 
States could have handled the entire question of retaining a military 
presence in Iraq past 2011 better than it did. Although it was still 
likely that the Iraqis would not have agreed to a new Status of Forces 
Agreement (SOFA)--thereby making it possible to keep American troop in 
Iraq--it was not impossible, and it would have been better for all 
concerned if we had been able to do so.

    6. Senator Levin. Dr. Pollack, should President Bush have refused 
in 2008 to remove troops by December 2011?
    Dr. Pollack. No. Once again, having made so many wrong-headed 
decisions including the creation of a weak government dominated by 
problematic elements of Iraqi society and the return of sovereignty to 
that government, the Bush administration could not refuse to remove 
troops in December 2011. But that does not cover the full spectrum of 
possibilities. The Bush administration could have insisted on returning 
to the U.S. Security Council for another extension of the U.S. 
occupation mandate. It also could have handled the negotiations over 
the Security Agreement better so that the United States did not make so 
many concessions which limited our ability to ensure that Iraq's 
political leaders would abide by the rules of their own political 
system.

                       iranian influence in iraq
    7. Senator Levin. Dr. Ollivant, you have written that, 
``Ironically, it is by leaving Iraq that the United States can best let 
Iraq stand up to its Iranian neighbor.'' You added that it is largely 
because of the U.S. presence that Iran has made inroads in Iraq and 
that once the perceived U.S. occupation of Iraq ends, Iraqi 
nationalists like al Sadr are likely to recognize that they do not want 
Iraq to be an Iranian client state. Is it your view that the U.S. 
military departure from Iraq will actually reduce the dependence of 
Arab nationalist groups, including al Sadr, on Iran because these 
groups would no longer need Iran's assistance to resist a perceived 
U.S. occupation of Iraq?
    Dr. Ollivant. A clarification. I do not believe that the U.S. 
presence has helped Iran make inroads into Iraq. Iran did that all on 
their own. However, I do believe that the U.S. presence is the most 
visible offense to Iraqi nationalists, pushing the Iranian presence 
down their priority list.
    I would distinguish between the senior levels of groups and their 
constituents. I believe the senior Sadrist leaders have no desire to 
give up Iranian funding, through which they gain power and influence. 
However, in the absence of a U.S. ``occupier,'' it will be very 
difficult for them to justify to their anti-Persian constituents why 
they are still taking Iranian money.

    8. Senator Levin. Mr. McGurk, in your view, what impact has the 
presence of U.S. forces in Iraq had on the ability of Iranian-backed 
extremist groups to recruit new members?
    Mr. McGurk. The U.S. military presence in Iraq was a source of 
recruitment for Iranian-backed extremist groups in Iraq. These groups, 
often at Iranian behest, raised the false mantle of occupation to 
recruit young Iraqis to their cause and carry out attacks against U.S. 
and Iraqi forces. The Iraqi Government believes it can further 
demilitarize Iranian-backed militias after U.S. forces withdraw. Iraqi 
Security Forces--with U.S. technical assistance--must remain vigilant 
to ensure that these groups can no longer pose a direct threat to the 
Iraqi state or to the U.S. diplomatic and security presence that will 
remain in Iraq beyond 2011.

    9. Senator Levin. Mr. McGurk, you point out in your Washington Post 
editorial that while Iran will have influence in Iraq, we will also 
retain great influence through military sales and business deals. Do 
you believe that Iraqi interest in U.S. military sales and business 
deals with U.S. companies has the potential to offset Iranian influence 
after the withdrawal of our troops?
    Mr. McGurk. Iraq's relationship with Iran is exceedingly complex 
and multifaceted, intertwined historically, economically, culturally, 
religiously, and geographically. The United States, however, retains 
levers of influence and it is important wherever possible to accelerate 
them. In terms of U.S. business deals, Iraq has chosen Boeing as the 
backbone of its civilian airline; General Dynamics and other U.S. 
suppliers as the backbone of its military; and General Electric as a 
primary supplier for future electricity generating infrastructure. 
Iraq's FMS program is now valued over $10 billion and exceeds 400 
cases, each with training, maintenance, and sustainment contracts, in 
addition to end use monitoring. U.S. manufactured automobiles are now 
among the most popular among Iraqi consumers, with General Motors 
cornering nearly a third of the Iraqi consumer marketplace. U.S. 
exports to Iraq increased by nearly 50 percent (to $2.4 billion) 
between 2010 and 2011. There is potential--as Iraq becomes further 
integrated into the global marketplace and Iran becomes further 
isolated--to harness America's private industry to help balance Iranian 
influence. This will, however, remain a long-term challenge and require 
close coordination between the United States and Iraq, particularly in 
the areas of macro-economic reform and improving the Iraqi business 
climate, which remains weighed down by decades of war, sanctions, 
corruption, and statist policies.

    10. Senator Levin. Mr. McGurk, there are assertions being made that 
when U.S. military units depart Iraq, faction militias, some aligned 
with Iran, will restart or increase their attacks on the Iraqi Security 
Forces. What is your assessment of the likelihood of militia attacks on 
the Iraqi Security Forces after complete withdrawal of U.S. troops?
    Mr. McGurk. Iranian-backed extremist groups are likely to try a 
number of tactics to remain relevant after the U.S. withdrawal. They 
have not, however, taken on the Iraqi Security Forces in an organized 
way since the Battle of Basra in the spring of 2008; nor are they 
likely to do so after the U.S. withdrawal. The Iraqi Security Forces 
now overmatches Shia extremist groups. This was not the situation in 
2008, when Jaysh al-Mahdi and other illegal militias controlled swaths 
of territory across Baghdad and southern Iraq.

    11. Senator Levin. Mr. McGurk, in you view, is the Iraqi Security 
Forces capable and reliable enough to deal with militias regardless of 
their political, ethnic, or religious allegiance?
    Mr. McGurk. The effectiveness of the Iraqi Security Forces varies 
greatly unit-by-unit. But we have seen over the course of 2011 an 
ability to counter militias--particularly in Maysan province--with 
limited U.S. support. Iraqi Special Forces have become among the most 
effective in the region, although their effectiveness could be degraded 
without continued U.S. intelligence and logistical support. This is 
why, as explained in my testimony, it will be essential to do 
everything we can--through the SFA--to ensure close cooperation in the 
areas of counterterrorism and intelligence sharing.

                     strategic framework agreement
    12. Senator Levin. Mr. McGurk, the United States and Iraq have a 
2008 SFA that provides for a long-term relationship between our nations 
regardless of any potential residual U.S. troop presence in the 
country. The departure of U.S. forces has been characterized as the end 
of only the first chapter of what will be an enduring relationship with 
Iraq for many years to come. In your view, does the 2008 SFA provide a 
basis for a long-term U.S.-Iraq relationship?
    Mr. McGurk. Yes. The SFA was specifically designed to set a 
foundation for a long-term and enduring bilateral relationship across a 
number of fields, including energy, culture, education, commerce, 
diplomacy, and defense. In the security area, the SFA establishes a 
Defense and Security Joint Coordinating Committee (JCC). Through this 
JCC, the United States and Iraq can begin to formalize high-level 
discussions on a future defense partnership, which might include joint 
military exercises, training and liaison programs, and enhancing the 
role of the Office of Security Cooperation in Iraq (OSC-I). It is 
anticipated that the first Defense and Security JCC will be held in 
Washington over the first quarter of 2012. Additional JCCs will be held 
throughout the coming calendar year, including in the critical areas of 
energy, economics, diplomacy, and the rule of law.

    13. Senator Levin. Mr. McGurk, in your view, is this agreement 
sufficient to provide for developing the shared security, political, 
and economic interests of the United States and Iraq?
    Mr. McGurk. As its title implies, the SFA is a ``framework'' for 
future relations between Iraq and the United States. Like any agreement 
it now must be executed in a manner that begins to institutionalize its 
structures and arrangements. As stated in my testimony, this means 
institutionalizing the joint committees the SFA calls for, especially 
in the areas of diplomacy, energy, and defense. Establishing regular 
and coordinated contacts--between U.S. and Iraq officials, businesses, 
educational institutions--will also be important for developing a 
multi-faceted partnership. With a strong and determined commitment from 
both the U.S. and the Iraqi side, the SFA has potential to set the 
foundation for a future long-term partnership.

                      state department involvement
    14. Senator Levin. Mr. McGurk and Dr. Ollivant, after the 
withdrawal of U.S. troops in December, there will reside within the 
U.S. embassy a very robust OSC-I. Also, the State Department plans to 
have 350 police advisors working with 52 Iraqi police sites around the 
country. All of which will be in Iraq well beyond December providing 
continuing support for the development of Iraq's security forces and 
assistance with ongoing sales of U.S. equipment for their military 
modernization. In your view, how will this sizable OSC-I be perceived 
in terms of the U.S. commitment to Iraq's security and stability?
    Mr. McGurk. The OSC-I is focused on facilitating the delivery of, 
service, and training on purchased U.S. equipment, in addition to other 
areas of security assistance and cooperation. As stated in my 
testimony, the OSC-I will be the focal point for security assistance 
and cooperation with the government of Iraq, managing what is now the 
fourth largest FMS program in the region and ninth largest in the 
world. The SFA envisions an even broader security relationship that 
might include training exercises or other similar programs as we have 
with partners in the region and around the world. This is one area that 
might be developed over the coming year through the SFA.
    Dr. Ollivant. I believe the OSC is a visible symbol of American 
commitment to Iraq and will be largely welcome. Their role should keep 
them almost exclusively on Iraqi military bases and they should have 
little to no interaction with the larger Iraqi populace.

    15. Senator Levin. Dr. Ollivant, you have written about the 
importance of two instruments of U.S. soft power, specifically the 
State Department and the American business community, in shaping future 
U.S.-Iraq relations. What would you see as the role of the U.S. 
military within a normalized relationship between the United States and 
Iraq?
    Dr. Ollivant. In addition to the very important role of the OSC, I 
think that, after a decent interval, joint exercises with U.S. and 
Iraqi forces--perhaps with Egypt's Bright Star as an explicit model--
could be very useful for both sides and continue to develop Iraqi 
capability. In addition, Iraqi military officers and noncommissioned 
officers should be trained in the U.S. military school system in the 
largest possible numbers. Combined naval training should continue in 
international waters. Training the air force remains the most complex 
problem, but once a basic level of proficiency is attained, combined 
air training could also occur in neutral territory.

                        political system in iraq
    16. Senator Levin. Mr. McGurk and Dr. Ollivant, what is your 
assessment of the stability of the Maliki Government today and going 
forward, including through the rest of this year and after the 
withdrawal of U.S. military forces?
    Mr. McGurk. Fundamental political disputes--including the division 
of authority between central, regional, and provincial governments; 
rivalries between and within competing political blocs; and 
disagreement over the management and control of natural resources--will 
continue well beyond the departure of U.S. troops. Under the Iraqi 
constitution, an absolute parliamentary majority can remove confidence 
from a prime minister or call for new elections. Thus far, Iraq has not 
seen a movement coalesce with the strength of an absolute majority (163 
seats) to force such a change. Absent such a majority coalition, the 
next opportunity to constitutionally change the government may be 
national elections in 2014. It will be vitally important that the 
United States work with the Iraqi political leadership and the United 
Nations to ensure: (1) that those elections happen on time; and (2) 
that they are free, fair, and meet international standards.
    Dr. Ollivant. The Maliki Government is clearly not as stable as we 
would like. The most recent national election produced a gridlock that 
is not conducive to normal politics. However, despite the recent 
conflict between the various parties in the coalition government, I 
fully expect politics to muddle through to the next electoral cycle. 
This is not to say that the interim result will be optimal.

    17. Senator Levin. Mr. McGurk and Dr. Ollivant, in your assessment, 
how resilient has the democratic process been in Iraq?
    Mr. McGurk. Since January 2005, Iraq has held three national 
elections, two sets of provincial elections, and a national referendum. 
The democratic process has thus shown great resiliency even in the 
midst of a sectarian war between 2006 and 2008. A healthy democratic 
process also requires strong and independent institutions--including an 
independent parliament and judiciary--and broadly accepted rules for 
the division and separation of power. It is in the latter category that 
Iraq continues to face challenges and will require active and 
continuing U.S. engagement.
    Dr. Ollivant. I believe that, for the region, Iraqi politics have 
been reasonably resilient. It is easy now to forget the 2009 provincial 
elections, which may be the only election in the region in which 
religious parties were disempowered by democratic means in favor of 
more secular nationalist parties. While the 2010 national elections 
were not as clearly successful, they have had the virtue of keeping 
tension and issues in the political process (some assassinations 
perhaps excepted). We have yet to see any party in Iraq revert to 
violence or militias. I see no reason to believe that will change in 
the near future. But we must remember that states with multiple ethno-
sectarian groups are hard to govern.

    18. Senator Levin. Mr. McGurk and Dr. Ollivant, do you believe that 
the major factions in Iraq remain committed to resolving their 
differences within the political process rather than through violence?
    Mr. McGurk. The parties that are now inside the political process--
including the three largest blocs: Iraqiyya, the National Alliance, and 
the Kurdish Alliance--seem willing to resolve even the most contentious 
disputes through a constitutional and democratic process. The primary 
driver of violence in Iraq remains al Qaeda, which sits far outside the 
political process. Working with the Iraqis to enforce the accepted 
divisions of authority and power-sharing formulas as defined in the 
Iraqi Constitution and the Irbil Agreements of 2010 can help ensure 
that this consensus towards political solutions remains intact.
    Dr. Ollivant. Yes.

                          u.s. troop immunity
    19. Senator Levin. Mr. McGurk, U.S. and Iraqi negotiations on a 
possible residual U.S. force presence in Iraq after December of this 
year stalled over Iraq's unwillingness to grant U.S. troops immunity 
from Iraqi courts. When the United States and Iraq negotiated the 2008 
Security Agreement, was it the U.S. position that U.S. troops receiving 
legal immunity from prosecution in Iraqi courts was an absolute 
requirement without which there could be no agreement?
    Mr. McGurk. Article 12 of the Security Agreement (Jurisdiction) was 
painstakingly negotiated over the course of a year. U.S. troops would 
not have remained in Iraq without a provision on jurisdiction approved 
by the Department of Defense (DOD). Article 12 was approved by DOD, but 
it expires on December 31, 2011, together with the expiry of the 
Security Agreement.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill
               legal protections for u.s. troops in iraq
    20. Senator McCaskill. Secretary Panetta and General Dempsey, on 
November 17, 2008, the administration of President George W. Bush 
signed an agreement with the Government of Iraqi Prime Minister Nouri 
al-Maliki that provided for the continued presence of U.S. combat 
forces in Iraq. Under the agreement, the United States is to withdraw 
its forces from Iraq no later than December 31, 2011. In October, 
President Obama announced that, in keeping with the agreement, U.S. 
forces in Iraq would be home by the end of the year.
    Some have suggested that U.S. military forces should remain in Iraq 
after the current December 31, 2011, deadline in order to prevent Iraq 
from sliding back into violence. It seems likely that, given such a 
mission, our troops would find themselves involved in combat.
    The November 2008 agreement granted legal protections from the 
Iraqi legal system to members of the U.S. Armed Forces. However, those 
protections expire at the end of this year. If our troops were to stay 
in Iraq past the December 31 deadline, they would likely be involved in 
combat without protections from Iraqi laws.
    What risks would U.S. servicemembers serving in Iraq face if they 
continued to engage in combat or counterterrorism operations in Iraq 
beyond the December 31, 2011, deadline without an extension of the 
types of legal protections they are granted under the current SOFA?
    Secretary Panetta. Throughout its discussions with the Iraqis, DOD 
remained committed to its obligations to draw down remaining forces 
under the U.S.-Iraq Security Agreement. DOD consistently stated that it 
was open to leaving additional training forces, but only at the request 
of the Iraqis and with adequate legal protections. As a result, the 
question of the legal status of any remaining forces was an essential 
part of this discussion, because DOD requires appropriate legal 
protections for U.S. troops, wherever they are deployed. It would be 
inappropriate to deploy them without such protections.
    Iraq's President Talabani convened a meeting of political bloc 
leaders on October 4, 2011. After the meeting, bloc leaders declared 
that any U.S. forces remaining after December 31, 2011, should not be 
granted immunity from Iraqi law. As a result, the U.S. diplomatic 
presence in Iraq will include a robust OSC-I, which will serve as the 
primary mechanism for continued security support to Iraq. OSC-I 
personnel in Iraq after 2011 will be accredited under the Vienna 
Convention on Diplomatic Relations and attached to the U.S. diplomatic 
mission.
    General Dempsey. The Agreement between the United States and the 
Republic of Iraq on the Withdrawal of Untied States Forces from Iraq 
and the Organization of Their Activities during Their Temporary 
Presence in Iraq (The Security Agreement) contained privileges and 
immunities afforded to both uniformed members of the U.S. Armed Forces 
and the civilian component of DOD.
    The risk to U.S. personnel remaining in Iraq after December 31, 
following expiration of the Security Agreement, would be the exercise 
of Iraqi criminal and civil jurisdiction over U.S. personnel in Iraq. 
The Security Agreement limited the Government of Iraq's legal 
jurisdiction to only the most ``grave premeditated felonies'' occurring 
outside of agreed facilities and outside the member's duty status. The 
United States maintained primary jurisdiction for those matters inside 
agreed facilities, and during duty status outside agreed facilities and 
areas. Further, the Security Agreement required Iraq to immediately 
notify U.S. authorities of the arrest or detention of a member of U.S. 
forces or its civilian component, and to hand them over within 24 hours 
of arrest or detention. The absence of status protections would 
potentially expose U.S. personnel to the uncertainties of the Iraqi 
legal system, which does not contain the same due process protections 
as provided under the U.S. legal system. Further, the Government of 
Iraq would not be obligated to turn over any U.S. personnel upon 
detention or arrest, or even to notify U.S. authorities of the arrest 
or detention of U.S. personnel.
    The Security Agreement also provided other necessary presence 
authorities such as exemption from payment of taxes, duties, fees, or 
other similar charges; exemption from Iraqi laws concerning licenses 
such as driver's licenses; permission to carry weapons and wear 
uniforms in furtherance of the member's duties; entry and exist 
permissions; and freedom of movement of vehicles and aircraft within 
Iraq. The ability of U.S. forces to conduct operations in Iraq would be 
significantly hampered without these authorities.

    21. Senator McCaskill. Secretary Panetta and General Dempsey, do 
you believe the Iraqi Parliament would have passed a new SOFA with the 
United States that provided the types of legal protections to U.S. 
servicemembers granted under the current SOFA?
    Secretary Panetta. Iraq's President Talabani convened a meeting of 
political bloc leaders on October 4, 2011. After the meeting, bloc 
leaders declared that any U.S. forces remaining after December 31, 
2011, should not be granted immunity from Iraqi law. Without political 
bloc leader support, it is unlikely that members of Iraq's Council of 
Representatives (CoR) would have voted to approve a new security 
agreement with the United States providing legal protections to U.S. 
servicemembers similar to those found in the 2008 U.S.-Iraq Security 
Agreement, which did receive CoR approval. This approval is required 
for such an agreement to be binding under international law.
    General Dempsey. Iraq's President Talabani convened a meeting of 
political bloc leaders on October 4, 2011. After the meeting, bloc 
leaders declared that any troops remaining after December 31, 2011, 
should not be granted immunity from Iraqi law. Without political bloc 
leader support, it is unlikely that members of Iraq's CoR would have 
voted to approve a new security agreement with the United States 
providing similar legal protections to U.S. servicemembers as the 2008 
U.S.-Iraq Security Agreement. CoR approval is required for a new 
security agreement to be binding under international law.

    22. Senator McCaskill. Secretary Panetta, can you discuss what 
efforts the administration took to secure legal immunity for U.S. 
forces, if a decision to extend some forces in Iraq had been achieved?
    Secretary Panetta. The appropriate number of forces after 2011 
always depended both on the mutually-agreed mission set and adequate 
legal protections. This was never something that could decide 
unilaterally--it was always going to be the product of ongoing 
discussions with the Iraqi Government.
    Throughout these discussions, DOD remained committed to its 
obligation to draw down remaining forces under the U.S.-Iraq Security 
Agreement. DOD consistently stated that it was open to leaving 
additional training forces, but only at the request of the Iraqis and 
with adequate protections. Iraq's President Talabani convened a meeting 
of political bloc leaders on October 4, 2011. After the meeting, bloc 
leaders declared that any U.S. forces remaining after December 31, 
2011, should not be granted immunity from Iraqi law.
    In the end, our governments agreed to a robust military-to-military 
relationship in keeping with those the United States enjoys with other 
countries, where interactions depend less on footprint and more on 
frequent engagement. The OSC-I will be the cornerstone of America's 
military-to-military relationship with Iraq. Because the OSC-I is part 
of the embassy staff, just as security cooperation offices are 
elsewhere around the globe, DOD personnel will have legal protections 
under normal diplomatic status (the Vienna Convention).

    23. Senator McCaskill. Secretary Panetta, what obstacles did the 
administration face in attempting to secure such immunity?
    Secretary Panetta. Iraq's President Talabani convened a meeting of 
political bloc leaders on October 4, 2011. After the meeting, bloc 
leaders declared that any U.S. forces remaining after December 31, 
2011, should not be granted immunity from Iraqi law. Without political 
bloc leader support, it is unlikely that members of Iraq's CoR would 
have voted to approve a new security agreement with the United States 
providing legal protections to U.S. servicemembers similar to those 
found in the 2008 U.S.-Iraq Security Agreement, which did receive CoR 
approval. This approval is required for such an agreement to be binding 
under international law.

    24. Senator McCaskill. Secretary Panetta, do you believe that 
anything could have been done differently that would have resulted in a 
different outcome?
    Secretary Panetta. Discussions with the Iraqis were about trying to 
figure out what the military-to-military relationship with Iraq was 
going to look like moving forward, and a big part of that was always 
going to be Iraq's decision not only about what sort of help it 
believed it needed, but also what it would accept. The question of the 
legal status of remaining forces was part of this discussion, because 
DOD requires appropriate legal protections for its personnel wherever 
they are deployed.
    The ultimate outcome of the discussions ensures a continuing 
security relationship with Iraq and adequate protections for DOD 
personnel. Iraqi leaders have made clear that they desire a continuing 
training relationship with the United States, and DOD will deliver that 
training through the OSC-I. Because the OSC-I is part of the U.S. 
embassy staff, just as security cooperation offices are elsewhere 
around the globe, defense personnel will be accredited under the Vienna 
Convention on Diplomatic Relations.

                       iranian influence in iraq
    25. Senator McCaskill. Secretary Panetta, many are concerned that 
Iraq will be vulnerable to Iranian influence once U.S. forces depart 
Iraq. What is being done to sustain a check on the dangerous Iranian 
regime?
    Secretary Panetta. The Iraqi Government made clear that it desires 
a strong relationship with the United States under the SFA, including 
robust security cooperation. That represents a victory for the U.S.-
Iraq partnership, not Iran's government. In general, my sense is that 
Iraqi nationalism remains a powerful influence among Iraq's various 
political factions, including the Shia.
    The United States' commitment to the future of the region is 
enduring. That involves a military footprint in the Persian Gulf that 
can help protect our interests, while also ensuring the stability of 
our partners and the region.

    26. Senator McCaskill. Secretary Panetta, where will U.S. forces be 
in the region once they are no longer in Iraq and how will their 
presence serve to check Iranian activities?
    Secretary Panetta. The United States' commitment to the future of 
the region is enduring. That involves a military footprint in the 
Persian Gulf that can help protect our interests, while also ensuring 
the stability of our partners and the region.
    America's long-term security partnership with Iraq is part of a 
broader commitment by the United States to peace and security 
throughout the region. Our message to our allies, friends, and 
potential adversaries is very clear: there are more than 40,000 U.S. 
forces that remain in the Gulf region. DOD will continue to reassure 
partners, deter aggressors, and counter those seeking to create 
instability.
                                 ______
                                 
               Questions Submitted by Senator John Cornyn
                       iranian influence in iraq
    27. Senator Cornyn. General Dempsey, this summer, the top U.S. 
military spokesman in Baghdad (Major General Jeffery Buchanan) stated 
that ``We're seeing a sharp increase in the amount of munitions coming 
across the border, some manufactured as recently as 2010,'' and ``These 
are highly lethal weapons, and their sheer volume is a major concern.'' 
What is your current assessment of the volume of munitions flowing from 
Iran into Iraq?
    General Dempsey. From May-July 2011, there was an increase in 
attacks against U.S. bases in Iraq. These attacks were largely 
attributed to Iranian-backed Shia militant and extremist groups. 
Intelligence indicated that some of the munitions used by the Shia 
groups flowed from Iran. Since July, Iraqi Security Forces increased 
their operational focus on interdicting the flow of munitions within 
Iraq and preventing attacks by Shia groups. Combined with the 
Government of Iraq's political efforts, the frequency and lethality of 
these attacks has diminished significantly. Consequently, the security 
situation in Iraq continues to be much better than historical trends. 
The Iraqi Security Forces have the capacity to counter potential 
increases in security incidents and interdict the flow of munitions.

    28. Senator Cornyn. General Dempsey, in June, 14 U.S. 
servicemembers were killed in Iraq, making it the deadliest month in 
Iraq for U.S. troops since 2008. According to senior U.S. commanders, 
Iranian-backed militias (Kataib Hezbollah, the Promise Day Brigade and 
Asaib al Haq) were behind 12 of those deaths. U.S. officials also 
believe that the explosively formed penetrators (EFPs), rockets, and 
improvised rocket-assisted mortars (IRAMs) used in those attacks all 
originated in Iran. It is my understanding that although the number of 
daily attacks is a fraction of what it was in years past, the amount of 
weaponry used in each attack is on the rise. One report indicated that 
in one attack, as many as 14 EFPs were used against U.S. forces. Can 
you comment on the assessment that the amount of munitions used in each 
attack is on the rise?
    General Dempsey. June 2011 represented a surge in the peak period 
of attacks by Iranian-backed militants and terrorists against U.S. 
forces in Iraq. Intelligence indicated that the munitions used in these 
attacks may have originated in Iran. The perceived increase in volume 
of munitions used in each attack is largely attributable to the 
concurrent drawdown of U.S. forces in Iraq. As U.S. bases closed, 
Iranian-backed Shia groups were able to concentrate their attempted 
attacks to a few locations. This resulted in a corresponding increase 
in the amount of munitions used in each attack which temporarily helped 
the groups mitigate their technical inexperience and the relative 
inaccuracy of the munitions employed. In tandem with the Government of 
Iraq's political efforts, the Iraqi Security Forces reacted quickly and 
effectively stemmed the flow of weapons and concentrations of attacks 
against U.S. bases. Since July, the level of attacks returned to 
significantly lower levels than historic trends and the security 
situation remains stable as the United States completes the withdrawal.

    29. Senator Cornyn. Secretary Panetta, do you believe that Iranian 
backed militias will begin targeting U.S. diplomats once the U.S. 
military has left Iraq, and if so, why?
    Secretary Panetta. There may be some level of continuing violence 
after DOD completes the drawdown, and extremists in Iraq will likely 
continue periodic high-profile attacks, but Iraq's security forces made 
tremendous progress in recent years and I assess that they are capable 
of maintaining internal security.
    Over recent months DOD, along with its Iraqi partners, made 
aggressive actions against militant groups that target U.S. military 
and diplomatic personnel. The Iraqis also exerted diplomatic pressure 
on the Iranians. Together, these efforts resulted in a sharp decrease 
in attacks.
    Going forward, Iraqi leaders understand that a key condition of our 
partnership and the support DOD provides is that the Iraqi Government 
takes measures necessary to support defense personnel. This is 
particularly the case in the context of the diplomatic presence the 
United States will have post-2011.

    30. Senator Cornyn. Secretary Panetta, in testimony before this 
committee earlier this year, the Director of the Defense Intelligence 
Agency noted that Iran's Islamic Revolutionary Guard Corps-Qods Force 
is covertly providing money, weapons, safe haven, and training to Iraqi 
Shia militants and terrorists, stating that ``Tehran approves the rules 
of engagement that guide the targeting of U.S. forces in Iraq.'' In 
Iraq, how great is the risk that the Iranian regime will obtain a 
greater destabilizing influence following the planned withdrawal of the 
last U.S. troops by December?
    Secretary Panetta. [Deleted.]

    31. Senator Cornyn. Secretary Panetta, in your view, what is the 
best strategy that the United States can employ to deter Iran's 
destabilizing activities in the region?
    Secretary Panetta. The United States and its partners in the region 
are committed to countering Iran's destabilizing influence. While the 
United States is strengthening its regional security relationships in 
recent years, Iran's destabilizing activities only resulted in further 
isolation. So as the United States marks a new phase in its enduring 
partnership with Iraq, the Iranian regime is more likely than ever to 
be marginalized in the region as a whole and in its ability to 
influence the Iraqi political process.
    America's long-term security partnership with Iraq is part of a 
broader commitment by the United States to peace and security 
throughout the region. Our message to allies, friends, and potential 
adversaries is very clear: there are more than 40,000 U.S. forces that 
remain in the Gulf region, and we will continue to reassure partners, 
deter aggressors, and counter those seeking to create instability.

    32. Senator Cornyn. Secretary Panetta, on November 12, Iraq was the 
only country to abstain when the Arab League voted to suspend Syria 
because of its violent, 8-month crackdown on protestors calling for 
government reform. Although Iraq's foreign minister has stated his 
country was not pressured to abstain, but had to take into account 
``international and regional calculations.'' Others speculate that this 
action is further evidence of Iran's influence in Iraq, as Iran remains 
a strong supporter of the Assad regime in Syria. In your opinion, what 
does this action by Iraq demonstrate?
    Secretary Panetta. I do not believe that Iraq's decisions 
concerning Syria reflect Iranian influence. Rather, it is my sense that 
Iraqi nationalism and resistance to Iranian influence remain powerful 
forces among all Iraqi political factions.

                           sofa negotiations
    33. Senator Cornyn. Secretary Panetta, it is my understanding that 
in many other countries, including in nations throughout the Arab 
world, U.S. personnel operate under Memoranda of Understanding that 
give them legal immunity and do not require parliamentary ratification. 
It is also my understanding that the 2008 U.S.-Iraq SOFA, which granted 
U.S. troops legal immunity, did not require ratification by the Iraqi 
Parliament. Why did the administration insist that a new SOFA be 
ratified by the Iraqi Parliament?
    Secretary Panetta. Under Iraqi law, approval by Iraq's 
parliamentary body, the CoR, is necessary for any security agreement to 
be binding under international law. The 2008 U.S.-Iraq Security 
Agreement was approved by the CoR on November 27, 2008. Other countries 
have different requirements for agreements to be legally binding. 
Therefore, the arrangements with various countries in the world to 
provide protections for U.S. military personnel will reflect that 
difference.

    34. Senator Cornyn. Secretary Panetta, the President opened talks 
for extending the SOFA this summer, approximately 6 months before the 
December 31 deadline. There are reports that prior to the President's 
October conversation with Prime Minister Maliki, the two leaders had 
not spoken in months. Additionally, it is my understanding that the 
President and his senior aides did not meet with Iraqi officials at the 
United Nations General Assembly in September. In contrast, President 
Bush began negotiations for a SOFA roughly a year in advance of the 
2008 SOFA and spoke with Prime Minister Maliki via video teleconference 
weekly. If the report that the President was largely absent from 
discussions with Iraqi officials over the past 9 months is true, should 
it be a surprise that the administration was unable to reach an 
agreement with the Government of Iraq?
    Secretary Panetta. The field requested to have the lead, with full 
Washington support. This was similar to the 2008 SOFA negotiations that 
Ambassador Crocker led. The field had active discussions with the 
Iraqis along two tracks: a political track led by Ambassador Jeffrey 
and a military-to-military technical track led by General Austin.
    The President and Vice President are engaged on the issue both 
internally and with Iraqi leaders. Washington supported negotiations in 
weekly deputies-level teleconferences with the field and regular calls 
from the Vice President and other senior officials to Iraqi leaders. A 
monthly principals-level meeting chaired by the Vice President was also 
held to provide additional support.
    I traveled to Iraq to move discussions forward, as did Secretary 
Gates, Chairman Mullen, and senior State Department officials.

    35. Senator Cornyn. Secretary Panetta, can you comment on the 
frequency of discussions you had with your Iraqi counterpart regarding 
a U.S. presence in Iraq past the end of 2011?
    Secretary Panetta. I traveled to Iraq to move discussions forward, 
as did Secretary Gates, Chairman Mullen, and senior State Department 
officials.
    The field requested to have the lead, with full Washington support. 
This was similar to the 2008 SOFA negotiations that Ambassador Crocker 
led. In this case, Ambassador Jeffery led a political track and General 
Austin led a military-to-military technical track.
    The President and Vice President have been engaged on the issue 
internally and with Iraqi leaders. Washington supported negotiations 
with weekly deputies-level teleconferences with the field and regular 
calls from the Vice President and other senior officials to Iraqi 
leaders. A monthly principals-level meeting chaired by the Vice 
President was also held to provide whatever support was needed.

                               insurgents
    36. Senator Cornyn. Secretary Panetta and General Dempsey, several 
military and civilian leaders have expressed serious concern regarding 
the Iraqis' limited military capabilities in the key areas of 
logistics, intelligence, and aviation, and what that will mean once 
U.S. forces withdraw as planned, by December 31, 2011. How concerned 
are you about al Qaeda returning to Iraq following the departure of 
U.S. Armed Forces?
    Secretary Panetta. There is a chance that al Qaeda in Iraq (AQI) 
will use the withdrawal of U.S. forces as an opportunity to reassert 
influence within Iraq. Iraqi Security Forces currently demonstrate the 
capability to conduct counterinsurgency operations and maintain 
internal security and stability in Iraq. This capability strengthens 
daily. Therefore, while there may be a slight increase in security 
incidents after December 31, 2011, I believe it is within the capacity 
of the Iraqi Security Forces to handle.
    General Dempsey. There is a chance that AQI will use the withdrawal 
of U.S. forces as an opportunity to reassert influence within Iraq. 
Iraqi Security Forces currently demonstrate the capability to conduct 
counterinsurgency operations and maintain internal security and 
stability in Iraq. This capability strengthens daily. Therefore, while 
there may be a slight increase in security incidents after December 31, 
2011, we believe it is within the capacity of the Iraqi Security Forces 
to handle.

    37. Senator Cornyn. Secretary Panetta and General Dempsey, will the 
Iraqis adequately prevent terrorist organizations from taking root and 
growing in Iraq?
    Secretary Panetta. I expect that the underlying security situation 
in Iraq will remain stable. I believe that the Iraqis are capable of 
preventing terrorist organizations from taking root in Iraq. The Iraqi 
Security Forces are functioning well as a counterinsurgency force, and 
demonstrated the capability to provide for the internal security of 
their country. Although AQI remains a threat, as evidenced by 
occasional high-profile attacks, terrorist organizations do not have 
the support of the Iraqi people.
    General Dempsey. The underlying security situation in Iraq will 
remain stable. We believe that the Iraqis are capable of preventing 
terrorist organizations from taking root in Iraq. The Iraqi Security 
Forces are functioning well as a counterinsurgency force and have 
demonstrated the capability to provide for the internal security of 
their nation. Although AQI remains a threat, as evidenced by occasional 
high-profile attacks, terrorist organizations do not have the support 
of the Iraqi people.

                     sale of f-16 fighters to iraq
    38. Senator Cornyn. Secretary Panetta, in September, DOD announced 
that Iraq had made the first payment for an initial purchase of 18 F-16 
fighters. Reports indicate deliveries would be made in the 2014-2015 
time period. In the interim period before delivery of these F-16s, how 
does Iraq intend to maintain control of its airspace and what is your 
assessment of its ability to do so?
    Secretary Panetta. DOD continues to conduct various Air Force-
centric activities, training, and exercises in order to strengthen 
Iraqi military capability as U.S. forces withdraw-to include Iraqi 
control and oversight of their airspace. The OSC-I is responsible to 
execute the current program of record. From an air perspective, OSC-I 
is charged to develop and train the Iraq Air Force so it can defend 
Iraq's borders and airspace against external threats. The Government of 
Iraq will capitalize on Foreign Military Sales, Foreign Military 
Financing, International Military Education and Training programs, and 
security cooperation activities, to include: exercises, combined arms 
training, and mentoring activities.
    In the near-term, some Iraqi capability gaps will remain as they 
continue to professionalize the force. U.S. presence in the region will 
provide a deterrent to foreign aggression in Iraq post-Operation New 
Dawn (2012 and beyond) in support of the SFA.

    39. Senator Cornyn. Secretary Panetta, what is DOD doing to 
facilitate the sale of F-16s and ensure timely delivery of these 
aircraft to Iraq?
    Secretary Panetta. The Government of Iraq signed a Letter of Offer 
and Acceptance (LOA) for 18 F-16s on 13 September 2011. One week later, 
they funded the LOA with approximately $1.5 billion (half of the total 
expected case value), and DOD initiated a full-scale effort to provide 
Iraq with a complete F-16 capability, including aircraft, weapons, 
infrastructure, sustainment, and training. Under the current plan, DOD 
expects to deliver the first two F-16 aircraft to Iraq in February 2015 
and anticipate the ability to accelerate delivery by 5 months with the 
initial delivery of two F-16 aircraft in September 2014.
    The following actions have occurred since Iraq funded their F-16 
program on 21 September 2011:

        <bullet> Assembled program management team at the Air Force 
        Materiel Command's Aeronautical Systems Center (Oct.)
        <bullet> Hosted initial F-16 program management conference with 
        U.S. Government and industry (Nov.)
        <bullet> Provided basing recommendations to Iraqi Air Force 
        (Nov.)
        <bullet> Initiated first security requirements survey at 
        potential F-16 basing locations (Nov.)
        <bullet> Awarded $835 million contract to Lockheed Martin for 
        F-16 aircraft (Dec.)
        <bullet> Recommended training approach to Iraqi Air Force for 
        F-16 maintenance
        <bullet> Initiated F-16 training for first Iraqi Air Force F-16 
        pilot (Dec.)
        <bullet> Solicited proposals for facilities site surveys (Nov.)
        <bullet> Conducted communication and security site surveys at 
        two potential bed down bases (Dec.)

    DOD expects the following activities to occur during the coming 
months:

        <bullet> Host formal kickoff conference with U.S. and Iraqi 
        program management teams
        <bullet> Solicit proposals and award contracts for facilities 
        and security infrastructure design/construction
        <bullet> Conduct multiple definitization conferences to 
        solidify requirements for spare parts packages, support 
        equipment, training, and facilities
        <bullet> Present amendment to the first LOA for 18 aircraft 
        which will provide the next $1 billion required to continue 
        program development
        <bullet> Develop and offer LOA for 18 additional F-16 aircraft 
        (bringing the total to 36 x F-16s for Iraq)

    [Whereupon, at 1:10 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
